<html>
<title> - DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2017</title>
<body><pre>[Senate Hearing 114-]
[From the U.S. Government Publishing Office]



 
       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2017

                              ----------                              


                       WEDNESDAY, MARCH 16, 2016

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:29 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Thad Cochran (chairman) presiding.
    Present: Senators Cochran, Murkowski, Blunt, Daines, Moran, 
Tester, Udall, and Schatz.

                         DEPARTMENT OF DEFENSE

                       National Guard and Reserve

STATEMENT OF GENERAL FRANK J. GRASS, CHIEF, NATIONAL 
            GUARD BUREAU


               opening statement of senator thad cochran


    Senator Cochran. Good morning. Welcome to the hearing of 
our Defense Appropriations Subcommittee. We are reviewing this 
morning the proposed budget for the National Guard and Reserve. 
We want to thank all of you who are here to present information 
and statements to the committee about the budget request.
    We especially appreciate the quality of leadership we have 
in our Armed Forces today: General Frank Grass is Chief of the 
National Guard Bureau; Major General Brian Neal, Acting 
Director of the Air National Guard; Lieutenant General Timothy 
Kadavy, who is Director of the Army National Guard; Lieutenant 
General Jeffrey Talley, Chief of the Army Reserve; Vice Admiral 
Robin Braun, Chief of the Navy Reserve; Lieutenant General 
James Jackson, Chief of the Air Force Reserve; and Lieutenant 
General Rex McMillian, Commander of Marine Forces Reserve.
    The Guard and Reserve, as we all know, provide one-third of 
the personnel currently serving in our armed services, and they 
continue to be a vital source of contributions to our military 
operations overseas and in the defense of our homeland.
    Since 2001, the Reserve components have evolved from a 
strategic force in reserve to an operational reserve. As they 
have evolved, they have maintained a higher state of readiness, 
in the event the President or Secretary of Defense calls them 
to duty.
    Despite fiscal and global uncertainties, our guardsmen and 
reservists have done an outstanding job in answering the call 
while managing civilian careers in their spare time.
    I look forward to hearing about our successes and our 
challenges from today's panel of witnesses.
    The budget request suggests funding for the Guard and 
Reserve, which is contained within the budget request of the 
Army, Navy, Marine Corps, and Air Force, at an amount of $46.6 
billion for fiscal year 2017. The request is $400 million less 
than the current level.
    However, evolving requirements for mobilized guardsmen and 
reservists make it very important for this Committee to get it 
right. And we value the insight and assistance of this 
distinguished panel.
    [The statement follows:]
               Prepared Statement of Senator Thad Cochran
    We are reviewing this morning the proposed budget request for the 
National Guard and Reserve. We want to thank all of you are here to 
present information and statements to the committee about the budget 
request. We especially appreciate the quality of leadership we have in 
our Armed Forces today:
  --General Frank Grass, Chief of the National Guard;
  --Major General Brian Neal, Acting Director of the Air National 
        Guard;
  --Lieutenant General Timothy Kadavy, Director of the Army National 
        Guard
  --Lieutenant General Jeffrey Talley, Chief of the Army Reserve;
  --Vice Admiral Robin Braun, Chief of the Navy Reserve;
  --Lieutenant General James Jackson, Chief of the Air Force Reserve; 
        and
  --Lieutenant General Rex McMillian, Commander of Marine Forces 
        Reserve.
    The Guard and Reserve provide one-third of the personnel currently 
serving in our armed services, and they continue to be vital source of 
contributions to our military operations overseas and in the defense of 
our homeland.
    Since 2001, the Reserve Components have evolved from a strategic 
force in reserve to an operational reserve. As they have evolved, they 
have maintained a higher state of readiness in the event the President 
or Secretary of Defense calls them to duty.
    Despite fiscal and global uncertainties, our Guardsmen and 
Reservists have done an outstanding job of answering the call while 
managing civilian careers. I look forward to hearing about our 
successes and our challenges from today's panel of witnesses.
    The budget request suggests funding for the Guard and Reserve, 
which is contained within the budget requests of the Army, Navy, Marine 
Corps, and Air Force, at an amount of $46.6 billion for fiscal year 
2017. The request is $400 million less than the current level. However, 
evolving requirements for mobilized Guardsmen and Reservists make it 
very important for this Committee to ``get it right,'' and we value the 
insight and assistance of this distinguished panel.

    Senator Cochran. Your full statements, which you have 
prepared, will be included at this point in the record. I want 
to welcome in this order and let you make opening statements, 
the Chief of the National Guard Bureau, General Frank Grass; 
Acting Director of the Air National Guard, Major General Brian 
Neal; Director of the Army National Guard, Lieutenant General 
Timothy J. Kadavy; Chief of the Army Reserve, Lieutenant 
General Jeffrey W. Talley; Chief of the Navy Reserve, Vice 
Admiral Robin Braun; Chief of the Air Force Reserve, Lieutenant 
General James Jackson; and Commander of the Marine Forces 
Reserve, Lieutenant General Rex C. McMillian.
    I am very pleased to invite you to make opening statements, 
as you see fit. How do you want us to start? General Grass?
    General Grass. Chairman, I will go ahead and start, if 
that's okay?
    Senator Cochran. Thank you.

              SUMMARY STATEMENT OF GENERAL FRANK J. GRASS

    General Grass. Chairman Cochran, it is a pleasure to be 
here today with my Guard and Reserve fellow leaders. I am 
honored to represent the more than 453,000 citizen soldiers and 
airmen of the Army and Air National Guard and their families, 
communities, and employers who support them.
    The Guard is tremendously appreciative of this committee's 
support. Your investment has resulted in the finest and most 
diverse National Guard I've witnessed throughout my career.
    In countries such as Afghanistan, Djibouti, Iraq, Kosovo, 
Qatar, the Sinai, and many other locations, our guardsmen work 
seamlessly with their Active Duty counterparts to ensure 
security around the world.
    Since 9/11, the Guard has mobilized nearly 780,000 citizen 
soldiers and airmen conducting complex operations around the 
globe. The experience and capabilities gained from our Federal 
mission along with the equipment and leadership skills utilized 
overseas yields a highly responsive National Guard here in the 
homeland with roughly 4,000 citizen soldiers and airmen and on-
duty each day.
    Of course, the success of our warfighting and our homeland 
mission are directly linked to our incredible and enduring 
partnerships with international, Federal, State, and local 
partners.
    Our Nation is currently facing unprecedented security 
challenges at home and abroad. These challenges come during a 
turbulent fiscal environment. Your passage of the Bipartisan 
Budget Act brought some much-needed relief.
    However, if we return to sequestration levels of funding, 
the National Guard will be the smallest that it has been since 
the Korean War, and at a time the population of the United 
States has doubled.
    Your continued investment in training, manning, and 
equipping is needed to maintain the readiness of your National 
Guard as a combat reserve of the Army and Air Force, the same 
force that is called upon by the Governors in times of need in 
the homeland.
    General Kadavy and General Neal will further elaborate on 
specific Army and Air Guard issues, so I won't go into too much 
detail. However, I would like to briefly emphasize a few key 
programs that need your continued support.
    First, a full-time manning program is absolutely critical 
to delivering the very foundational levels of readiness needed 
during global and homeland crises.
    Second, our successful State Partnership Program has 
established enduring partnerships with 76 partner countries and 
continue to provide these forces in coalition operations 
worldwide, and have improved their own interoperability with 
U.S. forces.
    Third, our counterdrug program is a crucial tool in the 
whole-of-government approach to combating transnational 
organized crime.
    Fourth, the National Guard cyber program provides the 
Nation with cutting-edge capabilities to protect our Nation's 
critical infrastructure and systems, and utilizes the skills of 
our citizen soldiers and airmen gained through their civilian 
careers.
    Lastly, roughly 140,000 graduates from the National Guard 
Youth Challenge program, which provides at-risk youth with an 
opportunity to learn skills, get an education, and have an 
opportunity in life.
    Your support of these programs, as well as other programs 
that allow us to accomplish our mission and take care of our 
servicemembers, their families, and their communities, is 
greatly appreciated.
    Recently, the National Commission on the Future of the Army 
came out with its recommendations. I thank the commission for 
their hard work. Similar to the collaborative effort that 
followed the Air Force Commission report in 2014, we are 
working diligently as a total Army to build the strongest 
ground force possible for the Nation.
    I would like to offer my sincere appreciation to acting 
Secretary Murphy and to General Mark Milley for their 
incredible leadership in this transformative process.
    Again, I am honored to be here today representing the men 
and women of the National Guard and their families who support 
them. I thank you for your continued support.
    [The statement follows:]
              Prepared Statement of General Frank J. Grass
                            opening remarks
    This past fall, I passed my 46th year in uniform and during that 
time, I have witnessed extraordinary change--change in our military and 
change in the security environment in which we live. The challenge of 
maintaining a capable, accessible, and affordable operational National 
Guard comes at a pivotal time in our history, where the actions we take 
now will set the course for future generations.
    As I visit with our citizen soldiers and airmen in our States, 
territories and countries where our service members are deployed, I see 
the most ready, accessible, and capable Guardsmen and units in my 46 
years of service. With continued resourcing, I am confident that we 
will always be ready to fight America's wars, secure our homeland, and 
continue to forge enduring partnerships.
    I visited with Guardsmen forward deployed in Afghanistan, Djibouti, 
Iraq, Kosovo, Kuwait, Qatar, and the Sinai and enhancing their combat 
skills at the National Training Center, Joint Readiness Training Center 
and the Joint Multi-National Training Center in Hohenfels. From Brigade 
Combat Teams on the ground to expeditionary wings operating in the 
skies, our Guardsmen help ensure regional stability and security while 
working seamlessly with our fellow Service members. With nearly 780,000 
individual overseas mobilizations since 9/11, the National Guard has 
proven, time and again, its readiness and warfighting capabilities.
               building global and domestic partnerships
    The leadership, individual and unit skill sets developed from doing 
complex combat operations enables unsurpassed homeland capabilities and 
response. As the original homeland security and defense force, our 
unique array of authorities allows us to respond to the needs of the 
Nation and the States. Whether assisting victims of natural disasters 
such as wildfires, winter storms, or hurricanes, or working hand-in-
hand with State and local leaders and emergency personnel during times 
of crises, the National Guard is postured in nearly 2,600 communities 
across America and is the first military force to reach the scene.
    Recent cyber intrusions and espionage on our businesses and 
institutions highlight why cyber is a national priority. The National 
Guard is at the cutting edge with its cyber capabilities. The skills 
acquired by our Guardsmen in their civilian capacity is an excellent 
fit for evolving DOD cyber missions. The National Guard's cyber 
capacity will play an integral role as we coordinate with State and 
Federal cyber professionals through Army and Air Guard cyber units and 
continue to grow our cyber forces.
    The National Guard enhances its warfighting and homeland 
capabilities through the partnerships that it builds. We forge close 
working partnerships with global, Federal, regional, and State 
partners. In the global sphere, the National Guard's State Partnership 
Program (SPP), established 23 years ago, continues to flourish and has 
evolved into enduring partnerships with 76 nations. This program, which 
pairs individual U.S. States with partner nations, continues to pay 
huge dividends in establishing long-term security and personal 
relationships while generating a significant return on investment. For 
example, 13 SPP partner nations in have achieved NATO membership. 
Overall, National Guard States have conducted 79 co-deployments with 
their SPP partners to Afghanistan and Iraq. SPP countries in the Middle 
East and Africa, with collaboration of National Guard State 
counterparts, are participating in international coalition efforts to 
combat terrorist and extremist organizations. In the Western 
Hemisphere, the National Guard and its partners work closely on counter 
drug programs to help stem the flow of illegal drugs into this country. 
A true measure of the program's success is underscored by the 
successful transition of many of our SPP partners from security 
consumers to security providers, and the enhanced interoperability with 
our military.
    During this past year, the SPP continued its expansion by 
formalizing two new partnerships between Kentucky-Djibouti and 
Massachusetts-Kenya. SPP partnerships stand as some of the strongest 
and most effective security cooperation relationships in the world. The 
SPP delivers wide strategic benefits by reducing the staggering costs 
of the U.S. going it alone. These partnerships are grounded in common 
interests and shared values. They develop strong bonds of cooperation, 
understanding, and trust that enable us to work together effectively to 
meet the evolving security challenges of this new century.
    We look forward to continued expansion of the program and will work 
closely with the Department of Defense, geographic combatant commands, 
and the Department of State in addressing future challenges, enhancing 
capabilities, promoting interoperability, and furthering the progress 
we have made with our partner nations.
    In the homeland, we forge close partnerships with local, State, and 
Federal agencies to prepare for contingencies and disasters that may 
strike at home. We also work with individual geo-specific consortiums 
such as those created for the Cascadia Subduction Zone and the New 
Madrid Seismic Zone. In our communities, our Guardsmen, in both their 
civilian and military roles, are active with programs and services such 
as Youth ChalleNGe, Joining Community Forces, and rendering military 
funeral honors for veterans. These programs provide critical support to 
families and individuals when they need it the most. For example, Youth 
ChalleNGe is an alternative program for high-school drop-outs to learn 
life skills and earn a high school diploma or equivalency. Since the 
start of the ChalleNGe program in 1993, we had more than 140,000 
graduates; better posturing high-school drop-outs to becoming more 
productive citizens.
    The threats we face at home and abroad today are unprecedented in 
their scope and variety. The recent terror events of Paris and San 
Bernardino, Calif., the rise of China and its ambitions, the regional 
challenges posed by a resurgent Russia, cyber attacks on our homeland, 
and an exploding migrant and refugee situation that has engulfed the 
borders of many nations around the world are just some of the issues we 
see in the headlines on every major newspaper around the world.
    These global realities are intertwined with changes in our society 
that come at extraordinary speed, have undefined borders, and coincide 
with a modern American public that has higher expectations of its 
military. We face these realities within a daunting fiscal environment 
that requires us to balance the need to keep Americans safe against 
budgetary constraints and increasing national debt.
    Within this security backdrop, it is more important than ever to 
ensure America has a resourced National Guard that can be a critical 
component of the solution during these uncertain times. The Guard is a 
cost-effective, scalable, operational force that preserves capability 
and capacity, rather than forcing the Nation to choose between them. 
Resourcing the operational National Guard leverages the tremendous 
value the Guard provides America with a force ready to meet our 
domestic and overseas requirements.
    The National Guard is also setting an environmental example within 
the DOD. Embracing the motto to ``make training lands accessible to 
Soldiers,'' the Florida and Minnesota Army Guard environmental programs 
earned DOD-level recognition. Florida's Camp Blanding Joint Training 
Center was lauded for their natural resources conservation efforts to 
protect 39 threatened and endangered animal and plant species. The 
endeavor provided the four military services and State agencies access 
to the 73,000-acre training installation. Minnesota's Camp Ripley 
earned DOD's highest award for their sustainability initiative to 
install solar panels, reducing their installation's energy consumption 
by 45 percent. Such money-saving efforts help combat the reduction of 
programmed resources and enable greater readiness.
    The Army National Guard and the U.S. Army are making the readiness 
of the ``Total Army'' a top priority. The Director of the Army National 
Guard established four lines of effort designed to enhance that 
readiness: leader development; ready forces; operational forces; and 
resilient communities. Leader development seeks to mold competent 
leaders of character who inspire, plan and execute our dual-mission. 
Ready Forces is an effort to ensure we continue to recruit and retain 
quality, deployable Soldiers. As an Operational Force, it's imperative 
that our resourcing and policies allow the Army Guard to seamlessly 
blend with the Army to perform any mission assigned. Finally, our 
Soldiers and their families are part of a Resilient Community because 
of substantial investments made to programs that support their needs 
and recognize their service. As part of each line of effort, 
accountability is integral to ensuring our success. Accountability 
demands ethical decisionmaking, transparent processes, thorough 
oversight and fiscal responsibility.
    We need to ensure our Soldiers are trained to project land power 
anywhere our Nation requires, within appropriate timeframes. Units 
across all three components of the U.S. Army must remain interoperable. 
Our military and civilian leaders require and deserve a full range of 
options to address the threats and instability our Nation faces today, 
both at home and abroad.
    The Air National Guard continues to make significant contributions 
to our national security at home and abroad. Overseas, the Air National 
Guard provides both operational combat and support capabilities to 
warfighters that meet our Nation's defense objectives. Guard Airmen 
supported more than 9,000 deployment requirements to 56 countries and 
on every continent last year. At home, the Air National Guard secures 
America's skies as the primary force supporting the North American 
Aerospace Defense Command. Simultaneously, Guard Airmen respond daily 
to requests from their local communities for assistance during 
emergencies and times of need. The Air Guard will continue to answer 
our Nation's call by adapting to the Nation's 21st century security 
needs.
                            closing remarks
    The National Guard mirrors the communities that it serves and our 
people are its foundation. We will continue to embrace diversity and 
inclusion to ensure we tap into our entire reservoir of talent. As the 
National Guard strives to become a model of fiscal stewardship within 
the Department of Defense, we must also continue to do more in 
eliminating abuse, harassment, and discrimination. Suicide prevention 
will always be a priority and we must do all that we can to ensure we 
have the proper education, training, and availability of mental health 
professionals to create resilient soldiers and airmen. We must ensure 
that we assist returning soldiers and airmen, wounded warriors, and 
veterans reintegrate into their communities and honor our fallen 
service members. We will continuously examine our actions and progress 
through candid and critical assessments from top to bottom. The 
National Guard greatly appreciates the resources our Nation invests in 
our wide array of effective programs.
    It is inspiring to see what the men and women of our National Guard 
do for our States, territories, and our Nation. Our soldiers and airmen 
continue to show great valor in combat. Our people continue to leave 
their jobs and families and report to their armories and bases, and 
bring calm after storms, fires, and floods have devastated communities. 
And, our Guardsmen strengthen and stabilize regions around the world 
while we develop meaningful security partnerships.
    As we face the challenges of this new century, the National Guard 
is ready to carry out its missions through the capable men and women 
who serve. They are part of a proud heritage dating back to 1636--
nearly 400 years of protecting our Nation. I am proud to serve with 
each and every Guardsmen. Their dedication and professionalism is truly 
remarkable.
    I want to thank this Committee for your continued support of our 
Citizen-Soldiers, Airmen and their families. I look forward to your 
questions.

    Senator Cochran. Thank you very much. The next witness is.
    General Neal. Sir, Major General Brian Neal, Acting 
Director of the Air National Guard.
    Senator Cochran. General Neal, welcome.
STATEMENT OF MAJOR GENERAL BRIAN NEAL, ACTING DIRECTOR, 
            AIR NATIONAL GUARD
    General Neal. Thank you, Chairman. Thank you and all the 
members who have invited me here today to speak.
    I want to start by publicly thanking the over 105,000 
dedicated professional men and women of the Air National Guard 
for the tremendous job they do every day, both at home and 
overseas. I also want to thank you for your support for the Air 
National Guard.
    When the Air National Guard was created, its primary 
mission was to train for the next major conflict. The concept 
of training 1 weekend a month, 2 weeks a year was based on the 
original strategic reserve model. Today, the Air Guard is, as 
you said, Chairman, an operational reserve, a force that 
contributes every day to both the war fight and also provides 
surge capacity for crises.
    The men and women of the Air National Guard have stepped up 
gallantly to meet the demands of the operational reserve force.
    As the acting director, it is my job to ensure our Guard 
airmen have the resources and training they need to do the jobs 
we ask of them. My priorities are, first, support for the 21st 
century Guard airmen; second, readiness; and third, 
modernization and recapitalization.
    Overall, we must ensure that the men and women of the Air 
National Guard have the support they need as they balance 
civilian careers, family responsibilities, domestic response 
needs, and their growing responsibilities to national security. 
We must make sure our Guard airmen and their families have 
access to the spiritual, psychological, and medical support 
they may need. Our Guard airmen need equipment that is capable 
of integrating seamlessly into the combat environment, and we 
must ensure they are trained for the full spectrum of 
operations we expect them to perform.
    In closing, I want to thank you for your support of the 
National Guard and Reserve Equipment Account (NGREA). NGREA is 
essential for the Air National Guard for the accomplishment of 
both of its Federal and domestic missions. NGREA keeps our 
combat equipment safe, reliable, and compatible within the 
combat environment, and it is the Air Guard's primary source 
for dual-use equipment needed to respond to domestic 
emergencies.
    If it were not for NGREA-funded programs, the Air National 
Guard would simply not be the force we are today.
    Again, thank you for inviting me here today, and I look 
forward to your questions.
    [The statement follows:]
           Prepared Statement of Major General Brian G. Neal
                              introduction
    The Air National Guard has been at war as an integral and essential 
part of the Total Air Force for 25 years. During this time, the men and 
women of the Air National Guard have proven to be remarkably adaptive, 
versatile, and resilient.
    The first Gulf War, Operation DESERT SHIELD/STORM, utilized the 
forces, tactics and doctrine designed during the Cold War to defend 
NATO from an attack by the Warsaw Pact. As a result, the Air National 
Guard contributed to the fight as a voluntary, strategic reserve force 
augmenting Air Force contingency operations.
    The security environment changed significantly after the first Gulf 
War. First, the end of the war did not signal an end of hostilities, as 
the Air Force launched into a series of airpower-centric operations 
including Operations Northern and Southern Watch, Bosnia-Herzegovina, 
Somalia, Kosovo, Afghanistan, Libya, Mali, back to Iraq, and now Syria. 
At the same time, the Department of Defense went through a post-Cold 
War drawdown and a restructuring of forces including a 33.7 percent cut 
in Air Force manpower and a 41.5 percent reduction in aircraft between 
1990 and 2015. This restructuring included a change from a forward-
basing posture to a forward-presence strategy, and a shift in the 
apportionment of forces within the Total Air Force.
    The combination of a continued high-demand for Air Force 
capabilities and a decrease in active duty Air Force capacity resulted 
in greater reliance upon the Air National Guard and Air Force Reserve. 
In 1990, the Air National Guard was 15.1 percent of the Total Air Force 
manpower and operated 19.3 percent of the aircraft; by 2015 the Air 
Guard contribution had increased to 21.5 percent and 21.4 percent 
respectively. For the men and women of the Air National Guard, what 
began as volunteering for operational missions during Operation DESERT 
SHIELD/STORM evolved into the most significant application of 
involuntary mobilization since the Korean War.
    For the National Guard, including the Air Guard, the demands of 
Overseas Contingency Operations were compounded by increased calls to 
protect life and property at home from natural disasters or terrorist 
attacks. Federal, State, and local communities began to increasingly 
recognize and rely upon the versatility of Guard Airmen to adapt their 
training and equipment, designed for the Air Guard's Federal, national 
security mission, to assist them in responding to State and local 
emergencies--commonly referred to as ``dual-use'' capabilities.
    The dedication of the men and women of the Air National Guard has 
facilitated the transformation of the Air Guard from a strategic 
reserve to an operational reserve. The Air National Guard does not 
simply train at home for the next major war, but instead augments the 
Total Air Force in day-to-day operations and provides surge capacity 
for unforeseen emergencies at home or abroad. Today's Air National 
Guard is:
  --A Proven Choice in the Warfight;
  --A First Choice in Homeland Operations; and
  --An Enduring Choice in Building & Maintaining Partnerships.
    The men and women of the Air National Guard continue to do a 
remarkable job fulfilling the tasks asked of them as an operational 
reserve. As leaders, we must ensure that they receive the foundational 
support, training and equipment necessary to continue to meet the needs 
of the Nation and their communities.
                             year in review
A Proven Choice in the Warfight
    The Air National Guard is integral and essential to the U.S. Air 
Force's contribution to our Nation's security; our Guard Airmen's 
dedication to the Nation is clearly evident. In 2015, the men and women 
of the Air National Guard filled 9,006 combatant command requests for 
support deployments to combat zones, and U.S.-based support for combat 
operations, many as volunteers. The Air National Guard contributed to 
the U.S. Air Force's deterrence and assurance mission with deployments 
to U.S. special interest areas such as Japan, South Korea, and Europe--
often back-filling Air Force forward-based units deployed to combat.
    While the war on terrorism is predominantly fought overseas, many 
Guard Airmen are actively engaged State-side, defending the homeland. 
The Air National Guard is the primary force responsible for defending 
the airspace over U.S. territory --monitoring radar scopes, manning the 
command and control system that coordinates airspace defense, piloting 
the fighter aircraft that intercept potential threats and the aerial 
refueling tankers that extend the range and endurance of the fighters--
the men and women of the Air National Guard are Always on Mission 24/7/
365.
    Guard Airmen are fully engaged in ``reach-back'' missions, i.e., 
missions that use global communications and data links to provide 
direct support to deployed warfighters from U.S. locations. Air 
National Guard Remotely Piloted Aircraft (RPA) units in California, 
North Dakota, Arizona, Texas, New York, Ohio, Tennessee, and Iowa are 
currently flying 14 combat orbits providing armed reconnaissance to 
forwarded deployed forces. Units in Tennessee and Iowa are converting 
from MQ-1 to MQ-9 RPA and will be operational this year. Four 
additional MQ-9 units in Pennsylvania, Arkansas, Michigan, and New York 
are scheduled to be operational in fiscal year 2017. The intelligence, 
surveillance, and reconnaissance (ISR) data collected by the RPAs is 
integrated into the joint ISR architecture at the Air Force Distributed 
Common Ground Systems (DCGS). Air National Guard DCGS units process, 
exploit, and disseminate actionable intelligence from data collected by 
a variety of sensors on the U-2, RQ-4 Global Hawk, MQ-1 Predator, MQ-9 
Reaper, and other ISR platforms.
    Cyber security is another global national security mission the men 
and women of the Air National Guard support from their home stations. 
According to the Department of Defense (DOD) Cyber Strategy of 2015, 
the Department will:
  --Build and maintain ready forces and capabilities to conduct 
        cyberspace operations;
  --Defend the DOD information network, secure DOD data, and mitigate 
        risks to DOD missions;
  --Be prepared to defend the U.S. Homeland and U.S. vital interests 
        from disruptive or destructive cyberattacks of significant 
        consequence;
  --Build and maintain viable cyber options and plan to use those 
        options to control conflict escalation and to shape the 
        conflict environment at all stages; and
  --Build and maintain robust international alliances and partnerships 
        to deter shared threats and increase international security and 
        stability.
    Over 6,600 Guard Airmen support the 21st century cyber mission. In 
2015, 12 Cyber Protection Teams were stood up to identify and counter 
threats to critical mission assets in support of USCYBERCOM. Teams 
include Cyber Tactics, Test & Evaluation, Cyberspace Command & Control, 
Active Cyber Defense, Information Aggressors, three National Mission 
Teams and two Cyber Training/Distance Learning Squadrons. Air Guard 
``cyber warriors'' support the Total Air Force contribution to the DOD 
cyber mission. In order to support both national and domestic needs, 
Air National Guard cyber units are geographically distributed among the 
ten Federal Emergency Management Agency (FEMA) regions.
    The strategic deterrence mission is a top priority for the Air 
Force and the Air National Guard is an active participant. The 131st 
Missouri Air National Guard Wing transitioned from F-15s to the B-2 
stealth bombers in 2008 and became the first nuclear strategic bombing 
wing in the Air National Guard. Today, the 131st Bomb Wing, in a 
classic association with the Air Force's 509th Bomb Wing, Whiteman Air 
Force Base, is integral to the Air Force Global Strike Command mission. 
The Air Guard also supports the strategic deterrence with KC-135 aerial 
refueling tankers. In addition, North Dakota Air National Guard 
Security Forces help protect two components of the nuclear triad at 
Minot Air Force Base.
    The men and women of the Air National Guard also assist the Air 
Force in its space superiority mission with two Space Warning 
Squadrons, two space Command and Control Squadrons, a Space Operations 
Squadron, and two Space Control Squadrons. Collectively, Air Guard 
Space Squadrons provide missile warning, satellite maneuver, 
configuration, and operation for MILSTAR and Advanced Extremely High 
Frequency constellation, and space situational awareness in support of 
global and theater campaigns.
    When our Guard Airmen return from deployment, overseas or at home, 
they do not simply return home to their civilian jobs. First, many have 
to regain currency in skill-sets that were not used supporting the 
current Overseas Contingency Operations. For example, F-15 and F-16 
pilots seldom use their air-to-air warfighting skills when deployed to 
the Middle East; therefore, they must refresh those skills through both 
home-station training and exercises such as Red Flag to regain their 
full-spectrum combat qualification. Finally, as members of the National 
Guard, our members have additional homeland/domestic commitments.
A First Choice for Homeland Operations
    The Air National Guard's responsibilities go beyond fighting 
America's wars. As the air component of the National Guard, the men and 
women of the Air National Guard are charged to provide for the 
protection of life and property and to preserve peace, order, and 
public safety. The most visible role of the National Guard is its 
response to domestic emergencies: natural disasters such as hurricanes, 
floods, blizzards, wildfires, and man-made disasters such as terrorist 
attacks and civil unrest. Our Guard Airmen are ready to help their 
neighbors in any way, but most often, they employ their dual-use 
capabilities, i.e., they adapt their combat equipment and skills to 
serve their communities. For example, during winter storm Jonas, the 
Air National Guard provided over 5,000 man-hours to their local 
communities. Guard Airmen augmented local first responders (emergency 
medical, firefighting, search & rescue), manned emergency shelters, 
provided emergency transportation for personnel and supplies, and setup 
and operated backup power generators and communication networks. As a 
result of the Baltimore riots in April 2015, our Air Guard members were 
requested by the Governor to assist the overwhelmed law enforcement 
officials. Air Guard members utilized crowd control techniques to help 
stabilize the situation. In October 2015, South Carolina received 
historic rainfall from Hurricane Joaquin and our Air Guard members were 
there to assist the community. They executed civil-authority support 
missions to preserve the lives and safety of South Carolina residents 
and assisted with recovery efforts.
    Aside from disasters, Air National Guard emergency response units 
assist their communities at home. Units typically include trained 
Airmen and equipment for fire response, security, Explosive Ordnance 
Disposal (EOD), medical response, and other civil support functions. 
Through mutual support agreements, Air Guard organizations are quick to 
respond, equipped and manned to support their local civilian 
communities. Nearly every day, Air National Guard fire departments are 
called upon to augment local fire responses and/or to back-fill local 
first responders when out on calls. Air Guard security forces are 
routinely asked to assist local police with traffic control after a 
major vehicle accident or unexpected road closure. In many areas, the 
Air Guard has the only EOD capability available to respond to local 
incidents making them an invaluable part of their communities.
An Enduring Choice for Building and Maintaining Long-Term Partnerships
    Many people join the Air National Guard because the Guard personnel 
system will allow them to serve from their local community. This 
assignment stability inherent to the National Guard also enables it to 
support enduring relationships both at home and abroad. The Guard 
Airmen contribute to a number of programs designed to improve partner 
nations capabilities and U.S. interagency cooperation.
    The Air National Guard is an active participant in the Department 
of Defense State Partnership Program. The State Partnership Program 
pairs U.S. States and territories with partner countries in a 
cooperative, mutually beneficial relationship. The objectives of the 
Program are to build defense relationships that promote specific U.S. 
security interests, develop allied and friendly military capabilities 
for self-defense and multinational operations, and provide U.S. forces 
with peacetime and contingency access to a host nation. Last year Guard 
Airmen participated in 119 State Partnership Program events. For 
example, the South Carolina Air National Guard worked with the El 
Salvador military to help them improve their disaster response 
management and capacity; the Maryland Guard helped the Estonian Air 
Force improve their airport security and airspace management system; 
and, Soldiers and Airmen from Illinois helped the Polish military 
establish a noncommissioned officer leadership training program.
    In addition to the State Partnership Program, the Air National 
Guard conducts formal military training for allies and partners. Last 
year, the 162nd Arizona Air National Guard Wing trained 31 F-16 pilots 
from Singapore, Indonesia, Norway, Oman, Denmark, Iraq, and Thailand. 
The 174th Attack Wing, New York Air National Guard trained 16 airmen 
from France and the United Kingdom on MQ-9 maintenance. The 143rd 
Airlift Wing of the Rhode Island Air National Guard trained C-130 
aircrew members and maintainers from Iraq. Lastly, the 139th Airlift 
Wing provided Advanced Airlift Tactics Training to 75 students from 
eight allied nations including Japan, New Zealand, Germany, Belgium, 
and Australia.
    Air Guard members also participate in training programs run by U.S. 
allies. Eight Guard noncommissioned officers attended the International 
Noncommissioned Leadership Development in Canada and five Air Guard 
junior officers attended the International Junior Officer Leadership 
Development program in Germany. These programs are run by the 
International Air Reserve Symposium, an informal organization of chiefs 
of air reserve components from around the world.
    Air National Guard units have ongoing interagency partnership 
relationships. Of special note is the relationship between the New York 
Air National Guard and the National Science Foundation under which 
Guard Airmen operate the U.S. Air Force's only ski-equipped C-130s (LC-
130) to provide logistical support to Science Foundation expeditions to 
Antarctica and Iceland. While the National Science Foundation provides 
the funding for this support, the Air Guard participants gain 
invaluable training and experience.
    The Air Guard has a long-standing partnership with the U.S. 
Department of Agriculture's Forest Service. Under this support 
agreement, members of the California, North Carolina, and Wyoming Air 
National Guard supplement Forest Service aerial firefighting capacity 
using C-130 transportable Modular Airborne Firefighting System (MAFFS). 
Last year, Guard Airmen flew 350.9 hours and dropped 246,000 gallons of 
fire retardant on U.S. forest fires.
                        building for the future
    The Air National Guard priorities for this year are our Airmen, 
Readiness, and Modernization & Recapitalization. The men and women of 
the Air National Guard have done a remarkable job of responding to the 
needs of the nation both overseas and at home. Most of today's Airmen 
joined the Air National Guard after 9/11 with the full understanding of 
the demands of the new Air National Guard. However, the Air National 
Guard is now an operational reserve, but stands upon a foundation built 
when it was a strategic reserve. This foundation consists of the Air 
Guard's infrastructure and organizational manning. If the Air Guard is 
to continue as an operational reserve, we must ensure the foundation is 
sound. This year's priorities are intended to identify and reset the 
foundations for the new Air National Guard.
Support for the 21st Century Guard Airman
    While the hard work and dedication of the Guard Airmen, their 
families, and their employers made possible the transformation from a 
strategic reserve to an operational reserve, they now bear the greatest 
burden. We have seen evidence of the stress on our extended Air Guard 
family due to repeated deployments and the demands of balancing 
military and civilian careers. Much like changing civilian careers or 
jobs, we see anxiety in our Airmen as they transition into new 
missions, especially in emerging missions such as Remotely Piloted 
Aircraft or cyber. We are closely watching for what may be a new 
version of post-traumatic stress in those Airmen who are fighting the 
war from their home stations, e.g., the Guard Airmen who are targeting 
enemy combatants with Remotely Piloted Aircraft and then go home to 
``normal'' family life. Additionally, this stress does not end with the 
actual operators; it also extends to the Airmen supporting them, their 
families and their employers.
    We, like all the military services, see changes in the demographics 
of our force. The force is younger; only 41 percent of today's Guard 
enlisted Airmen are over 35, as compared with 52 percent in 2003. More 
of the Guard Airmen are married than in the past, to include our young 
enlisted Airmen. We have seen a reduction in the number of enlisted 
Airmen joining the Air Guard after serving in the regular, active-duty 
military (prior-service). Changes in the Air Guard's demographics 
impact recruiting, training, deployments, career progression, 
retention, family support programs, physical and mental health 
programs, and employer relations--nearly every aspect of the Air 
National Guard.
    Last year, Congress provided the resources necessary for the Air 
Guard to hire Directors of Psychological Health for each wing. The 
Directors coordinate the various wellness resources available both in 
the military and the local communities, and help Guard Airmen and their 
families access these resources. Air National Guard Directors of 
Psychological Health provide early intervention, crisis support, 
clinical referrals to service members and their families. Airmen and 
Family Readiness Program Mangers (AFRPMs) reached nearly 719,000 
Airmen/family members through formal and informal contacts in fiscal 
year 2014.
    The Department of Defense and the Air Force are currently working 
on a number of new programs to support and assist military members and 
their families, including enhancements to Sexual Assault Prevention and 
Response (SAPR), Airmen Family Readiness, and suicide prevention. These 
are all excellent programs, but most are designed for the active duty 
military with centrally located manpower and infrastructure to 
implement the programs. The Air Guard is currently exploring cost 
effective ways to export the programs to the Guard's geographically 
dispersed, 67 percent traditional or part-time workforce.
    The challenging global environment means our Guard Airmen are 
busier than ever and the skills required for that environment continue 
to become more complex. The traditional model of 1 weekend a month and 
2 weeks a year has become overburdened with time consuming ancillary 
training programs that take away from our Airmen's availability for 
skills training. During 2015, we completed the first year of a 3-year 
test of the new Ancillary Training Pilot Program developed by the Air 
National Guard. The Ancillary Training Pilot Program has resulted in 
added flexibility, greater commander and supervisor involvement and an 
80-percent reduction in hours spent outside of core skills training. 
The program has been so successful that we are now working with the Air 
Force Reserve to implement a similar program for their members.
    The Air National Guard's fiscal year 2017 budget request includes 
an increase in Air Guard end-strength to an approved steady-state end-
strength of 105,700 through fiscal year 2017. This reflects the full 
restoration of A-10 aircraft manpower.
Readiness
    The official Department of Defense definition of readiness is, 
``The ability of military forces to fight and meet the demands of 
assigned missions,'' but the concept is far more complex. The ``demands 
of assigned missions'' are not the same for every mission; a unit may 
be ready for one mission but not others. There are many variables that 
go into the Readiness calculus, including recruiting and retaining 
quality manpower, initial skills training, currency training, and 
upgrade training, personal readiness including medical and dental 
requirement, and equipment availability and mission capability status. 
The changing demographics of the Air National Guard, equipment age, 
mission changes, operational demand on personnel and equipment, 
availability of and funding for formal schools, and many other factors 
all impact Air Guard readiness. For example, the Air Guard recruits 
non-prior-service Airmen (a member who has not previously served in the 
military), the recruits must be sent to Basic Military Training and a 
formal school for initial training in their mission specialty. Initial 
training is followed by Mission Essential Skills Training to ``season'' 
the individual Airman, integrate them into their unit, and prepare them 
to work with/on the specific equipment assigned to their unit. All this 
takes time and money. These recruits must be brought onto active duty, 
sent to school, and once back at their unit, given sufficient man-days 
to become a productive member of the unit. Airmen require unit 
equipment for hands-on training and skilled unit instructors to conduct 
the training.
    Our demographics are shifting to a younger workforce and we are 
beginning to encounter a noticeable decline in the experience levels of 
our full time force. An Air National Guard wing's full time force is 
the source of training for our traditional Guard members. They are the 
key to the maintenance of readiness for our units and their personnel. 
An informal look at the experience levels of our full time technician 
force in six States showed that 55-percent of permanent technician 
pilots have less than 6 years of full-time experience. Experience 
levels are declining, at a time when skill complexities required to 
accomplish the mission are increasing and aircraft mission capable 
rates are lower.
    In addition to a declining operator experience level, the 
maintenance force is also younger and less experienced. This decrease 
in the age and experience among maintenance personnel, coupled with an 
aging aircraft fleet that requires more maintenance, creates challenges 
to maintaining a mission capable rate at our units sufficient to 
maintain the robust flying schedules necessary to keep our younger, 
less experienced aviators current and proficient.
    The Air Guard is continually evaluating and adjusting its military 
personnel (MILPERS) and operations & maintenance (O&M) budgets to meet 
the dynamic requirements of the Air Force and our Air Guard units. Over 
the next year, we plan to closely examine the foundational assumptions 
use to resource the Air National Guard to ensure its resourcing matches 
its operational posture for the future.
Modernization and Recapitalization
    The objective of all recapitalization and modernization programs is 
to ensure that an organization's equipment is both safe to operate and 
capable of accomplishing the organization's mission. Technically, 
recapitalization is trading in old equipment for new and modernization 
is updating old equipment. Recapitalization of all components of the 
Air Force is primarily the purview of the Air Force in coordination 
with the Air National Guard. For the Air National Guard, which operates 
some of the oldest Air Force equipment and has both Federal and State 
responsibilities, modernization is always a priority. It is vital to 
ensure that we maintain the right capabilities. Last year the Air 
National Guard equipped 217 F-16C aircraft with the Scorpion Helmet 
Mounted Integrated Targeting (HMIT) system. HMIT is an integral piece 
of the kill-chain, allowing the pilot to rapidly cue sensors and/or 
weapons to targets of interest. This increase in situational awareness, 
both day and night, allows Guard pilots to de-conflict operations with 
friendly air and ground forces, minimizing fratricide and enhancing 
weapons employment.
    To improve its capability to respond to domestic emergencies, the 
Air Guard procured 21 Mobile Emergency Operations Centers (MEOC). This 
equipment provides a rapid response, comprehensive command and control 
capability for commanders, first responders, local civil authorities, 
and other government agencies. The MEOC assigned to the 127th Wing, 
Michigan Air National Guard, served as the chief command and control 
outpost for the first 36 hours in response to the Flint, Michigan water 
crisis.
    The Air National Guard continues to work closely with the Air Force 
and Congress on C-130 modernization plans. Ensuring the Air Guard's C-
130 fleet meets U.S. and international air traffic control requirements 
by 2020 is one of our top modernization requirements.
                               conclusion
    The men and women of the Air National Guard were instrumental in 
transforming the organization from a strategic reserve to an 
operational reserve. When one considers all of the wonderful work our 
Guard Airmen are doing around the world, it is clear that they are up 
to the task, understand this is not their parents' Air National Guard, 
and are prepared for this ``new normal.'' However, much of the 
foundation upon which this operational reserve Air National Guard was 
built and designed was put in place to support a strategic reserve 
force. Now that our Guard Airmen have settled into the ``new normal,'' 
it is time to step back and make sure the foundation can continue to 
support the organization. Identifying and modernizing the strategic 
reserve foundations of today's operational Air National Guard will take 
time, but the changes are necessary to ensure the men and women of the 
Air National Guard are able to continue to answer the call.
    The Bipartisan Budget Act has provided needed stability and 
predictability. However, with a non-sequestered budget, the Air Guard 
can begin to address the foundational changes that must be made to 
preserve our role as an operational reserve, improve readiness and to 
modernize and recapitalize Air Guard capabilities to meet future 
security challenges.

    Senator Cochran. Thank you, General.
    We will now hear from the Director of the Army National 
Guard, Lieutenant General Kadavy.
STATEMENT OF LIEUTENANT GENERAL TIMOTHY J. KADAVY, 
            DIRECTOR, ARMY NATIONAL GUARD
    General Kadavy. Thank you, Senator. Chairman Cochran, Vice 
Chairman Durbin, distinguished members of the committee, thank 
you for allowing me the opportunity to represent the 348,000 
soldiers of the Army National Guard.
    I am happy to report that the Army National Guard's 
relationship with the Army is strong and enduring. We are a 
valued and integrated part of the United States Army.
    I am working closely with General Milley, General Grass, 
Acting Secretary of the Army Murphy, and the Adjutants General 
to strengthen our total Army.
    The Army National Guard is regularly employed, and when 
deployed, goes with the Army's most modern equipment and 
training. Soldiers from all three components are continuing to 
work side-by-side in exercises and operations around the globe, 
including reassuring allies in Europe and the Pacific.
    As we move forward, readiness remains our top concern. 
Increased training, equipment modernization, continued 
commitment for our full-time support requirements, and regular 
rotational utilization will ensure our forces continued 
readiness.
    And when it comes to the Army National Guard, readiness for 
combat also translates into readiness for missions at home, as 
we recently witnessed with Winter Storm Jonas in this local 
area.
    I would like to thank the committee for providing us with 
the programming and resources we need in order to serve the 
Nation, particularly your generous support for the National 
Guard and Reserve Equipment Account has enabled us to remain a 
modern and interoperable force. Modernization is an ongoing 
effort, and your support has been critical in allowing us to 
meet that responsibility.
    I would also like to thank the members of the National 
Commission on the Future of the Army for their hard work. I 
want to ensure the committee that we are working with the Army 
leadership to assess the commission's recommendations. We take 
special interest in recommendations such as multi-component 
unit solutions, additional combat training center rotations, 
and increased flying hours for training, all of which will 
certainly enhance our readiness.
    We are also looking closely at the commission's 
recommendation for enhanced support to the Pacific and the 
European combatant commands. The Army National Guard looks 
forward to being part of the Army strategy to support these 
commands.
    Additionally, we know there is great interest on certain 
issues such as the aviation restructure initiative. I can 
assure you that we are looking at all of the commission's 
recommendations comprehensively and as part of the Army team. 
We will present our findings in the near future.
    Lastly, with regard to the commission's determination that 
a force of 980,000 is minimally sufficient to meet the Nation's 
challenges, I agree with General Milley that this places us at 
the edge of being able to meet the current strategy.
    I would like to close by saying thank you. Thank you for 
allowing me to speak before you today and for all that you do 
for the soldiers, civilians, and families of the Army National 
Guard. I look forward to your questions.
    [The statement follows:]
       Prepared Statement of Lieutenant General Timothy J. Kadavy
                              introduction
    As the combat reserve of the Army, the 342,000 Soldiers of the Army 
National Guard are trained and equipped as part of the Total Army to 
fight and win America's wars. We have stood shoulder-to-shoulder as 
part of the U.S. Army through every major conflict in our Nation's 
history, from the Revolutionary War to today's global operations. 
Simply stated, the Army National Guard plays an essential role in our 
Army's ability to go to war or engage in sustained operations.
    Everything we do in the Army National Guard is focused toward 
building and sustaining readiness. Investments in Army National Guard 
manning, training, and equipping enable us to respond to the Nation's 
call to service, whether participating in combat operations abroad or 
saving lives and protecting property at home. Reducing the time it 
takes for Soldiers and units to be ready for deployment is the primary 
concern for all Army National Guard leaders, and is a goal toward which 
we are always focused.
                     priorities and lines of effort
    In my first year as Director of the Army National Guard, I have 
established five priorities that align our force with General Milley's 
vision for the U.S. Army. This will ensure that the Army National Guard 
is ready and responsive to the needs of our Army as well as our 
Nation's governors. These priorities are: Leader Development, Ensuring 
Operational Capability, Maintaining Resourcing and Modernization, 
Ensuring Ready Soldiers and Families, and Maintaining Full-Time Support 
personnel.
    In order to operationalize these five priorities, I have directed 
the Army National Guard to focus on four lines of effort: Leader 
Development, Ready Forces, Operational Forces, and Resilient 
Communities.
    Accountability is inherent in these priorities and lines of effort. 
In order to maintain the trust of the American people; we must remain 
accountable to the Army profession, our civilian leadership, and to 
each other. Adherence to Army and Department of Defense standards, 
fiscal stewardship and audit readiness, provide the foundation for my 
five priorities.
                           leader development
    Leader development is one of my top concerns. Soldiers require 
years of training, experience and mentoring to develop into effective 
midlevel and senior Army National Guard leaders. You cannot recruit a 
battalion commander, sergeant major, or chief warrant officer. 
Therefore, we must provide Soldiers with the professional educational 
experiences and leadership development opportunities they need to grow 
into tomorrow's Army National Guard leaders.
    For the Army National Guard, a key component of leader development 
is experience in real-world deployments and realistic collective 
training. Army National Guard Soldiers have limitedI11opportunities to 
lead in real-world operational environments in comparison to their 
Active Component counterparts. This is a critical reason why consistent 
utilization, as well as planned rotations within the Army's Sustainable 
Readiness process are essential to Army National Guard readiness.
    Leaders drive the Army's professional culture. I want to ensure 
that the Army National Guard develops strong leaders of character. In 
order to be effective in combat, Soldiers must trust and respect their 
leaders. As we promote leader development as a readiness principle, we 
must ensure that accountability and adherence to Army professional 
standards remain core tenants.
                              ready forces
    Because the Army is a people-centric force consisting of Soldiers, 
Families and Civilians, the first step in building a ready force is to 
ensure it is properly manned. Our manning efforts are focused to ensure 
that we continue to recruit and retain quality Soldiers. Because of the 
nature of attrition and end-strength reductions, we must continue to 
recruit new Soldiers even as we reduce the size and structure of the 
force.
    A force that is manned but not trained cannot be considered ready. 
Soldiers that are not educated in their specialties and trained in 
their missions are not ready for deployment. Initial Entry Training and 
Military Occupational Skills training are essential for individual 
Soldier readiness. Individual Soldier training is the foundation for 
unit readiness
    Additionally, units that have not trained together are placed at 
greater risk when conducting combat operations. Modern warfare requires 
careful, proficient coordination between units, Services, and allied 
militaries. Collective unit training is the means by which Soldiers 
learn to work as a cohesive fighting team--that team includes the Army 
National Guard.
    The Chief of Staff of the Army has emphasized the importance of 
Army National Guard collective unit training, and he is considering 
additional Combat Training Center rotations for Army National Guard 
units. We fully support increases in CTC rotations and other collective 
training events. Collective training is critical for leader development 
and unit cohesiveness, both of which can quickly erode without 
comprehensive unit training events.
    Modernized, interoperable equipment is what turns trained Soldiers 
and units into effective and capable Army formations. In order for the 
Army to fight and win the nation's wars, the Army's equipment and 
equipping strategy must provide Soldiers with combat overmatch--the 
combination of Soldier skills and advanced equipment that far exceed 
enemy capability and capacity.
    Today's operating environment is highly complex. The continued 
technological advancement of our enemies, coupled with the increasingly 
interconnected nature of equipment and computer networks, requires the 
Army National Guard to maintain highly modern, interoperable equipment. 
With a smaller Total Army, the Nation cannot afford to allow Army 
National Guard equipment capabilities to lag behind those of Active 
Component formations as we did during the Cold War. Doing so would 
reduce combat effectiveness and degrade the Army's ability to operate 
seamlessly on the complex battlefields we will face today and tomorrow.
    Congress has invested substantial resources to bring the Army 
National Guard to equipping parity with the Active Component Army. 
Today's Army National Guard is the best equipped, most modern force in 
its history. Yet, fiscal constraints have forced the Army to defer 
modernization in order to fund readiness, and the impact is very real 
for the Army National Guard.
    For example, the Army National Guard has 556 of the required 826 
modernized UH-60 Black Hawk helicopters. Over 66 percent of our HMMWV 
ground ambulance fleet is modernized, but more than 500 vehicles 
require modernization. Our armored combat platforms, including the 
Abrams main battle tank, are behind the Active Component in terms of 
modernization. The Army National Guard Abrams fleet (with M1A1 
variants) is a generation behind the third generation main battle tank 
(M1A2 variant) in the Active Component. Additionally, the Army National 
Guard is taking risk with critical mobility systems, such as 
firefighting, explosive ordinance disposal, and bridging systems.
    We request your support of our depot maintenance funding request so 
the Army Guard is not forced to defer critical depot overhauls, risking 
fleet operational readiness rates for vehicles and equipment. This has 
a direct and significant impact on our war-fighting and domestic 
response capabilities.
                           operational forces
    Today's Army National Guard is a reflection of the resourcing and 
policy decisions to manage the Reserve Component as an Operational 
Force. As a component of the U.S. Army, the Army National Guard has 
transformed into an interoperable and experienced ground combat force 
capable of performing any mission assigned. Since September 11, 2001, 
Army National Guard Soldiers have conducted more than 544,000 
individual mobilizations in support of Federal missions, with more than 
320,000 individual Soldier mobilizations to Iraq and Afghanistan during 
that period. In fiscal year 2015, the Army National Guard mobilized 
10,123 Soldiers for service around the world. Today, we have 
approximately 11,100 Soldiers mobilized both overseas and in the United 
States for Federal missions. Many senior leaders within the Department 
of Defense, the Administration and Congress have stated publicly that 
the Army would not have been able to accomplish its combat missions 
without the use of the Army National Guard--and I fully agree. Our 
force embodies the spirit of the Army Total Force Policy, and we can 
ill afford a return to pre-9/11 readiness levels. At home, the Army 
National Guard remains the military's primary domestic responder. In 
fiscal year 2015, Army Guard Soldiers served nearly 453,850 duty days 
under the command of the Nation's governors, assisting our fellow 
citizens during domestic emergencies and aiding Federal authorities in 
other critical areas such as counterdrug efforts and security along our 
Southwest border. At home and abroad, the Army National Guard is and 
will remain an indispensable part of the Army.
    Global instability continues to place our Nation's security 
interests at risk. The Army deployed forces to more than 140 countries 
last year alone. The threat of a large-scale military conflict with 
near-peer competitors is growing. Our allies are experiencing 
increasing pressure in Europe and Asia. Strong transnational terrorist 
organizations continue to destabilize entire regions and to threaten 
our security at home.
    Within our available resources, the Army National Guard is working 
to support national theater engagement priorities in Europe and the 
Pacific. For example, we are conducting Overseas Deployment Training 
for a battalion task force and engineer forces to support theater 
deterrence in U.S. Army Europe, and a battalion task force in support 
of U.S. Army Pacific. This prudent employment of Army National Guard 
forces can relieve stress on Active Component forces and enable the 
Army to preserve the decisive action readiness essential for short 
notice contingencies.
    Though major combat operations have ceased in Iraq and Afghanistan, 
the demand for the Army to perform global missions continues unabated. 
In order to respond to these growing requirements, and remain a 
credible deterrent to transnational threats, the Army National Guard 
must continue to focus on readiness.
                         resilient communities
    Providing support to Soldiers and their families is a critical duty 
that we fully embrace. Congress and the Department of Defense have 
invested heavily in programs that build resiliency and ensure that 
Soldiers and their families get the support they have earned by virtue 
of their service to the Nation.
    Much work remains in vital areas such as suicide prevention and 
intervention. The Army National Guard lost 100 Soldiers to suicide in 
calendar year 2015, an increase of 23 from calendar year 2014. The 
impact of this national epidemic on our force continues to be a top 
priority for Army National Guard leaders. Our efforts to reduce 
suicides include: increased Soldier training on suicide warning signs 
and intervention, training Soldiers to direct those contemplating 
suicide to appropriate healthcare professionals, supporting 
partnerships with nonprofit behavioral health organizations and other 
community resources, and most importantly, improving the ratio of 
healthcare providers to Army Guard Soldiers within our force.
    A key toward building resilient Army National Guard communities is 
ensuring that Soldiers trust both the Army as an institution, and their 
fellow Soldiers and leaders. This is why any instance of sexual assault 
or harassment within our ranks is unacceptable. Sexual assault is a 
serious crime that leaves victims permanently scarred and severely 
erodes Soldier trust and unit readiness. The Army National Guard 
continues to support Soldiers through the Army's Sexual Harassment/
Assault Response and Prevention program. We have increased training for 
and maintained a staff of sexual assault response professionals. We are 
working to encourage reporting by those that experience sexual assault 
or harassment, while strengthening the support services that victims of 
sexual assault receive.
      the president's fiscal year 2017 army national guard budget
    The recently passed Bipartisan Budget Agreement of 2015 gives the 
Army National Guard 2 years of predictable budgets including overseas 
contingency funding and military construction starts. We thank Congress 
for passing this legislation, as budget stability allows leaders to 
make strategic, forward-looking resource allocation decisions.
    The President's fiscal year 2017 budget request for the Army Guard 
is $15.8 billion and increases funding levels for both Operations and 
Maintenance and National Guard Personnel, Army accounts compared to 
fiscal year 2016. Although the fiscal year 2017 request provides some 
relief, reductions taken in fiscal year 2015 and 2016 require a 
continued investment to first restore and then sustain lost readiness. 
Reductions in funding in fiscal year 2015 and 2016 have challenged the 
Army National Guard to maintain an operational and ready force. The 
increased investment in fiscal year 2017 will continue to ensure that 
we are able to recruit, retain, and employ high-quality Soldiers for 
the Army and our Nation's governors.
    Overall, the President's fiscal year 2017 budget provides the Army 
National Guard with $515 million over Budget Control Act (BCA) levels.
    At $232.9 million, the fiscal year 2017 budget request for National 
Guard Military Construction funds only the most critical facility 
construction needs for a handful of projects across the Nation. 
However, many of our facilities are not modernized. Forty-seven percent 
of Army National Guard facilities are over 50 years old. It is 
necessary that outyear funding levels increase, as these facilities are 
in need of extensive modernization and resourcing.
    As highlighted in the recently published Reserve Component 
Transformation Master Plan, if future funding levels do not increase we 
expect our readiness centers to degrade. Our Facilities Sustainment 
Restoration and Modernization (FSRM) program and Base Operations 
Support funding are used to maintain existing facilities at minimum 
safety and operating standards. Funding for these programs dropped 
significantly over the last several years, which reduced our ability to 
replace aging infrastructure and preserve existing facilities. The 
fiscal year 2017 budget request funds the FSRM program at 72 percent of 
the DOD Facility Sustainment Model. This level represents moderate 
risk.
       understanding arng readiness: full-time support personnel
    Institutional Readiness most appropriately describes our ability to 
perform the mandatory personnel, administrative, maintenance, and 
supply functions as directed by Title 10 and Title 32, United States 
Code and Department of Defense policy. The Soldiers and Civilians who 
deliver Army programs to our force and their families are our Full-Time 
Support personnel. They operate critical systems, maintain equipment, 
recruit and retain quality Soldiers, and perform vital administrative 
tasks such as paying Soldiers on time and training management. Without 
Full-Time Support staff, the Army National Guard simply will not 
function at the level the Nation requires.
           the national commission on the future of the army
    I would like to thank the members of the National Commission on the 
Future of the Army for their recommendations to shape the 21st century 
Army. I look forward to reviewing and working with Army senior leaders 
to implement f the Commission's recommendations. We are one Total Army 
team, and I look forward to continuing to strengthen the bonds between 
the Army, Army National Guard, and Army Reserve.
                            closing remarks
    Today's complex security environment requires a ready, credible 
ground force to deter aggression, bolster our allies, and when 
necessary, to fight and win our Nation's wars. The Army National Guard 
is critical to our national security, and provides vital capabilities 
to meet the complex challenges our Nation faces at home and abroad. 
Wherever the Army goes, the Army National Guard must be ready to 
provide trained Soldiers, leaders, and units.
    Congress has consistently provided resources to ensure that the 
Army National Guard is ready to perform its combat mission. Continued, 
investment will ensure that the readiness and experience earned through 
14 years of combat will not decay. The Army depends on a fully manned, 
well-trained and properly equipped Army National Guard, led by leaders 
of character and experience. Governors need personnel and equipment 
that are ready to respond every single day, at any hour, in life-
threatening circumstances. For the Army, our Nation, and our States and 
territories, Army National Guard readiness is not optional--it's 
essential.
    Thank you for your continued support of the Army National Guard.

    Senator Cochran. Thank you, General Kadavy.
    We will now hear from the Chief of the Army Reserve, 
Lieutenant General Jeffrey Talley.
STATEMENT OF LIEUTENANT GENERAL JEFFREY W. TALLEY, 
            CHIEF, ARMY RESERVE
    General Talley. Chairman Cochran, distinguished members of 
the Committee, for now almost 4 years I have been the Chief of 
the Army Reserve and Commanding General of the United States 
Army Reserve Command. This is my final appearance before your 
committee as I will soon return to civilian sector and retire 
from America's Army.
    I would like to personally thank you, sir, and the 
committee for your support of our soldiers and civilians and 
families. As you know, citizen soldiers are critical enablers 
providing enduring operational capabilities and strategic depth 
to the Army and the Joint Force.
    Because the Army Reserve comprises the majority of the 
Army's combat support and combat service support, the Nation 
can afford nothing less than a ready, equipped, and operational 
Army Reserve. Maintaining the adequate levels of readiness to 
meet existing demands is my primary concern and my current 
challenge.
    At any given time, between 16,000 and 24,000 Army Reserve 
soldiers are on Active Duty in service of missions here at home 
or abroad, but we also need to maintain an additional pool of 
trained and equipped soldiers annually to support forecasted 
requirements.
    I strongly believe that full-time support is essential for 
readiness in the Army Reserve. Full-time support provides 
administrative, medical, training, maintenance, and 
mobilization support for Army Reserve units and is absolutely 
necessary for generating sustained readiness, a prerequisite 
for leader and unit readiness.
    Yet the Army Reserve's full-time support program is 
currently only resourced to 76 percent of its identified 
requirements. We must maintain and, if possible, increase the 
Army Reserve's full-time manning support.
    One way to increase our full-time support is by placing 
regular Army soldiers back into Army Reserve units to augment 
the Active Guard and Reserve and military technician force.
    This Title 11 program was tested and implemented back in 
the 1990s and, in my opinion, should be reinstated. Such an 
effort would promote readiness and help reinforce our Army's 
Total Force policy across all three components of our great 
Army.
    Another readiness concern is equipping and modernization. I 
am very grateful for the support this committee has provided to 
its NGREA appropriations, which has accounted for more than 35 
percent of the Army Reserve's equipment procurements between 
fiscal year 2013 and fiscal year 2015. Yet equipment 
modernization rates for the Army Reserve continue to lag behind 
both of our other Army components.
    For fiscal year 2016, we were scheduled to receive 3.1 
percent of the Army's procurement budget, which is 
significantly less than our 9/11 allocation of 6 percent. 
Continuing to neglect equipment modernization requirements will 
only exacerbate existing capability gaps between the Army 
Reserve and the other Army components.
    This committee has already heard from Army Chief of Staff 
Mark Milley about the importance of the Army Total Force 
Policy. I want to reinforce his testimony by emphasizing the 
positive impact full implementation of Army Total Force Policy 
will have on readiness. Integrating the Active and Reserve 
components through cross-component assignments and the use of 
our One Army school system ensures consistent standards across 
all the components of our Army.
    Finally, the importance of funding that account and 
providing training days for Army Reserve soldiers cannot be 
overstated. While the current level of training days is 
sufficient to provide ready forces to meet identified 
requirements, the resources are not sufficient to build a force 
capable of responding to unforeseen contingencies.
    Mr. Chairman, the Army Reserve supports the most capable 
Army the world has ever known. This committee's support is 
crucial to ensuring that we remain ready to provide support to 
the Total Force, as we meet current global requirements, 
respond to national emergencies, and mobilize for contingency 
operations when our Nation needs us most.
    In closing, it has been my distinct honor and pleasure to 
lead the men and women of the Army Reserve. I thank you and the 
committee for your continued support, and I look forward to 
your questions. Twice the citizen and I hope you stay Army 
strong.
    [The statement follows:]
       Prepared Statement of Lieutenant General Jeffrey W. Talley
                     the state of the army reserve
    The United States Army Reserve is a global operational reserve 
force, providing operational capability and strategic depth to the 
Total Army and the Joint Force in support of the National Defense 
Strategy and Army commitments worldwide. The Army Reserve comprises 20 
percent of the Army's organized units, nearly half the Army's total 
maneuver support, and a quarter of its mobilization base expansion 
capability.
    Globally engaged for more than 14 consecutive years of war, the 
Army Reserve has been, and continues to be, an essential element of the 
Total Army and the Joint Force, meeting high operational tempo demands, 
operating and generating forces as required, and providing predictable 
capabilities to global Combatant Commands.
    Manned, trained and equipped to enable operational forces, the Army 
Reserve provides quick access to trained and ready Soldiers, leaders 
and cohesive units, as well as critical enabling capabilities found 
nowhere else in the Army or the Joint Force. Since 2001, more than 
310,000 Army Reserve Soldiers have been mobilized and deployed across 
the globe, to include every major combat zone.
           the current and future global security environment
    Looking ahead, the United States and its allies face a complex and 
dynamic global security environment with enemies that are adaptive and 
growing in numbers, lethality, and the ability to threaten vital U.S. 
strategic interests around the world. Meeting the defense and security 
demands of today and tomorrow will require continued access to, and 
reliance upon, the skills, capabilities, and experience of an 
operational Army Reserve.
    The advantages of a ready and operational Army Reserve are many: A 
Federal operational Army Reserve force saves the Army money; reduces 
the demand for Active Army capabilities; helps mitigate current Army 
capability shortfalls, and allows the Active Component to maximize time 
at home between deployments. It provides the depth and scalability 
needed to meet current and anticipated requirements of the Combatant 
Commands; achieves a cost-efficient balance between the Active Army and 
the Army Reserve, using the strengths and capabilities of each to full 
advantage; and provides a sufficient base of trained, equipped and 
ready Soldiers, leaders and units from which the Active Component can 
draw when needed. Most importantly, a ready and operational Army 
Reserve provides the critical enabling capabilities combat forces rely 
on to initiate, sustain and win prolonged operations. If those 
capabilities are not prepared and ready for operational use, the Army 
and the Joint Force could fail their missions.
    readiness, resourcing our future force, taking care of soldiers
    Readiness is the Army Reserve's number one priority. To win in the 
complex world of today and tomorrow, we must be ready for the threats 
and challenges of the present and the future.
    For the past 4 years, the Army Reserve has been building readiness 
and preparing for the future primarily through its Plan, Prepare, 
Provide readiness model. The ``Plan'' portion of the model regionally 
aligns Army Reserve Engagement Cells and Teams to support Army Corps, 
Army Service Component Commands, and Combatant Commands as they seek to 
prevent conflict across the globe. The ``Prepare'' portion delivers the 
military and civilian-acquired skills the Army needs to shape 
activities and events. ``Provide'' delivers the combat ready Soldiers, 
leaders, and units the Army needs to dominate adversaries and win 
decisively.
    Our greatest concern is resources. The current demand for Army 
Reserve forces is about 25,000 operational troops annually. To generate 
that number, at least one third of all Army Reserve forces must be 
sufficiently manned, trained and equipped to meet operational 
requirements. Without the resources requested in the fiscal year 2017 
President's budget to bring those forces to the required level of 
readiness, the Army Reserve cannot remain an operational reserve.
    Other important areas of concern flow from resourcing and 
readiness--to include modernization and the first principles of 
readiness: Manning, Training and Equipping. Full Time Support is the 
foundational enabler that sustains readiness and allows Soldiers and 
units to be rapidly deployable. Training must be integrated among all 
three components of the Army to ensure interoperability of our forces. 
The Army Reserve has taken risk in equipping and modernizing our force, 
and the fiscal year 2017 President's budget represents the minimum 
acceptable level of funding which still enables the Army Reserve to 
respond to emerging global security threats. Finally, our most 
important resource--our Soldiers and their Families--must be supported 
with the best possible care, programs and services to ensure their 
individual physical and mental readiness and well-being.
    All of these challenges can be met by relatively simple solutions: 
maintaining Army Reserve Full Time Support at authorized levels, 
continued implementation of the Army Total Force Policy, integrating 
training for all three components, breaking down barriers to continuum 
of service, and sustaining the Federal operational Army Reserve.
                    serving the army and the nation
    The Army Reserve is the dedicated Federal reserve of the Army. It 
exists to serve the Army and the Nation, and has always accomplished 
its mission. Through two World Wars, a Cold War, Korea, Vietnam, the 
Persian Gulf War, the Global War on Terror, and countless other crises, 
operations and emergencies, the Warrior Citizens of the Army Reserve 
have never failed to answer the Nation's call--and we remain ready for 
what comes next.
    Today's Army Reserve is the most battle-tested and experienced in 
our Nation's history. Whether performing combat, contingency and 
security cooperation missions abroad, or saving lives and protecting 
property at home, the Army Reserve will continue to offer versatile, 
available and effective capabilities to the Army and the Nation at 
reduced cost to the American taxpayer.
    Ready now, ready in times of crisis, and ready for whatever threats 
and challenges lie ahead, the United States Army Reserve is America's 
life-saving, life-sustaining Federal Reserve force.
                              introduction
    Today's operational Army Reserve provides the operational 
capability and strategic depth the Army needs to support and defend 
U.S. interests across the globe.
    Since September 11, 2001, more than 310,000 Army Reserve Citizen 
Soldiers have mobilized in support of Total Army and Joint Force 
requirements.\1\ Today, 41,373 Army Reserve Soldiers, or 20.8 percent 
of current Army Reserve end strength of 198,552 \2\ are serving at home 
and abroad--17,398 in direct support of Army Service Component Commands 
(ASCC) and Combatant Commands (CCMD),\3\ and 23,975 performing training 
support missions.\4\
---------------------------------------------------------------------------
    \1\ G3, USARC, October 14, 2015. DATA SOURCES: MDIS, TOD, TAPDB-R, 
RTIMS.
    \2\ As of October 14, 2015, from G1, USARC.
    \3\ G3, USARC, October 14, 2015. DATA SOURCES: MDIS, TOD, TAPDB-R, 
RTIMS. 2,960 Soldiers are working in the Continental United States 
(CONUS), while 14,438 Soldiers are deployed abroad and in support of 
the Army Service Component Commands, including nearly 780 Soldiers in 
Afghanistan, 3,650 in the United States, 2,200 in Kuwait, 940 in Cuba, 
309 in Qatar, and 200 in Djibouti.
    \4\ USARC G-3/5 via HQDA system ``MDIS'' Mobilization Deployment 
Information System o/a 19 May 2015.
---------------------------------------------------------------------------
    When sustained unified land operations are required, the Army 
integrates and synchronizes all of America's military services, but it 
can do so only with the support of the Army Reserve which provides most 
of the Army's critical technical enablers. These include Petroleum 
Pipeline and Terminal Operations, Rail Units, Biological Identification 
Detachments, Broadcast Operation Detachments, Civil Affairs, Theater 
Engineer Commands, Medical Logistics, and others crucial to opening and 
sustaining major operations.
    The 2016 Army Reserve Posture Statement outlines specific ways to 
meet mission requirements without placing undue stress on the force. 
Chief among them are full implementation of Army Total Force Policy, 
which will ensure distribution of Army resources among all three 
components based on size, mission, and requirements; integrated 
training for all three components to ensure the interoperability of our 
forces; funding for equipment and modernization to ensure compatibility 
and the ability to respond to emerging global security threats; and 
programs and services to support the physical and mental readiness of 
Soldiers and Families.
    Working together, I know we can accomplish these goals, and with 
the continued strong support of Congress, the Army Reserve will 
continue to protect and defend the Nation at home and abroad, now and 
for the foreseeable future.
                   a global operational reserve force
    Today's United States Army Reserve is the Army's sole flexible, 
tailorable and accessible Federal Reserve force under Federal control. 
Manned, trained, and equipped to enable combat forces, the Army Reserve 
provides quick access to trained and ready Soldiers, leaders and 
cohesive units with the critical enabling capabilities America's combat 
units rely upon to sustain prolonged operations and win decisively and 
dominantly.
    Ranging in scope from theater-level capabilities vital to major 
operations to high-demand career fields difficult to retain on active 
duty, these capabilities add the operational flexibility and strategic 
depth essential to the Army's ability to prevent and shape events 
across the full range of operations in which our Nation is, and will 
continue to be, engaged.
    Globally engaged for more than 14 consecutive years of war, the 
Army Reserve is an integral and essential element of the Total Army and 
the Joint Force, meeting high operational tempo demands; operating and 
generating forces to support the National Military Strategy and U.S. 
commitments worldwide; and providing predictable capabilities to global 
combatant commands.
    As the only Army component that is also a command, the Army Reserve 
is organized under a single officer who has both staff responsibilities 
to the Department of the Army as the Chief of Army Reserve and command 
authority over most USAR Soldiers as the Commander, U.S. Army Reserve 
Command. Because the Chief of the Army Reserve is dual-hatted as 
Commander, U.S. Army Reserve Command, there is a great deal of unity of 
effort within the Army Reserve. This structure allows the Army Reserve 
to integrate into, and directly support, every Army Service Component 
Command and Combatant Command across the globe with a footprint that 
extends across all 50 States and the District of Columbia, six 
Territories, and more than 30 countries.
    Since 2001, more than 310,000 Army Reserve Soldiers have been 
mobilized and deployed across the globe, to include every major combat 
zone. During this time, steady demand for Army Reserve capabilities has 
introduced a new paradigm of reliance on the Army Reserve as a critical 
part of our national security architecture and an essential partner in 
preventing conflict, shaping the strategic environment, and responding 
to operational contingencies, to include Theater Security Cooperation, 
overseas disaster response, Homeland Defense, and Defense Support of 
Civil Authorities.
             current and future global security environment
    The United States and its allies face a complex and dynamic global 
security environment with enemies that are adaptive and growing in 
numbers, lethality, and the ability to threaten vital U.S. strategic 
interests around the world. Meeting the defense and security demands of 
today and tomorrow will require continued access to, and reliance upon, 
the skills, capabilities, and experience of an operational Army 
Reserve.
    The advantages of a ready and operational Army Reserve are many. 
When deployed to support operational contingencies and theater 
cooperation missions, a Federal operational Army Reserve force saves 
the Army money. It reduces the demand for Active Army capabilities, 
helps mitigate current Army capability shortfalls, and allows the 
Active Component to maximize time at home between deployments. A ready 
and operational Army Reserve provides the depth and scalability the 
Army needs to meet current and anticipated requirements of the 
Combatant Commands. It achieves a cost-efficient balance between the 
utilization of Active Army and Army Reserve forces, applying the 
strengths and capabilities of each to full advantage, and it provides a 
sufficient base of trained, equipped and ready Soldiers, leaders and 
units from which the Active Component can draw when needed. Most 
importantly, a ready and operational Army Reserve provides the critical 
enabling capabilities combat forces rely on to initiate, sustain and 
win prolonged operations. If those capabilities are not prepared and 
ready for operational use, the Army and the Joint Force could fail 
their missions.
    readiness, resourcing the future force, taking care of soldiers
    Readiness is the Army Reserve's number one priority. To win in the 
complex world of today and tomorrow, we must be ready for the threats 
and challenges of the present and the future.
    The Army Reserve's greatest concern is resources. The current 
demand for Army Reserve forces is about 25,000 operational troops 
annually. To generate that number, at least one third of all Army 
Reserve forces must maintain prescribed levels of readiness for 
manning, equipping and training to meet operational requirements. 
Without the resources requested in the fiscal year 2017 President's 
budget to man, train and equip those forces, the Army Reserve cannot 
remain an operational reserve.
    Full Time Support is a foundational enabler that sustains readiness 
and allows Soldiers and units to be rapidly deployable. Training must 
be integrated among all three Army components to ensure 
interoperability of our forces. The Army Reserve has taken risk in 
equipping and modernizing our force, which may affect our ability to 
respond to emerging global security threats. Finally, our most 
important resource--our Soldiers, and their families--must be supported 
with the best possible care, programs and services to ensure their 
individual physical and mental readiness and well-being.
    All of these challenges can be met by relatively simple solutions, 
including implementing Army Total Force Policy, integrated training for 
all three components, and sustaining the operational Army Reserve.
Plan, Prepare and Provide
    Plan, Prepare and Provide is the readiness model of the Army 
Reserve. Under this model, the Army Reserve provides trained, equipped, 
and ready Soldiers and cohesive units to meet global requirements in 
support of Unified Land Operations.
    The ``Plan'' portion of the readiness model regionally aligns Army 
Reserve units to Army Service Component Commands (ASCC) and Combatant 
Commands (CCMD). Army Reserve Engagement Cells (ARECs), Army Reserve 
Engagement Teams (ARETs),\5\ and direct staff planning support provide 
reach-back capability to assist ASCCs and CCMDs with accessing 
capability found in Army Reserve forces. ``Prepare'' involves training, 
assessing and certifying Soldiers, leaders and units for contingent and 
combat missions. ``Provide'' is the act of deploying those trained and 
ready Army Reserve Soldiers and units in support of planned or 
unforeseen ASCC or CCMD mission requirements under the auspices of Army 
Total Force Policy (ATFP).
---------------------------------------------------------------------------
    \5\ The Army Reserve (USAR) established Army Reserve Engagement 
Cells (ARECs) and smaller Army Reserve Engagement Teams (ARETs) at Army 
Service Component Commands (ASCCs) at both Army Corps-level commands 
and Geographic Combatant Commands (GCCs) to facilitate access to USAR 
Regionally Aligned Forces (RAF).
---------------------------------------------------------------------------
    Army Reserve Engagement Cells (ARECs) are technical and tactical 
experts who provide direct staff planning support to Army Service 
Component Commands and Field Armies. Army Reserve Engagement Teams 
(ARETs) are smaller elements that help integrate Army Reserve 
capabilities into Combatant Command- and Corps-level plans across war-
fighting functions. Together they address long-term opportunities for 
the Army Reserve to support Combatant Commanders, facilitate unit and 
individual training, and provide a reach-back conduit to CONUS-based 
capabilities.
    Army Reserve Engagement Cells and Teams also support the Army's 
Regionally Aligned Forces concept for providing Combatant Commanders 
with versatile, tailored, responsive and consistently available 
military capabilities for planned and emerging missions across the 
globe. Currently, 14,438 Army Reserve Soldiers are supporting the 
Combatant Commands in missions that include combat support operations 
in Afghanistan, Civil Affairs missions in the Horn of Africa, 
deterrence operations missions in Kuwait, military police operations at 
Guantanamo Bay Cuba, and medical support operations at facilities in 
Honduras.\6\
---------------------------------------------------------------------------
    \6\ G3, USARC, October 14, 2015. DATA SOURCES: MDIS, TOD, TAPDB-R, 
RTIMS. 2,960 Soldiers are working in the Continental United States 
(CONUS), while 14,438 Soldiers are deployed abroad and in support of 
the Army Service Component Commands, including nearly 780 Soldiers in 
Afghanistan, 3,650 in the United States, 2,200 in Kuwait, 940 in Cuba, 
309 in Qatar, and 200 in Djibouti.
---------------------------------------------------------------------------
    Under Plan, Prepare and Provide, the Army Reserve delivers 
continuous and substantial support to the Combatant Commands, working 
seamlessly with Active Component and Army National Guard personnel, as 
well as members of the Air Force, the Navy, the Marine Corps, and 
Allied militaries.
Private Public Partnerships
    Another way the Army Reserve promotes readiness is through its 
Private Public Partnership program (P3). This program was created to 
accomplish two objectives: 1) Help Soldiers find employment or advance 
their careers in the private sector; and 2) Enhance the individual and 
operational readiness of our forces at a time when global challenges 
are increasing and budgets are shrinking. The two goals go hand-in-
hand.
    Most Army Reserve Soldiers are traditional Reservists, which means 
they maintain full time jobs in the private sector. Those jobs 
encompass more than 148 different career fields that correspond to core 
military capabilities, including medical, legal, aviation, 
transportation, chemical, civil affairs, logistics, quartermaster, 
signal, military intelligence, firefighters and military police.
    The Private Public Partnership program merges the best of Army 
training with civilian professional development and Title 10 training 
to enhance the skills and competencies of Soldiers and leaders at both 
the civilian and military levels, and advance the operational readiness 
of our forces--at little or no cost to the taxpayer.
    Using an innovative mix of support initiatives, P3 provides mind/
body/spirit programs to enhance individual readiness, job-specific 
credentialing to enhance leader readiness; and private sector 
partnering and training to enhance unit readiness to meet specific 
global needs. The program benefits Soldiers by enhancing their civilian 
skills and experience. It benefits employers by providing the highly 
skilled and motivated employees needed to improve the productivity, 
capability, and resident expertise of their businesses and 
organizations, and; it benefits the Army Reserve because those enhanced 
skills and capabilities will improve the operational readiness of our 
forces.
Manning: Army Reserve Full-Time Support (FTS) and Personnel Challenges
    Today, more than 50 percent of the Army resides in the Reserve 
Components. Overseas Contingency Operations, Homeland Defense 
deployments and Domestic response missions are significant undertakings 
that require Soldiers and units to be ready with little or no notice.
    The key enabler that allows Army Reserve Citizen Soldiers to be 
rapidly deployable and sustains unit readiness is the Full Time Support 
(FTS) program. There are two objectives of FTS. The first is to improve 
Reserve Component readiness and mobilization/deployment planning and 
preparation by performing the foundational activities required to 
support readiness. Full Time Support provides individual and unit 
support for day-to-day administration, personnel, medical, training, 
recruiting, mobilization, and other functions required to sustain an 
Operational Reserve. The second objective is to provide Active Guard 
and Reserve (AGR) personnel to Army organizations in support of Reserve 
Component missions.\7\
---------------------------------------------------------------------------
    \7\ AR 135--2, Army National Guard and Army Reserve Full-Time 
Support, 1 June 1990, Page 5.
---------------------------------------------------------------------------
    Roughly 25 percent of Army Reserve AGR personnel support the Joint 
Staff, Combatant Commands, Headquarters Department of the Army (HQDA) 
and major Army Commands. Thus, the FTS program is a critical resource 
that enables the Total Army and Joint Force to exercise Mission 
Command.
    The need to fully resource the Army Reserve FTS program is well-
documented in multiple sources, including a 2009 Government 
Accountability Office (GAO) report, and a 2011 U.S. Army Audit Agency 
report, which found that Army Reserve commands did not have sufficient 
FTS to perform their missions.\8\ While FTS exemplifies Army Total 
Force Policy, active Army participation through Title XI9 \9\ is below 
the level established in current law.
---------------------------------------------------------------------------
    \8\ Inspector General of the United States Department of Defense 
Semi-Annual Report to the Congress, October 1, 2011--March 31, 2012, 
p.66. GAO report number GAO-09-898, September 17, 2009. http://
www.governmentattic.org/11docs/AAA-2012AnnualPerfReport.pdf.
    \9\ Title XI is the term commonly used to refer to active component 
advisers assigned to units of the selected reserve. Section 414(c)(1) 
of the National Defense Authorization Act for fiscal years 1992 and 
1993 established the Program for Active Component Support of Reserves. 
10 U.S.C. 12001 Note requires assignment of not less than 3,500 active 
component personnel to serve as advisors under the program.
---------------------------------------------------------------------------
Army Total Force Policy
    Army Total Force Policy (ATFP) allows the Army to take a holistic 
approach to adjusting processes and procedures to better manage Active 
and Reserve Components as a Total Force. More specifically, it allows 
the Army to organize, man, train, sustain, and equip the Total Army as 
one integrated force across all Army components, and ensures uniformity 
in training and readiness oversight.
    A primary tenet of the Army Total Force Policy and DODD 1200.17, 
Managing the Reserve Components as an Operational Force, is the 
integration of Active Component (AC) and Reserve Component (RC) 
organizations to the greatest extent practicable. This includes the use 
of cross-component assignments--AC to RC and RC to AC--and the One Army 
School System (OASS). The One Army School Systems is the best way to 
maintain Army-wide individual readiness and it ensures consistent 
standards across all components. OASS standardizes Army individual 
education regardless of component and saves resources by offering 
geographical convenience.
    The Army Reserve supports Army Total Force Policy in numerous ways, 
including multi-component units, Continuum of Service, and the One Army 
School System (OASS). Multi-component units promote informal leader 
development, share training opportunities, develop staff functionality, 
and communicate lessons learned. The OASS ensures Soldiers are able to 
attend Professional Military Education training, regardless of 
component, on time and to standard.
    Maintaining the right mix of forces and professional personnel with 
experience and relevant skills is essential to the Army Reserve's 
ability to provide operational and strategic depth to the Army and the 
Total Force. Although the Army Reserve is fully integrated into ATFP 
planning efforts, additional changes to processes and procedures are 
needed to progress toward full implementation of Army Total Force 
Policy.
Training
    To maintain the operational readiness gained over the past 14 
years, the Army Reserve's collective training strategy will require 
consistent funding. While our Combat Support Training Program is 
designed to meet Combatant Commander requirements; some Army Reserve 
units will require additional training days due to the complexity of 
their particular missions. To date, the Army Reserve has managed to 
fund training for critical units, but additional resources will be 
required in the future to support increased readiness standards and 
demand.
    Another negative impact on current and future readiness is the 
Army's significant backlog of Professional Military Education and 
Military Occupational Specialty Qualification training. Increased 
funding and implementation of the Select Train Educate Promote Policy 
in fiscal year 2016 should reduce backlogs in the Army's non-
commissioned officer education and Professional Military Education 
systems, although expanding course lengths, course complexity, and 
other enrollment issues create challenges for Citizen-Soldier 
participation.
Equipping and Modernization
    As with training, equipping requires sustained and predictable 
funding to maintain a fully operational Army Reserve. Sequestration has 
adversely impacted critical Army Reserve capabilities leading to a 60 
percent reduction in new procurement funding over the last 5 years. 
Although the Army Reserve represents nearly 20 percent of the Total 
Army, it received less than 3.5 percent of the Total Army's fiscal year 
2016 equipment procurement budget. Funding constraints further risk 
widening compatibility gaps, which jeopardize the Army Reserve's 
ability to support the Joint Force.
    Resourcing constraints stemming from sequestration forces the Army 
Reserve to retain older equipment longer to compensate for delayed and 
cancelled procurements of enabler programs. This risks compatibility 
among Army formations and within supported units, and degrades 
capabilities needed to respond to emerging global security threats.
    Risk is particularly acute for the Army Reserve in Mission Command 
Systems such as the Army Battle Command System, Command Post of the 
Future, Blue Force Tracker and others, as 90 percent of these systems 
are incompatible with those of the Joint Force.
    Despite funding constraints, Army Reserve Equipment On Hand 
slightly improved through the redistribution of existing legacy 
equipment to offset deferring investments in technologically compatible 
systems not funded in the base equipping budget.
    Using funds provided in the National Guard and Reserve Equipment 
Account (NGREA), the Army Reserve is postured to procure Critical Dual 
Use (CDU) items in support of Homeland Defense (HD) and Defense Support 
of Civil Authorities (DSCA).
    Sequestration's negative resourcing trends and adverse effects can 
be reversed by supporting the budget's dedicated and sustained funding 
for preserving an operational Army Reserve that is compatible with, and 
fully integrated into, the Total Army and Joint Force.
Employment of the Operational Army Reserve
    The National Defense Authorization Act of 2012 expanded the ability 
of the Army Reserve to assist in domestic emergencies. Section 12304a 
of title 10 U.S. Code allows the Army Reserve to provide life-saving, 
life-sustaining capabilities for Defense Support of Civil Authorities 
(DSCA) for up to 120 days in response to a Governor's request. These 
expanded authorities are a perfect fit with the Army Reserve's 
immediately-accessible capabilities that support an expeditionary Army 
and Joint Force. Army Reserve civilian-enhanced military skills and 
technical capabilities are present in more than 1,100 communities 
across the Nation.
    In addition, the Army Reserve is well postured to provide critical 
and complementary response capabilities in support of civil authorities 
under Immediate Response Authority. A large portion of the Army's 
medical, engineer, and logistical capabilities reside within the Army 
Reserve.\10\ The Army Reserve provides 100 percent of the Army's 
Emergency Preparedness Liaison Officers (EPLOs). These EPLOs integrate 
DOD life-saving capabilities with other Federal agencies, State and 
local governments, and nongovernmental organizations during disaster 
responses within the Homeland. The Army Reserve is also fully 
integrated into the standing Department of Defense task force postured 
for rapid deployment to provide Federal support for specific Civil 
Defense missions involving a Chemical, Biological, Radiological and 
Nuclear (CRBN) event.
---------------------------------------------------------------------------
    \10\ 10 By 2017 nearly 55 percent of all Army operational medical 
forces will reside within the Army Reserve. Our Expeditionary 
Sustainment Commands (ESCs) and Army Reserve elements from the Surface 
Deployment and Distribution Command deploy to locations devoid of 
infrastructure to open seaports, while our logistics and supply chain 
personnel are experts at moving life-saving materiel and services into 
affected areas. A significant portion of the Army's full spectrum 
engineer capability resides within the Army Reserve, with many of these 
capabilities almost exclusively or predominately within the Army 
Reserve. Army Reserve medical evacuation helicopters can rapidly 
transport patients to critical care facilities. Our fixed and rotary 
wing aircrafts rapidly deliver life-sustaining supplies, equipment, and 
construction material into devastated areas.
---------------------------------------------------------------------------
    The use of section 12304b authority helps the Army meet global 
requirements, enables predictable access to the Reserve Components, 
supports Army Total Force Policy, and maintains an operational reserve 
force.\11\ The critical enabling capabilities resident in the Army 
Reserve must be maximized to provide the most effective support to the 
Nation at home and abroad. Fully funding the President's Budget request 
for 12304b reserve component activations will improve the USAR's 
ability to support Army and Joint force requirements and improve Army 
Reserve readiness while preserving that of the Regular Army.
---------------------------------------------------------------------------
    \11\ From October 2014 through September 2015, the Army processed 
mobilizations under 12304b authority for 1,656 Soldiers from 269 units 
to support preplanned missions for five U.S. Combatant Commands. These 
missions took place in nine countries: Liberia (14), Egypt (445), 
Germany (9), Kosovo (490), the United States (511), Belize (1), 
Dominican Republic (12), Honduras (171) and Peru (3). The missions 
included Air Defense; CBRNE; Counterterrorism Partnerships; Peace 
Keeping; Stability Operations; and Theater Security Cooperation 
support.
---------------------------------------------------------------------------
Taking Care of Soldiers and Families
    Without a doubt, the first and most essential element of readiness 
is people--Soldiers and Families--and that is where the collective 
strength of the Army and the Army Reserve resides.
    Army Reserve Family Programs provide a host of services to 
Soldiers, Family members, command teams and Civilians throughout the 
geographically dispersed Army Reserve community.\12\ Available 24 hours 
a day via phone or email, the Fort Family Outreach and Support Center 
provides a clear path to command and community resources, with 
comprehensive and confidential information, assistance, and referrals 
for every aspect of military life.\13\ The Army Reserve Volunteer 
Program promotes and strengthens volunteerism by uniting community 
volunteer efforts, enhancing volunteer career mobility, and 
establishing volunteer partnerships. Our Survivor Outreach Services 
Program maintains a Family's connection with the Army Family in times 
of loss, regardless of the fallen member's duty status or component. 
Child and Youth Services helps geographically dispersed Soldiers and 
Families find affordable childcare and youth supervision options within 
local communities. Army Family Team Building is a readiness training 
program to educate Army Families about military life.
---------------------------------------------------------------------------
    \12\ Army Reserve Family Programs; database available online at: 
http://arfp.org/programs.
    \13\ The Fort Family Outreach and Support Center at http://
arfp.org/fortfamily.html or via the Fort Family phone number at 1-866-
345-8248 provides live, relevant, and responsive information to support 
Army Reserve Soldiers and Families. Available 24 hours a day, seven 
days a week, and 365 days a year, it provides unit and community-based 
solutions that connects people to people. Assistance is provided during 
times of crisis as well as routine assistance for other immediate needs 
to help maintain Soldier and Family readiness and resiliency. By 
pinpointing Families in need and local community resources, the Fort 
Family Outreach and Support Center can quickly connect the Soldier and 
Family to resources, providing installation-commensurate services in 
the geographic location of the crisis. Fort Family Outreach and Support 
Center has established a community-based capacity by engaging our 
Nation's ``Sea of Goodwill'' to support Soldiers and Families close to 
their residence. Simply stated, Fort Family via web or phone connects 
Soldiers and Families with the right service at the right time.
---------------------------------------------------------------------------
    The military readiness within Army Reserve commands depends upon 
the readiness and resiliency of our Army Reserve Soldiers and Families. 
Army Reserve Family Programs helps make that possible for the 254,297 
Army Reserve Family Members (89,265 spouses, 145,086 dependents under 
18 years of age, and 19,946 dependents 19 years and older) in the force 
today.\14\
---------------------------------------------------------------------------
    \14\ 2015 Demographics--Office of the Secretary of Defense, Defense 
Manpower Data Center.
---------------------------------------------------------------------------
Suicide Prevention
    The Army Reserve has devoted much time, energy and effort to 
preventing suicide in our ranks,\15\ and preventing suicide remains a 
top priority of the Army Reserve.\16\ We are committed to providing the 
best resources and training available to assist our community-based 
Soldiers, Civilians, and Families in times of financial, spiritual, 
physical, or personal stress.\17\ The Army Reserve will continue to 
emphasize proactive prevention and intervention training already in use 
throughout the Army Reserve,\18\ Working together, we can and will 
mitigate the risk to our formations to the best of our collective 
ability.
---------------------------------------------------------------------------
    \15\ G1, United States Army Reserve Command. For example, we placed 
36 Suicide Prevention Program Managers (SPPMS) term positions and 
increased access to counselors and resources across our formations, 
with an emphasis on reducing the stigma associated with personal, 
Family, or behavioral health issues. To date, we have hired 31 of these 
36 suicide prevention program managers--a good news story. Vacant 
Positions exist in five commands: the 316th Expeditionary Sustainment 
Command (ESC), 4th Expeditionary Sustainment Command (ESC), 364th 
Expeditionary Sustainment Command, 94th Training Command, and Military 
Intelligence Readiness Command (MIRC).
    \16\ G1, United States Army Reserve Command, 13 JAN 15. In Calendar 
Year 2014, the Army Reserve realized a 30 percent decrease of Army 
Reserve Soldier suicides from Calendar Year 2013. In Calendar Year 
2015, however, year to date Soldier Suicides exceeded YTD Soldier 
suicides of all preceding Calendar Years. While there is no universal 
set of factors leading to a suicidal event, the detailed analyses of 
Army Reserve 15-6 investigations of suicidal events continue to 
identify the same stressors. For example, many Soldiers who died by 
suicide are male, single, junior-enlisted Soldiers that have never 
deployed, are unemployed, and are suffering from relationship and 
financial, and substance abuse challenges. We continue to face the same 
complex challenges of any geographically dispersed force in combating 
this problem, which is we lack frequent physical contact with our 
Soldiers and have limited access to military installation support. We 
also recognize that many Soldiers continue to face life challenges and 
need our help.
    \17\ For example, the United States Army Reserve developed five 
best practices to combat the issue of suicide within our ranks. First, 
we mandated personal contact with Soldiers and Family members between 
Battle Assemblies. This is a particular challenge for a geographically 
dispersed force that requires creative solutions to overcome. Second, 
we tried to establish enduring cultural change, systems, and processes 
that integrate resilience into our Soldiers and Families. Third, we 
emphasized attention to ``newly'' assigned Soldiers to ensure their 
transition is a positive one. Fourth, we promoted and advertised local 
resources (e.g., Fort Family) that help address the issue. Finally, we 
encouraged public, command recognition of Soldiers who intervened and 
took action to prevent a suicide and help a Soldier or a Family member 
(e.g., the ``Promoting Life'' Awards Program). G1, United States Army 
Reserve Command.
    \18\ For example, Army Reserve initiatives to prevent the tragedy 
of suicide include: Ask, Care, Escort Suicide Intervention Training 
(ACE-SI) for Unit Junior Leaders and First-Line Supervisors; Applied 
Suicide Intervention Skills Training for Trainers (ASIST T4T) for Unit 
first responders and ASIST T2 (2-day training) for Gatekeepers; a 
Leader Guide and Battle Buddy Computer Application; and additional 
education and awareness at Pre-Command Courses. G1, United States Army 
Reserve Command.
---------------------------------------------------------------------------
Sexual Harassment and Assault Prevention
    The Army is committed to reducing, and eventually eliminating, 
sexual assault within the ranks through a comprehensive Sexual 
Harassment/Assault Response and Prevention (SHARP) Campaign Plan that 
is focused on prevention, enhancing prosecution, investigation, victim 
advocacy, assessment and accountability. As an integral part of the 
Total Army, the Army Reserve remains committed to preventing, 
deterring, and responding to Sexual Harassment and Sexual Assault in 
its ranks via a multifaceted approach.\19\ Our adoption of a more 
aggressive focus and stance on Sexual Harassment and Sexual Assault has 
had a demonstrated positive impact in the force.\20\ We are fully 
committed to maintaining an environment free of sexual harassment and 
sexual assault throughout the Army Reserve.
---------------------------------------------------------------------------
    \19\ The Army Reserve established four full-time Special Victim 
Counsel (SVCs) positions, located at each of the four Regional Support 
Commands; 42 Troop Program Unit (TPU) SVCs, located at the Army Reserve 
General Officer Commands (GOCOMs); and 27 SVCs, located within each 
Legal Operation Detachment. The Army Reserve also established 50 full-
time Sexual Assault Response Coordinator/Victim Advocate (SARC/VA) 
positions that span the footprint of the Army Reserve. Although 43 of 
the 50 SARC/VA positions are currently filled, they are staffed with 
personnel in a MILTECH and AGR status. Previously, the Army Reserve 
maintained five hotlines listed on the Department of Defense (DOD) Safe 
Helpline website, which were accessible for referral through the 
Helpline operators. To improve responsiveness, accessibility and 
breadth of resources, the Army Reserve consolidated all hotlines under 
the Fort Family Outreach and Support Center. The Army Reserve routinely 
participates in and hosts forums and panels at all levels of command in 
the Army. This includes meetings with the HQDA SHARP Program Office and 
the SHARP Academy to improve Army Reserve participation in policy 
formulation, training, and future developments. The Army Reserve also 
utilizes improved analytics to inform current and future mitigation 
efforts. Finally, our adoption of a more aggressive focus and stance on 
Sexual Harassment and Sexual Assault demonstrated a positive impact in 
the force. We are fully committed to maintaining an environment free of 
sexual harassment and sexual assault throughout the Army Reserve.
    \20\ We are making great strides in improving our training 
capabilities across the Army Reserve. In fact, we were able to provide 
Army Central Command (ARCENT) with a trainer to teach an eighty-hour 
SHARP course in Afghanistan. The Army Reserve has the flexibility to 
augment the Army because we identified 12 Command SARCs to cross train 
as instructors through the SHARP Academy. We also now have the 
capability to run 26 of our own 80-hour training courses this fiscal 
year compared to only three in the last fiscal year. A deeper bench of 
Army Reserve SARC instructors allows us to provide more reserve 
component specific examples and information to students while 
simultaneously alleviating strain on active component school seat 
quotas. While there is always more work to be done to prevent Sexual 
Harassment and Sexual Assault, we remain laser-focused on doing 
everything possible to reduce, and eventually eliminate, sexual assault 
from the ranks.
---------------------------------------------------------------------------
                              other issues
Medical and Dental Readiness
    The Army Reserve has made significant improvements in medical and 
dental readiness through multiple initiatives.\21\ These improvements 
have resulted in an overall increase in dental readiness from 50 to 86 
percent. Currently, less than 6 percent of the Army Reserve are non-
deployable due to a dental condition.\22\ The Army Reserve has 
leveraged information technology systems which improve visibility of 
unit medical readiness, facilitate reporting, and simplify processes 
for commanders to manage unit readiness and the ability of Soldiers to 
deploy. Medical and dental readiness must remain fully funded to 
maintain an operational reserve, capable of consistently providing 
access to its key enablers.
---------------------------------------------------------------------------
    \21\ Improvements through multiple initiatives, including the Army 
Reserve Medical Management Center (AR-MMC), the Army Selected Reserve 
Dental Readiness System (ASDRS), and by leveraging improvements in 
medical and dental readiness tracking and reporting systems. Surgeon, 
OCAR. The AR-MMC provides case management for Soldiers with medically 
non-deployable conditions until their condition is resolved or the 
Soldier reaches their Medical Retention Decision Point (MRDP). If the 
Soldier reaches their MRDP, the Army Reserve, AR-MMC, and Army Medical 
Command work together to provide improved processes for those Army 
Reserve Soldiers requiring entry into the Integrated Disability 
Evaluation System (IDES). The ASDRS continues to ensure dental 
treatment for Soldiers whose dental conditions make them non-
deployable. Implementing a requirement for annual medical and dental 
assessments in 2008 improved our ability to adequately determine the 
medical and dental readiness of the force. Additional initiatives 
include; Decrease Non-compliance (reduce medical indeterminate), 
Improve Dental Readiness, Reduce Medical Non-Deployable, Reduce Medical 
Readiness Turbulence, and Improve Medical Readiness Reporting 
(Visibility).
    \22\ Surgeon, OCAR. The Army Reserve goal for dental non-deployable 
is less than 3 percent of the force (5,940 of the 198K end strength).
---------------------------------------------------------------------------
Army Reserve Network
    Army Reserve Network--the Army Reserve's information technology 
infrastructure--supports geographically dispersed Army Reserve 
Soldiers, leaders, and units in making timely, informed decisions, and 
it supports organizational agility, lethality and sustainability. To 
accomplish this, the Army Reserve Network must be a secure, standard-
based, reliable and adaptable environment that provides access at the 
point of need to the tactical edge. Maintaining our technological 
advantage, however, is a constant challenge in an enduring operational 
Army Reserve. By improving and maintaining an Army Reserve Network that 
is agile and rapidly leverages advances in technology, the Army Reserve 
will have opportunities to provide enhanced capabilities that will 
benefit the Total Army and the Joint Force.
Military Construction, Army Reserve (MCAR)
    Military Construction, Army Reserve (MCAR) funding supports Army 
Reserve readiness and provides for replacement of failing or failed 
facilities. At current funding levels, Army Reserve facility inventory 
is on a 200-year replacement cycle. If the current fiscal environment 
continues in the out years, facility shortfalls will impact the Army 
Reserve's ability to recruit and retain quality Soldiers.
Base Operations Support (BOS)
    Base Operations Support (BOS) funding provides information 
technology, communications, logistics, life, health and safety 
services, range and facility maintenance, civilian salaries, and force 
protection and environmental stewardship. Accordingly, BOS supports 
components critical to building readiness in the Army Reserve.
Army Reserve Cyber Capabilities
    The Army Reserve committed more than 800 Soldiers directly, and 
3,500 Soldiers indirectly, to support cyberspace operations.\23\ As 
threats and technologies evolve, the civilian skills that Army Reserve 
Soldiers possess will continue to enable our formations to provide a 
highly specialized talent pool to meet current needs and develop 
emerging capabilities.\24\
---------------------------------------------------------------------------
    \23\ OCAR G-3/5/7 (FWD). These 3,500 Soldiers come from signal 
units that provide defensive cyber operations support to DODIN. These 
3,500 positions supporting signal cyber operations encompass Soldiers 
assigned to perform a Cyber Security mission set. The 1545 by fiscal 
year 2016 represent those assigned to cyber units performing cyber as 
their primary mission. The rest encompass the Signal Soldiers assigned 
down to the unit level who perform their cyber security mission in 
support of the overall DOD information network. While not assigned as 
``cyber'' Soldiers, their oversight and defense of the network must 
comply with the cyber effort in order to enable our layered defense.
    \24\ Staff Sergeant Lydia Seaborn, the first female Cyber Soldier 
in the U.S. Army Reserve, best exemplifies this point. In a year of 
ground-breaking achievements for women in the military, Staff Sergeant 
Seaborn recently became the first Army Reserve female graduate from the 
25D Cyber Network Defender military occupational specialty course at 
Fort Gordon, GA. SSG Seaborn's achievement was only intensified by the 
fact that she also became the first female Distinguished Honor Graduate 
and the first Troop Program Unit (TPU) Army Reserve Soldier to graduate 
the active duty Army MOS producing school. SSG Seaborn, a Florida 
native who currently works at the Library of Congress as a Security 
Advisor, personifies the utility gained in both the private and public 
sectors from Army Reserve Citizen-Soldiers. In her Civilian career, SSG 
Seaborn ``provides oversight for the Library's Continuous Monitoring 
Program, and serves as the liaison for all annual audits. In her 
Reserve capacity, SSG Seaborn has been a ``system administrator, a 
domain admin, an Information System Security Officer, an Intrusion 
Detection analyst, an Organizational Inspection Program Auditor, and 
most recently, . . . a Forensic Analyst with a small dabble in  . . .  
Malware training.'' The unit she serves in now ``supports an ongoing 
initiative that provides security and network monitoring, incident 
response and forensic analysis in the field to various middle-eastern 
countries to include Kuwait and Afghanistan  . . .  Every year there is 
a deployment rotation and our Soldiers go overseas to provide Cyber 
security expertise that is needed.''
---------------------------------------------------------------------------
    Today, the Army Reserve is committed to building 10 cyber 
protection teams, an Army Reserve Cyber Training Element with advanced 
research and opposing force teams, and to providing highly skilled 
cyber warriors to the 1st Information Operations Command, the Defense 
Information Systems Agency, and the United States Army Cyber Command 
headquarters--a commitment of more than 800 Citizen Soldiers in support 
of cyberspace operations.\25\ This force structure effort is budget 
neutral, which benefits both the Army and the Nation.
---------------------------------------------------------------------------
    \25\ OCAR G-3/5/7 (FWD). These 800 Army Reserve Cyber Soldiers are 
current Army Reserve assets plus TAA 1620 wedge (ARCOG, Wedge ( four 
hundred), DISA ARE, and 1st IO Command 'ARE'). One Hundred Eight of 
these Soldiers will serve in the Army Reserve Cyber Training Element. 
Four Hundred Sixty-Nine of these Soldiers will serve in the Army 
Reserve Cyber Operations Group.
---------------------------------------------------------------------------
    As the Army continues to develop its cyber needs, the Army Reserve 
will continue to grow its cyber force through the Total Army Analysis 
process. We will also continue to collaborate with all Cyber Mission 
Force partners to develop new and innovative training strategies, to 
include public and private partnerships with academia, industry and 
government, to lessen the length of time needed for training future 
cyber warriors by leveraging civilian-acquired education and work 
experience.
Fiscally Efficient and Cost Effective
    The Army Reserve is an efficient and cost effective reserve force, 
providing 20 percent of the Army's total force for less than 6 percent 
of the Army's budget. Most of the technical capabilities the Army needs 
but can't afford to retain on active duty are resident in the Army 
Reserve, which means their skills are kept sharp at little or no cost 
to the Department of Defense. The Army Reserve has the lowest amount of 
headquarters overhead (less than 1 percent) and accomplishes its 
mission with only 14 percent of the component serving as full time 
support--six percent less than the average across all Service reserve 
components.
Sustaining the Operational Army Reserve
    The benefits of an operational Army Reserve are clear: A Federal 
operational Army Reserve saves money by providing predictability for 
the proper forecasting of resources to meet the training, sustaining, 
manning and equipping thresholds required to provide a steady flow of 
tailorable capabilities to the Joint Force. It helps the Army mitigate 
current capability shortfalls, and provides expert capability and 
invaluable experience indispensable to both current and future 
conflicts.
    Using the Army Reserve in security cooperation missions reduces the 
demand for active Army capabilities. It allows the Active Component to 
maximize time at home between deployments; provides the Army Reserve 
with the opportunity to employ and refine its multi-functional skills; 
and because the Army Reserve is not full time force, the Army saves 
money by utilizing it in an established cyclic manner that provides 
predictability for the Combatant Commands, the Army, and Soldiers, as 
well as their Families and employers.
    Most importantly, an operational Army Reserve entirely under 
Federal control provides quick access to trained and ready forces and 
the critical enabling capabilities Total Army and Joint Force combat 
forces rely on to sustain prolonged operations. If the Army Reserve's 
enabling capabilities are not prepared and ready for operational use, 
the Army and the Joint Force could fail their missions.
    The policies to maintain an operational Army Reserve are already in 
place. Chief among them is Army Total Force Policy which calls for the 
Service Secretaries of all the Military Departments to man, train and 
equip their Active and Reserve components as an integrated operational 
force to provide predictable, recurring and sustainable capabilities. 
Full implementation of Army Total Force Policy is key, and that 
includes Total Army Training and the One Army School System, which 
ensures that Soldiers are able to attend Professional Military 
Education training on time and to standard. Next in importance is 
maintaining requested FTS resourcing levels.
    An operational and sufficiently-resourced Army Reserve is the best 
way to fulfill both current and anticipated mission requirements 
consistent with available and estimated future resources. It provides 
depth and scalability to meet current and anticipated requirements of 
the Combatant Commands, and achieves a cost-efficient balance between 
the Active Component and the Army Reserve using the strengths and 
capabilities of each to full advantage. It ensures capacity needed to 
support homeland missions, and provides a sufficient base of trained, 
equipped and ready forces from which the Active Component can draw when 
needed; helps the Army better manage strategic and operational risk, 
and maintains the invaluable expertise and experience gained since 
September 11, 2001.
    Today's Army Reserve is the most battle-tested and experienced in 
our Nation's history. As the dedicated Federal reserve of the Army, the 
Army Reserve exists to serve the Army and the Nation, and has never 
failed to accomplish its mission. Ready now, ready in times of crisis, 
and ready for whatever threats and challenges lie ahead, the United 
States Army Reserve is America's life-saving, life-sustaining Federal 
reserve force.

    Senator Cochran. Thank you, General Talley, we appreciate 
your participation in the hearing.
    We now call on the Chief of Navy Reserve, Vice Admiral 
Robin R. Braun.
STATEMENT OF VICE ADMIRAL ROBIN R. BRAUN, CHIEF, NAVY 
            RESERVE
    Admiral Braun. Chairman Cochran and distinguished members 
of the subcommittee, as Chief of Navy Reserve, it is my 
distinct honor to report on the state of the Nation's Navy 
Reserve and our citizen sailors who selflessly contribute to 
the national defense. With us today is my dynamic Navy Reserve 
Force Master Chief, CJ Mitchell.
    The Navy Reserve proudly provides trained, equipped, and 
ready sailors to the Navy, Marine Corps, and Joint Force. As an 
essential component of the Navy, the Navy Reserve is cost-
efficient and mission-effective, providing operational 
capability, strategic depth, and surge capacity, both overseas 
and at home, across the full spectrum of naval missions.
    Navy Reserve readiness is built on our integrated force 
structure and the operational support that is routinely 
provided by our sailors. In any given week, 25 percent of the 
Navy Reserve is delivering support to the Navy around the 
globe, generating readiness as a regular product of the way we 
do business.
    The Navy Reserve is able to respond rapidly because surge 
is simply an extension of how we operate on a daily basis.
    Our 60,000 citizen sailors come from all walks of life, and 
they represent every State and territory in the union. Since 9/
11, more than 75,000 mobilizations have been executed. And 
today, more than 2,100 of our citizen sailors are mobilized 
around the globe in places like Afghanistan and Djibouti.
    The Navy Reserve's readiness engine is driven by our 
sailors' ability to provide routine and predictable operational 
support to their Active component commands.
    The primary funding used to support this is discretionary 
RPN (Reserve Personnel Navy), which is also valued for the 
immediacy with which it can be allocated to support emergent 
requirements.
    There are, however, mission areas where we are facing 
increasing risk. Aircraft recapitalization is absolutely the 
number one equipping priority of the Navy Reserve. Fiscal 
constraints demand that we focus on extending the service life 
of our hardware. However, each has a finite lifespan.
    Even when we are able to extend the life of legacy 
equipment, such as our F-18, P-3, and C-20 aircraft, we cannot 
overcome the resulting interoperability barriers, increased 
maintenance, and obsolescence issues.
    For example, procurement of the C-40A cargo and passenger 
aircraft began in 1997 as a replacement for C-9 and C-20 
aircraft. The C-40A represents the most capable, cost-
efficient, and responsive option to support the Navy's forward-
deployed operational posture.
    The C-40A requirement is 17 aircraft and, to date, 15 have 
been procured. The final two C-40s will enable the Navy to 
divest of our C-20s and sustain the air logistics required for 
a forward-deployed naval force.
    On behalf of all the dedicated citizen sailors who serve 
our Nation in our great Navy, I thank the members of the 
Committee for your support, and I look forward to your 
questions.
    Thank you.
    [The statement follows:]
           Prepared Statement of Vice Admiral Robin R. Braun
                              introduction
    Chairman Cochran, Ranking Member Durbin, and distinguished Members 
of the Subcommittee, as Chief of Navy Reserve it is my distinct honor 
to report to you on the state of the Nation's Navy Reserve and our 
Sailors, who selflessly contribute to the national defense. The Navy 
Reserve proudly provides trained, equipped and ready Sailors to the 
Navy, Marine Corps and Joint Force. As an essential component of the 
Navy, the Navy Reserve is cost-efficient and mission-effective 
providing operational capability, strategic depth and surge capacity, 
both overseas and at home, across the full spectrum of naval missions.
    Today's Navy Reserve is comprised of 57,400 Citizen Sailors from 
every State and territory. Since 2001, these dedicated men and women 
have mobilized over 75,000 times to every theater of operations, 
including 2,537 personnel in fiscal year 2015. On behalf of the Navy 
Reserve, I would like to extend my sincere gratitude for your continued 
support.
                        today's force structure
    Today's force structure is the result of Navy's imperative to 
improve the interoperability and operational effectiveness of the Navy 
Reserve in the months following 9-11. In 2002 the Navy commissioned a 
study to redesign, integrate and better utilize the Navy Reserve. The 
resulting plan was titled Active-Reserve Integration (ARI) and included 
a Zero Based Review of each billet to eliminate inefficiencies and 
optimize mission effectiveness. As a result, force structure 
initiatives were implemented to drive integration and Navy Reserve end 
strength was reduced by nearly 20 percent from fiscal year 2003-2006. 
Since then, due to warfighting capability and capacity tradeoffs 
balancing risk and resources, Navy Reserve end strength has continued 
to decline, leveling off in fiscal year 2016 at 57,400 for a total end 
strength reduction of 32 percent since 2001.
                              permeability
    One of the most significant outcomes of the Navy's ARI process is 
the permeability between the active component (AC) and reserve 
component (RC).
    As a direct result of the RC force structure realignment, most 
Reserve Sailors now routinely work and train alongside their AC 
counterparts. Due to the high levels of personnel and mission readiness 
attained as a result of this synergy, our Sailors are able to provide a 
rapid response to calls for support from the Navy and Joint Force, 
often on a moment's notice.
    Additionally, where appropriate, our hardware units are aligned and 
integrated with active component training and deployment cycles. These 
RC units, comprised of military professionals with extensive 
operational experience, act as force multipliers through mission 
augmentation and surge capacity where and when needed. This is one of 
the most cost-efficient and mission-effective models available across 
all reserve components today.
                            citizen sailors
    Reserve Sailors support the Navy's mission by leveraging their 
unique combination of civilian and military experience to provide value 
to the Navy in critical mission areas. Their civilian skill sets add 
invaluable expertise to our Force, and conversely, their military 
training and professional development make them more capable leaders in 
their civilian communities. Citizens who serve in the Navy Reserve 
strengthen the bond with the American public while inspiring families, 
employers and communities to support military service.
    The Navy Reserve leverages the service of thousands of men and 
women in uniform as they transition from active duty. This ability to 
retain their training and experience is a critical element in managing 
talent in the Navy Reserve and is vital to the future of the Total 
Force. When in uniform, Reserve Sailors blend seamlessly with their AC 
counterparts, operating as one team. When out of uniform and serving in 
the civilian sector, our Sailors learn and hone skills that provide the 
Navy an asymmetric advantage when combined with their military 
training.
    Whether a tradesman, first responder, executive, or licensed 
professional, the Navy has long benefitted from the civilian experience 
and maturity of RC Sailors. Moving forward, we are focused on 
developing and improving our processes so we can more consistently 
leverage RC Sailors' civilian skills.
    Military commanders often comment that the value of Reserve 
Sailors' civilian expertise enhances their military service. As one 
Joint Task Force Commander noted, ``The background and contemporary 
industry knowledge members of the Navy Reserve bring to my organization 
cannot be overstated--they bring a unique set of skills which 
consistently results in a better solution or product when they work 
side-by-side with their active duty counterparts, government civilians 
and contractors.'' This unique combination of civilian and military 
experience and skills provided by Reserve Sailors offers the diversity 
of thought and insight which inspires innovation and acts as a force 
multiplier.
                        integrated fleet support
    Over the past year, the Navy routinely responded to combatant 
commander requirements with tailored Reserve units and personnel. Our 
force structure provides integration options ranging from the 
mobilization of an entire unit to the activation of a single Individual 
Augmentee (IA) Sailor. This model delivers increased flexibility and 
depth to the Total Force, and the experience gained by Navy Reserve 
Sailors through mobilizations and operational support missions 
maintains high readiness levels and enhances interoperability with the 
AC and the Joint Force.
    The Navy also continues to leverage RC capacity in support of day-
to-day fleet operations. RC Sailors fill manning gaps at sea, bolster 
understaffed shipyards, and are utilized in daily production as well as 
surge response. As an example, within the training and education 
commands they serve as Recruit Division Commanders at Recruit Training 
Command, and as instructor pilots in aviation training squadrons and 
are able to expand their support when demand for student throughput 
increases.
    The dynamic nature of the global security environment demands a 
Navy that can generate forces and capabilities with the agility and 
adaptability to respond to both persistent and emerging threats. As a 
result, the Navy Reserve continuously assesses and refines its mission 
sets. For instance, in 2015 we continued to support operations in 
Maritime Patrol and Reconnaissance, Air Logistics, Expeditionary 
Combat, Shipyard Maintenance, and Funeral Honors. We are well 
positioned to continue delivering operational capacity and capability 
in an agile and adaptable manner well into the future.
    Serving in support of their strategic depth role, Navy Reserve P-3C 
squadrons are augmenting deployment requirements for AC maritime patrol 
squadrons in the Pacific Command Area of Responsibility (AOR). This 
operational deployment of RC capacity is enabling the AC to transition 
from the legacy P-3C to the new P-8A aircraft. Navy began utilizing RC 
maritime patrol in this capacity in 2013 and will sustain P-3C 
operations through 2020.
    The Navy Reserve's Fleet Logistics Support Wing (FLSW) provides 100 
percent of the Navy's intra-theater air logistics capability. FLSW 
aircraft and flight crews are essential to sustaining maritime 
operations, transporting naval personnel and priority cargo to forward 
deployed units throughout the world. For example, when USS Donald Cook 
(DDG-75) experienced an engineering casualty that prevented them from 
accomplishing their CENTCOM assigned mission in support of Operation 
INHERENT RESOLVE, a FLSW aircraft was able to launch on short-notice, 
transporting approximately 2,000 pounds of high-priority parts to Souda 
Bay, Greece thereby enabling Cook to rapidly return to a fully mission 
capable status. In fiscal year 2015 FLSW transported more than 121,000 
naval personnel and nearly 25 million pounds of cargo in support of 
Fleet operations.
    Navy Expeditionary Combat Command (NECC) serves as the functional 
command for the Navy's expeditionary force. The Reserve Component, 
which comprises 50 percent of all NECC forces, is integrated into the 
global deployment schedule. Navy Reserve Construction Battalions and 
Coastal Riverine Squadrons represent two communities within NECC.
    In 2015, Navy Reserve Construction Battalion Seabees continued to 
mobilize in support of overseas contingency operations, deploying 
nearly 800 Reserve Sailors to the CENTCOM and AFRICOM AORs to provide 
expeditionary construction, forward operating base maintenance, host 
nation infrastructure improvements, and support for Special Operations 
Forces.
    Reserve Coastal Riverine Squadrons (CRS) are responsible for the 
Navy's High Value Unit (HVU) escort mission and have conducted over 
1,022 HVU Escort missions to date, providing afloat escort security for 
Navy vessels at strategic ports in the Continental United States. 
Additionally, CRS personnel continued to mobilize in fiscal year 2015, 
providing maritime security for port visits, underway replenishments, 
and chokepoint transits in the Middle East.
    Navy Reserve Surge Maintenance Units (SurgeMain) are an 
augmentation workforce providing skilled labor vital to Navy's shipyard 
mission. Over 1,400 SurgeMain Sailors provided 14,090 man-days of 
critical support in fiscal year 2015, contributing to fleet operational 
readiness. These units have been instrumental in mitigating risk by 
filling capability and manpower gaps created as a result of an 
increased shipyard workload and civilian workforce attrition. SurgeMain 
Sailors often bring new perspectives to problem solving as well as best 
practices from their civilian experience at a significant cost savings. 
For instance, in 2015 SurgeMain Sailors helped Norfolk Naval Shipyard 
complete planned maintenance on USS George Bush (CVN 77). The SurgeMain 
team responded to this request within just two weeks and delivered over 
1,200 man-days of production support over a two-month period, thereby, 
enabling on-time completion of construction.
    Here at home, there is no duty that we treat with more respect, 
humility and distinction than rendering final honors for our fallen 
veterans. In fiscal year 2015 the Navy Reserve performed 74 percent of 
all Navy funeral honors, supporting more than 43,000 services. By 
virtue of our geographic dispersion, Navy Reserve personnel are well-
positioned to provide the vast majority of Navy funeral honors for our 
veterans across the country.
                               readiness
    The Navy Reserve's primary mission is to provide mobilization ready 
Sailors, available at a moment's notice, to the Navy, Marine Corps and 
Joint Force. Navy Reserve Sailors train to the same standards as their 
active component counterparts, maintaining high levels of mobilization 
and medical readiness. In addition, individual Sailor participation 
rates are monitored to ensure all Selected Reserve members meet minimum 
annual requirements as well as any additional training that may be 
dictated by their operational commanders.
    The Navy Reserve's ability to maintain consistently high levels of 
readiness is the result of a combination of our integrated force 
structure, enforcement of military standards, and the operational 
support our Sailors routinely perform. In any given week nearly 25 
percent of the Navy Reserve is delivering operational support to the 
Navy and the Joint Force across the globe, generating readiness as a 
regular product of the way we do business. The Navy Reserve is poised 
and able to respond rapidly to operational surge demand signals because 
a surge is simply an extension of how we operate on a daily basis. In 
fact, Navy relies on RC Sailors to fill 75 percent of Individual 
Augmentation mobilizations in support of the Joint Force. Over 75,000 
mobilizations since 9/11 bear witness to the success and effectiveness 
of this force generation model.
    The Navy Reserve's readiness engine is driven by our Sailors' 
ability to provide routine and predictable operational support to their 
AC commands. Discretionary Reserve Personnel, Navy (RPN) funding in the 
President's Budget for fiscal year 2017 is the primary means by which 
we resource this operational support to the fleet and Joint Force. As 
historical execution rates demonstrate, this funding is vital in 
maintaining force readiness, training, and interoperability with the 
AC, and is valued for the immediacy with which it can be allocated to 
support emergent requirements.
                              end strength
    An essential metric of any AC/RC mix analysis is personnel end 
strength. The Navy Reserve has historically ended every year with 
greater than 99 percent of our authorized end strength. While focusing 
on placing each Sailor in the right billet, we consider qualifications, 
experience and training, and in so doing maximize the effectiveness of 
each Sailor's assignment. As we consider Navy Reserve end strength we 
strive to forecast the skills and experience needed in the RC to meet 
future global mission requirements. As previously mentioned, Navy 
Reserve end strength has been reduced by 32 percent since 2003. Our 
current authorized end strength of 57,400 represents a lean force. 
Although programmed to increase slightly over the next 2 fiscal years, 
any further reductions in end strength will increase risk in our 
ability to meet all required mission sets. While the Navy Reserve 
continues to source approximately 75 percent of Navy's Joint IA 
requirements, the state of global unrest suggests that Overseas 
Contingency Operations, security cooperation activities and emergent 
commitments are expected to be enduring aspects of our national 
maritime posture. Sufficient end strength also allows us to refit, 
retrain and reequip units with ready personnel to meet operational 
requirements and short-notice crisis response.
                               equipping
    Almost 15 years of increased operational tempo within a constrained 
procurement environment have taken a toll on the aircraft and equipment 
our Sailors operate. In order to safely accomplish our assigned 
missions and seamlessly integrate with the AC, the Navy Reserve depends 
on the availability of modern, reliable hardware. As the Navy continues 
to prioritize investments in advanced aircraft, weapons systems and 
equipment we must ensure that RC procurement is likewise adequately 
resourced in order to maintain safety and interoperability. Should an 
equipment interoperability gap between the AC and RC develop, it will 
be challenging to integrate RC units and Sailors with their AC 
counterparts.
    Aircraft recapitalization is absolutely our number one equipping 
priority. It is critical for the Navy Reserve's required operational 
support to the Naval Aviation Enterprise. Fiscal constraints have 
created an environment where we must be increasingly focused on 
extending the service life of our infrastructure and hardware; however, 
each has a finite lifespan and we accept increasing risk as we approach 
that limit. Compounding the situation are the long process times at our 
aviation depot level maintenance facilities caused by reductions in the 
skilled work force.
    Even when we are able to extend the life of legacy equipment such 
as F/A-18A+, P-3C and C-20G aircraft, we cannot overcome the resulting 
interoperability barriers, increased maintenance costs and obsolescence 
issues associated with extending the service life of these legacy 
aircraft. For example, four squadrons from the Navy Reserve Tactical 
Support Wing (TSW) provide adversary training to the Fleet and assist 
in Fleet Replacement aircrew production. Two of these squadrons, VFA-
204 and VFC-12, are equipped with F/A-18A+ aircraft and also serve as 
the Navy's carrier-capable strategic reserve strike fighter element. 
They accomplish some of their readiness requirements concurrently with 
filling an essential fleet operational support role of providing 
dedicated adversary support, also known as ``Red Air'', for Fleet 
Replacement Squadrons and deploying carrier air wings. Effective air-
to-air training requires a skilled Red Air opponent and these squadrons 
provide the Navy's recognized experts in advanced air combat tactics.
    VFA-204, based in New Orleans, and VFC-12, based in Virginia Beach, 
operate legacy F/A-18A+ Hornets that are nearing the end of their 
service life. As a group, the aircraft assigned to VFA-204 and VFC-12 
represent the oldest Hornets in the Navy, resulting in increased 
interoperability gaps as well as increased maintenance challenges. 
Replacement aircraft will be necessary in the future in order to retain 
the tactical expertise resident in these squadrons.
    The Navy's surge capacity within the Maritime Patrol and 
Reconnaissance Force (MPRF) consists of two RC patrol squadrons that 
operate legacy P-3C Orion aircraft. As AC patrol squadrons transition 
from the P-3C to the new P-8A Poseidon, these RC squadrons have been 
relied upon to fill operational and capability gaps in both deployed 
and homeland defense roles. Navy Reserve VP deployments began in 2013 
and are scheduled to continue through 2020. To retain surge capacity in 
the maritime patrol mission, reserve patrol squadrons must transition 
to the P-8A aircraft in the future.
    The Fleet Logistics Support Wing executes the Navy Unique Fleet 
Essential Airlift mission to provide responsive, flexible, and rapid 
deployable air logistics support required to sustain combat operations 
at sea. The aircraft that support this mission are the C-40A, C-130T 
and C-20G. Procurement of the C-40A began in 1997 as a replacement for 
Navy Reserve's fleet of legacy C-9 and C-20G aircraft. The wartime 
requirement for the C-40A was assessed to be 23 aircraft; however the 
risk adjusted inventory objective was determined to be 17 aircraft. To 
date the Navy Reserve has taken possession of 14 C-40As with the 15th 
airframe due for delivery in fiscal year 2017. The C-40A offers 
increased range, payload, reliability, cost effectiveness and the 
unique capability of carrying hazardous cargo and passengers 
simultaneously. The C-40A aircraft represents the most cost-effective, 
responsive, and flexible option for Fleet air logistics support.
                                 access
    The Navy has grown dependent on regular and reliable access to the 
RC over the past decade. Under the Presidential Declaration of National 
Emergency (DNE), the services and combatant commanders have benefitted 
from involuntary access to the RC via Title 10 USC 12302 authority. In 
a global environment that requires the ability to rapidly respond to 
emergent threats and requirements, it is imperative that leaders have 
access authorities that optimize involuntary access, flexibility and 
responsiveness for both the AC and RC in order to maximize Total Force 
resourcing and effectiveness. When there is no longer a need for an 
annual DNE, involuntary mobilization access to the RC is under Title 10 
USC 12304b authority, which provides access only for preplanned 
missions in support of combatant commander requirements.
                               facilities
    The Navy Reserve operates six region headquarters (Reserve 
Component Commands), two Joint Reserve Bases and 123 Navy Operational 
Support Centers (NOSCs). These facilities serve Navy Reserve Sailors 
and are located in all 50 States as well as Puerto Rico and Guam. Our 
NOSCs reside both on and off DOD installations as a mix of stand-alone 
NOSCs, Navy-Marine Corps Reserve Centers and joint Armed Forces Reserve 
Centers.
    As part of the Navy's active-reserve integration efforts, the Navy 
Reserve consolidated many of its facilities, closing 23 percent of 
NOSCs since 2005. Where able, we have partnered with other service 
components to relocate NOSCs onto military installations to leverage 
existing infrastructure and force protection resources. We have also 
partnered with other service components to establish joint reserve 
facilities. The resulting optimal footprint has allowed us to make best 
use of limited military construction and facilities sustainment funding 
in order to provide an environment for our Sailors to maintain their 
mobilization, training and readiness standards.
    As a part of the Navy's Energy Program for Security and 
Independence, the Navy Reserve continues to seek opportunities to gain 
energy efficiencies through facilities modernization and new 
construction. When we are able to invest our limited funds in Military 
Construction, Navy Reserve projects, we focus on building modern, 
energy-efficient, and technologically current facilities. Our plans 
prioritize vacating obsolete buildings, such as those currently 
occupied by NOSC Augusta, Georgia and NOSC Reno, Nevada. They also 
support the modernization and construction of two Joint Reserve 
Intelligence Centers. These facilities are ``hubs'' of intelligence 
expertise that facilitate direct support to forward deployed 
warfighters and are a critical part of the Joint Intelligence Program.
    Each year we direct our Facilities Sustainment, Repair and 
Modernization funds to address the highest priority modernization and 
repair projects. However, in any given year we may only address a 
portion of our total facilities sustainment requirement. We often need 
to re-prioritize to maintain adequate facilities, as they are necessary 
to keep Navy Reserve Sailors ready to mobilize and deploy forward. Your 
continued support represents an essential investment in the future 
health and readiness of Navy Reserve Sailors.
                  force protection (physical security)
NOSC Armed Security
    Soon after the attack at Navy Operational Support Center 
Chattanooga on July 16, 2015 that claimed the lives of five Reserve 
Service members, the Navy Reserve embarked on an effort to provide 
armed security for our 71 NOSCs located outside the confines of a major 
military installation. Assisting in this process are 77 qualified 
Selected Reserve Master-at-Arms Sailors who maintain the NOSC weapons 
programs and train select NOSC personnel on Rules for Use of Force and 
Pre-Planned Responses. To date, more than 178 Reserve Sailors have 
attended Security Reaction Force Basic School and are qualified to 
serve as armed watch standers. These Sailors protect their respective 
facility during working hours and on drill weekends.
NOSC Assessments
    Additionally, in coordination with Navy Installations Command and 
Naval Facilities Engineering Command, the Navy Reserve is conducting a 
broad Anti-Terrorism Force Protection (ATFP) assessment of all off-
installation NOSCs to identify measures to enhance our force protection 
posture. These physical security surveys are ongoing and will be 
complete by June 2016.
    Fiscal year 2016 funds were appropriated to increase physical 
security at Recruiting Centers and will most assuredly improve force 
protection measures for recruiters. In fiscal year 2016 the Navy 
Reserve will strive to strengthen physical security at our NOSCs in an 
effort to begin mitigating the security concerns identified during the 
ATFP assessments. We will schedule installation of enhanced force 
protection measures based on risk and vulnerability levels.
                          health of the force
    As Navy Reserve end strength increases in fiscal year 2017, our 
recruiting goals will increase as well. To further expand transition 
opportunities for AC Sailors to join our team, we have an ongoing 
effort to broaden Continuum of Service (CoS) options that enable AC 
Sailors to transition to the RC. At the same time, we are advertising 
opportunities for RC Sailors in specific ratings and year groups, to 
transition from RC to undermanned AC ratings on either a temporary or 
permanent basis. Last year 292 RC enlisted Sailors permanently 
transferred to the AC, 89 of which were Master at Arms, meeting an 
increased force protection demand signal from the Fleet. These CoS 
options enable the Navy to retain valued skills and experience while 
supporting the professional needs and desires of our Sailors.
    The Navy Reserve employs a focused bonus strategy to selectively 
target the specific skills and experience needed by the Navy. Selective 
Reenlistment Bonuses, affiliation and enlistment bonuses are utilized 
to improve retention and recruitment of enlisted Sailors in specific 
specialties. Officer affiliation bonuses and special pays are used to 
maintain or increase manning levels by targeting pay grades in critical 
and undermanned skill sets.
    Persistent challenges to meeting accession goals for Unrestricted 
Line (URL) officers and medical officers continued in fiscal year 2015. 
Overall, the Navy was able to attain 90 percent of RC officer 
recruiting goals. However, specific skillsets that remain challenging 
include SEALs (43 percent attained), Naval Flight Officers (NFOs) (84 
percent), pilots (88 percent), Judge Advocate General (42 percent), 
nurses (73 percent) and physicians (76 percent). Since all RC 
Unrestricted Line officers are accessed from the active component, 
continued high active component retention has severely limited the size 
of the recruiting pool. As a result, reserve affiliation bonuses are 
offered to officers from the Explosive Ordnance Disposal (EOD), SEAL, 
and Navy Aviation Communities. Additionally, the Navy Reserve is 
authorized to use a limited Critical Skills Retention Bonus for Naval 
Special Warfare/SEAL officers in an effort to reduce attrition in that 
critical community.
    Accessing Health Care Professionals--specifically surgeons, 
anesthesiologists and perioperative nurses--continues to present a 
greater recruiting challenge. Navy Reserve uses current statutory 
authorities to apply targeted special and incentive pays and resources 
to attract and retain medical professionals in critically undermanned 
wartime specialties. These recruiting and retention incentives are 
still necessary to help partially offset a potential income loss while 
on active duty, as well as some of the negative impacts of 
mobilizations on civilian medical practices.
                          resilience programs
    Serving in the Navy Reserve requires our Citizen Sailors to balance 
many priorities associated with their civilian jobs, family 
commitments, and duties as a part-time Sailor. The Navy Reserve 
utilizes several tools to help Sailors manage the stressors that can 
accompany this busy lifestyle. All Reserve Sailors receive an annual 
mental health assessment as part of the Navy's Periodic Health 
Assessment (PHA). Additionally, the Navy Reserve's Psychological Health 
Outreach Program (PHOP) ensures all Reserve Sailors have access to 
appropriate psychological healthcare services. PHOP counselors provide 
Operational Stress Control (OSC) briefings and behavioral health 
screenings to Reserve Sailors across the Nation. Our new Resiliency 
Check-in tool allows PHOP counselors to provide one-on-one behavioral 
health assessments that include on-the-spot initial and follow-up 
referrals when needed. This minimizes any perceived stigma to seeking 
help and is a proven way to ensure Sailors have access to the mental 
healthcare they need. Referrals to non-medical counseling support 
military families with a variety of common concerns that can accompany 
the military lifestyle, including the stress related to family 
separation, continuous deployments, and post-mobilization 
reintegration.
    All deploying Sailors participate in Pre-Deployment Health 
Assessments (PDHA) and Post-Deployment Health Reassessments (PDHRA), 
which can help identify mental health issues requiring attention. The 
Yellow Ribbon Reintegration Program (YRRP) supports Reserve Sailors and 
their families through all phases of the deployment cycle. A key 
program within the YRRP is the Returning Warrior Workshop, which 
focuses on the reintegration process for service members and their 
spouse/family member, and helps identify Sailors in need of follow-on 
care. Continued support for our fiscal year 2017 funding request for 
the YRRP is vital to our continuum of care.
                          prevention programs
    Navy Reserve resilience and suicide prevention programs connect 
with other military and community programs to promote the mission-ready 
Sailor. Decreasing the stigma of seeking mental health services remains 
a priority, as does resiliency training and educating service members 
to seek help in times of need. While the Navy Reserve suicide rate 
remained relatively unchanged from 2014 to 2015, we are committed to 
identifying any trends that can lead to a greater awareness of 
impending destructive behavior by our shipmates. Most suicides continue 
to be connected to life stressors not unique to military service. RC 
members are offered numerous resources available to them and have 
unique access to the PHOP team. We are dedicated to guaranteeing that 
our shipmates have the best resources and care, as well as concerned 
and engaged leadership, to positively impact their psychological well-
being.
    The Navy Reserve fosters a climate that is intolerant of sexual 
assault and other unacceptable behaviors such as sexist language, 
sexual harassment and misconduct, unlawful discrimination and hazing. 
We promote a culture of dignity and respect for all, and emphasize the 
importance of living by the Navy's Core Values of Honor, Courage and 
Commitment--both on and off duty. To further our Sexual Assault 
Prevention and Response (SAPR) efforts, we recently released guidance 
to clarify proper handling of SAPR issues unique to Reserve Sailors. We 
have also continued to focus on empowering Sailors to intervene and 
take action to stop behaviors contradictory to our Core Values and Navy 
Ethos. We promulgated Department of Navy Sexual Assault Prevention and 
Response Office (SAPRO) videos of Navy leaders and victims discussing 
the impact of sexual assault, and we have invited Pure Praxis, a live 
scenario-based performance troupe, to deliver training at many NOSCs 
this fiscal year. Pure Praxis' presentation allows Sailors to learn and 
practice intervention techniques in a safe environment, better 
preparing them to ``Step Up and Step In''. The Navy Reserve is 
committed to preventing sexual assault by training Sailors to intervene 
in unethical situations, while further improving victim response and 
care.
    The Victims' Legal Counsel (VLC) program provides sexual assault 
victims with a dedicated attorney to help explain the investigation and 
military justice process, and protect the victim's legal rights and 
interests. The Navy Reserve has played an important role in the VLC 
program since its inception in August 2013 by consistently filling VLC 
billets with Reserve judge advocates. Many Reserve judge advocates 
provide similar services in their civilian careers and are uniquely 
qualified to provide legal assistance to sexual assault victims in 
need. A trusted VLC program made up of experienced, dedicated judge 
advocates encourages reporting by giving victims the confidence that 
their rights will be protected.
                        new & expanding missions
    Navy continues to assess the role of its reserve component as it 
fields new weapons systems and capabilities. Deliberate investments in 
RC manpower, training and equipment can be cost-wise for Navy as a 
whole. New and expanding missions include cyber warfare, unmanned 
systems and SurgeMain.
    As the cyber warfare threat continues to grow, the Navy Reserve is 
growing in its capacity to counter those threats. Our Reserve 
Information Warfare Community is part of the Cyber Mission Force 
integration strategy, and will grow by over 300 personnel within the 
FYDP. Moving forward, Commander, U. S. Fleet Cyber Command will 
continue to assess requirements for Reserve integration into Navy's 
Cyber Mission Force, to include additional billets, and the potential 
for creating Reserve Cyber Mission Support Units or Detachments.
    With reliance on unmanned systems continuing to expand, the Navy 
Reserve is well positioned to provide remote operator support, as this 
planned and periodic operating construct is a perfect fit for RC 
Sailors. For instance, the Navy Reserve maintains two Navy Special 
Warfare SEAL Teams to provide additional capacity to the AC. In 2015, 
the teams began adding unmanned aircraft systems to their mission 
inventory to meet the increasing requirement for expeditionary 
Intelligence, Surveillance and Reconnaissance (ISR) capability. Reserve 
Sailors will help man these ISR detachments on a rotational basis.
    The value SurgeMain Sailors add to the ability of Navy shipyards to 
improve fleet readiness has prompted Navy to increase its investment in 
RC SurgeMain manpower. Over the next few years, our shipyard 
augmentation workforce is forecast to grow to 1,856 personnel, an 
increase of 394 billets, which is a testament to the success of the 
SurgeMain program and the skill and dedication of its Sailors.
                               conclusion
    The Navy Reserve is well postured to meet the challenges of the 
future and will remain fully trained and ready in support of Navy's 
``Design for Maintaining Maritime Superiority''. In the words of the 
Chief of Naval Operations, Admiral John Richardson, ``We are one Navy 
Team--comprised of a diverse mix of active duty and reserve Sailors, 
Navy civilians, and our families...'' The synergistic relationship 
within the Navy team fosters an environment that inspires the core 
attributes of integrity, accountability, initiative and toughness. The 
Navy Reserve's unique force structure and force-generation model, which 
has evolved over the past decade, serves as a testament to our 
commitment to the principle of ``one team, one fight''.
    The resources to provide consistent and predictable operational 
support are the cornerstone of maintaining our readiness and 
permeability with the AC. This has proven to be one of the most agile, 
efficient and cost effective models available across all services' 
reserve components today, and your continued support of RPN funding is 
greatly appreciated. Equally as important is your support for 
authorities that ensure viable access to the RC in order to optimize 
both flexibility and predictability to the AC and RC.
    Procurement has been, and will continue to be one of our most acute 
challenges, particularly in the current fiscally-constrained 
environment. Aircraft recapitalization in several mission areas remains 
a great concern. As we consider future investments in the Naval 
Aviation Enterprise, balancing cost and risk with capacity, capability 
and wholeness will be of utmost importance.
    The Navy Reserve remains seamlessly integrated as a key component 
of the Navy team, providing accessible forces, strategic depth and 
surge capacity. We must remain properly manned, trained and equipped to 
provide rapid response to a vast array of missions, from exercise 
support to disaster relief and combat operations. We serve in an era of 
rapid technological advances within an evolving geo-political 
environment, challenged by new and emerging threats that include 
violent extremism, cyber-attacks, social unrest, and the proliferation 
of weapons of mass destruction. These challenges will invariably test 
the limits of our Nations' military capabilities, and will require 
agile surge forces capable of providing rapid global response at any 
time. With your continued support the Navy Reserve will remain a 
critical element of Navy's ability to conduct prompt and sustained 
combat operations, preserve America's strategic influence in key 
regions, and decisively defeat any enemy in the maritime domain.

    Senator Cochran. Thank you very much, Admiral, for your 
participation and your leadership.
    We now call on Chief of the Air Force Reserve, Lieutenant 
General James Jackson. Welcome.
STATEMENT OF LIEUTENANT GENERAL JAMES F. JACKSON, 
            CHIEF, AIR FORCE RESERVE
    General Jackson. Chairman Cochran, distinguished members of 
the committee, thank you for the opportunity to appear before 
you today. I am honored to be here representing the American 
citizen airmen as Chief of the Air Force Reserve and Commander 
of the Air Force Reserve Command. I am extremely proud of our 
69,000 Reserve airmen who defend our Nation every day.
    In today's rapidly shifting security environment, we must 
maintain a Reserve force capable of seamlessly supporting the 
Joint fight while keeping a keen eye to the future to ensure 
our Air Force is effectively postured to meet any threat.
    Our Air Force Reserve story continues to be written. As we 
sit here today, over 5,000 Air Force reservists are supporting 
combatant commanders around the globe. This year, we ushered in 
the first F-35s at Hill Air Force Base, Utah. We performed more 
than 48,000 mandates in support of worldwide intelligence, 
surveillance, and reconnaissance requirements. We began 
preparing for the first KC-46 Reserve unit beddown at Seymour 
Johnson Air Force Base. And we increased the number of command 
opportunities across components, helping develop true Total 
Force leaders.
    In short, your Air Force Reserve remains a vital part of 
our three component Air Force team.
    Reservists continue to prove themselves in operations 
around the world, and we are committed to recruiting the right 
people, men and women, who possess the training and skills 
needed to succeed in the technologically demanding domains of 
air, space, and cyberspace. We continue to excel in these 
areas.
    For example, last month, the 19th Space Operations Squadron 
supported the final global positioning satellite 2F launch, a 
milestone for the Global Positioning System (GPS) constellation 
but also one that impacts the lives of every American.
    The daily contributions of our highly experienced 
reservists provide essential capacity and support of missions 
critical to the Air Force and our Nation.
    This year, the Air Force Reserve recruited over 8,000 
citizen airmen. More than 68 percent of those servicemembers 
were prior service. These new reservists possess the experience 
that we need, and they represent a significant return on the 
investment and cost savings to our Nation.
    We also accepted applications from over 80 Reserve Officer 
Training Corps cadets to join our team and initiated an 
innovative pilot program to offer constructive credit waivers 
for cyber professionals who possess the skills and training 
from the civilian environment that our Air Force needs. These 
efforts will help ensure we provide the right force right now 
and in the future.
    However, recruiting and retaining airmen with the right 
training and skills is not enough. As you heard from the 
leaders before me, our Air Force is faced with capability and 
capacity gaps. Our Total Force has become too small, and we 
must reverse this glide scope in all three components.
    Modernization and recapitalization of our weapons systems 
must remain a top priority, even in the face of tough budget 
challenges. The maintenance and corrosion issues on our HC-130 
aircraft used for personnel recovery and combat search and 
rescue missions provides a stark reminder of what is at stake 
when we fail to recapitalize aging fleets in a timely manner.
    In the same respect, the Air Force Reserve must continue to 
modernize our legacy F-16, KC-135, and C-130H is to remain 
operationally relevant and fully mission capable.
    The committee's support of the sustained National Guard and 
Reserve Equipment appropriations is critical to our 
modernization efforts.
    Our Reserve airmen remain my top priority. We must continue 
to fund the Air Force Reserve's Wingmen Toolkit and the Yellow 
Ribbon program. Last year, over 8,000 Reserve members and their 
families benefited from attending a Yellow Ribbon event.
    To maintain a strong national defense, we are focused on 
building the future Air Force Reserve that we need as a Nation, 
recapitalizing and modernizing our aging fleet, and taking care 
of our people. With this committee's continued support, sir, we 
will remain an indispensable and strong component of the most 
capable Air Force in the world.
    Thank you for your continued support and your support 
during my tenure as Chief of the Air Force Reserve, and we 
appreciate your support of our citizen airmen. I stand ready to 
answer your questions.
    [The statement follows:]
       Prepared Statement of Lieutenant General James F. Jackson
                              introduction
    Chairman Cochran, Vice-Chairman Durbin, and distinguished members 
of the Subcommittee, thank you for the opportunity to testify before 
you today. I am honored to represent America's nearly 70,000 Citizen 
Airmen as the Chief of Air Force Reserve and Commander, Air Force 
Reserve Command (AFRC). The Air Force Reserve is an integral partner in 
our Nation's defense, providing daily operational capability, strategic 
depth and surge capacity to our Air Force. These men and women are 
stationed locally and serving globally each day. I am extremely proud 
of the fact that combatant commanders utilize our combat-ready Reserve 
Airman to fly, fight and win in air, space and cyberspace.
    Our members come from every walk of life and for nearly 68 years, 
they have raised their hands to volunteer to protect this Nation. From 
the Korean War to Operation INHERENT RESOLVE, the Air Force Reserve has 
deployed men and women in combat operations across the globe. We are 
proud of our continued dedication and support to not only contingency 
operations, but also to humanitarian crises, natural disasters and 
steady-state operations. The Air Force Reserve is part of the national 
security solution, and we are a proud member of our three component Air 
Force team. By leveraging our Citizen Airmen's military and civilian 
experience, expertise and training, the Air Force Reserve remains a 
flexible and capable partner in today's joint fight.
    The Air Force continues to face the challenges of increasing 
requirements and decreasing capabilities. This dilemma is not unique to 
the Air Force, but it is certainly a threat to the security of our 
Nation. The Air Force Reserve is part of the solution to these defense 
challenges. We are a hedge against risk and a cost-efficient and 
mission-effective force that is postured to respond to emerging threats 
at a moment's notice. I will describe our challenges and solutions in 
terms of mission, manpower, modernization and MILCON.
    The tension in Ukraine, the instability in Southwest Asia, Chinese 
adventurism in the Pacific and the terrorist attacks on France prove we 
must continue to focus on building the future force we need to protect 
our country. We enable the Air Force to adapt and respond to rapid 
change through assured access to a pool of nearly 70,000 Federal 
Reserve Airmen who are trained and ready to provide the same 
capabilities as our active component, but at a fraction of the cost. 
The Air Force Reserve provides flexibility through our ability to 
adjust reservist participation rates based on demand. We are not 
primarily a full-time force, but we can participate full-time when 
needed. It is this flexibility and capacity that makes the Air Force 
Reserve a critical partner in our Total Force team and a hedge against 
risk.
    Our daily and continuous operational capability is 
indistinguishable from the active component and is part of what makes 
us such a valuable partner. The Air Force Reserve participates in every 
Air Force core function. Our Citizen Airmen can be ready to deploy 
within 72 hours, and integrate seamlessly with our active component 
counterparts. Last year our Citizen Airmen performed nearly 1.5 million 
man-days and filled more than 3,000 Air Expeditionary Force (AEF) 
taskings. The Air Force Reserve plays a key role in making our Air 
Force an agile and inclusive force ready for tomorrow's fight. With our 
current focus on building the future force we need, modernizing and 
recapitalizing our fleet, and developing our team, the Air Force 
Reserve will remain operationally ready and relevant to the fight.
                                manpower
    Two of the Air Force Reserve's focus areas are building the future 
force and developing the team. Both of these endeavors rely on manpower 
and require a continued focus on the recruitment, retention and 
development of our Citizen Airmen. The work done through the Total 
Force Continuum (TFC) has helped identify gaps between warfighter 
requirements and the available forces.
    To effectively maintain our force, we must focus on efforts to 
attract, recruit and retain the highest quality Citizen Airmen. One of 
our top recruiting priorities continues to be capturing Airmen 
transitioning from the active component. The Air Force Reserve remains 
a catcher's mitt for talent, and allows our Airmen to continue to 
serve. The vast majority of Air Force Reservists bring a wealth of 
operational experience and mission expertise they gained while on 
active duty. Retaining these Airmen also results in a significant cost-
savings, since most prior-service members require very little training. 
Last year, 68 percent of our recruits were prior service of which 58 
percent were prior active component Air Force members. This means we 
were able to leverage the initial DOD investment made in training and 
seasoning, saving the American taxpayer countless dollars and 
harnessing the experience and knowledge these Airmen bring to the 
fight.
    For 15 consecutive years, the Air Force Reserve has met its 
recruiting goals. Our retention rates remain incredibly high at 86.5 
percent, which is a testament to the dedication and professionalism of 
our force. Yet we know that these recruitment and retention success 
stories will only continue if we invest the time and money into 
recruiting the right men and women into the Air Force Reserve. As with 
our aircraft, we have to continue to modernize our manning models to 
meet future mission requirements and reach a new generation of Citizen 
Airmen.
    We also continue to implement innovative accession models. To be 
successful in the future we must creatively harness the manpower and 
talent to support existing and emerging mission requirements. For 
instance, last year we were able to directly access 26 cadets from 
Reserve Officer Training Corps programs and we look to grow that number 
this year. We are also looking at ways to implement constructive credit 
and training waivers to recruit already-trained professionals, 
particularly in the cyberspace and ISR career fields.
    If the last decade of conflict has taught us anything, it is that 
combatant commanders need timely and accurate ISR support. Air Force 
Reserve units contribute daily to Air Force ISR operations by providing 
capability in human intelligence, signals intelligence, imagery 
intelligence, targeting, airborne ISR and crypto-linguist support. As 
with cyberspace and space operations, intelligence operations are 
uniquely suited to a part-time force that often has civilian expertise 
or skills also. Our ability to leverage Airmen in a surge capacity, 
that already have the training and experience in these areas, provides 
the Air Force more flexibility in today's fight and more capacity for 
future conflicts.
    In order to support growing demand for ISR, Air Force Reserve 
Command has three new units in the fiscal year 2017 President's Budget 
request. First, the 20th Intelligence Squadron at Offutt Air Force Base 
(AFB), Nebraska, will support Air Combat Command's 363rd ISR Wing by 
providing steady state and surge capacity in intelligence collection, 
analysis, and dissemination of specialized target materials. Two 
additional classic associate units will be associated with U.S. Cyber 
Command's Cyber Mission Force requirements, the 41st Intelligence 
Squadron and 75th Intelligence Squadron. These units, located at Fort 
Meade, Maryland, and Joint Base San Antonio, Texas, will conduct 
digital network intelligence in support of computer network 
exploitation efforts.
    When we look at the current warfighter environment, cyberspace is 
arguably the most rapidly-evolving and highly contested domain. Our 
network is constantly being tested by our adversaries and we need to 
protect our information and our people from cyber intrusions and 
attacks. We must build a force that understands our vulnerabilities and 
how to employ cyberspace capabilities to support our operational 
requirements and defend our Nation. As the military continues to 
develop capabilities that utilize cyberspace technology, we must 
recruit and train a force with superior understanding of this domain.
    The Air Force Reserve is creating opportunities to access 
cyberspace experts to ensure we always have the capacity and capability 
to operate in this contested operational environment. In order to 
recruit the right men and women, the Air Force Reserve is developing a 
beta program to offer constructive credit, up to 3 years, to potential 
cyberspace operators who have the experience and training needed to be 
successful in this domain.
    Currently the Air Force is also facing a challenge in aviation 
career fields, where retention is difficult. The combination of decades 
of high operations tempo along with the increase in commercial aviation 
hiring has made it challenging for the Air Force to recruit and retain 
aviators. The Air Force Reserve provides part of the solution for this 
manning challenge. The inherent flexibility of our part-time career 
options is attractive to separating active component Airmen, allowing 
us to retain critical training investment and combat experience. We 
also offer a flexible option for college graduates who want to serve 
our Nation, but not necessarily in a full-time capacity. Reservists 
also help bridge the gaps in aviation career fields, particularly in 
the training roles that benefit from our member's longevity and 
experience.
    Training remains a foundational aspect of Air Force operations, one 
that depends on the manpower and the experience the Air Force Reserve 
offers. By leveraging our continuity and experience in the training 
environment, we minimize cost and we set our newest Airmen up for 
future success. The Air Force Reserve provides capability in a number 
of training roles and we are looking to grow these capabilities in the 
future. One of the challenges the active component faces is high 
turnover in personnel, particularly in instructor positions. In fiscal 
year 2017, the active component will not be able to fill all of the 
billets required to support these missions. In order to fill that gap, 
we are expanding our participation in the adversary air mission at 
Tyndall AFB, Florida, the aggressor mission at Nellis AFB, Nevada, and 
the Introduction to Fighter Fundamentals training mission at Columbus 
AFB, Mississippi, Randolph AFB, Texas and Sheppard AFB, Texas. We 
provide more than 20 percent of the full-time Undergraduate Flying 
Training instructors, in addition to our part-time force. Our members 
provide continuity and experience and are a linchpin of the Air Force 
training mission. It is our recruitment and retention of experienced 
Airmen that makes this possible.
    Citizen Airmen represent a superb value, not only to the Air Force 
in terms of operational capability, but also to the American taxpayer 
in terms of financial savings. The life-cycle cost of a part-time 
Reserve Airman is less than 60 percent of the life-cycle cost 
associated with an active duty Airman. Due to the fact that almost 75 
percent of our force is part-time, the Air Force Reserve is an 
extremely cost-efficient force. The capacity and affordability the Air 
Force Reserve brings with our part-time, combat-proven force, helps us 
mitigate some of the risk associated with current Air Force manpower 
deficiencies.
    Our Citizen Airmen are our most valued asset. Taking care of our 
Reservists and their families is an essential part of maintaining a 
healthy force. We must provide the resources, training and support to 
ensure our Airmen are connected and have the supportive environments 
they need to thrive throughout their careers. One of the challenges 
with providing critical services for our Citizen Airman is that over 
half of Reservists live more than 50 miles from the units where they 
are assigned. This means many members and dependents do not have ready 
access to support agencies. We must provide resources that Airmen and 
their families can use even if they are not near a base.
    One such initiative and support tool is the Wingman Toolkit website 
and mobile app that the Air Force Reserve launched in 2010. All three 
Air Force components are now using this tool, which provides resources 
our Airmen need to foster mental, physical, spiritual and social well-
being. This year we are utilizing the toolkit to introduce our 
``Wingman Day'' and resiliency programs that Airmen can use to help get 
connected.
    The key to fostering strong and resilient Citizen Airmen is 
maintaining a healthy reserve-work-life balance, something that is 
unique to the reserve component. Our Airmen must balance the demands of 
a military career and family, but unlike their active duty 
counterparts, most also shoulder the additional burden of balancing 
civilian careers. It is critical that we continue to fund support 
programs that help our Citizen Airmen remain resilient and connected to 
each other, their families and their communities.
    We are also proud of the progress we have made in growing our Key 
Spouse Program, which is a commander and family program designed to 
enhance readiness and ensure a sense of Air Force community. We 
currently have more than 300 Key Spouses trained and ready to support 
our Airmen and their families. This program encourages spouses and 
families to take an active role in our local communities and base 
events. By strengthening the bonds between Airmen, their families, co-
workers and communities through this type of program, we are building a 
stronger and more resilient force.
    I also want to thank this committee for continued support of the 
Yellow Ribbon Program. This program started almost a decade ago, and 
provides invaluable assistance and personal tools for Airmen and their 
families preparing for or returning from deployments. Each year, Air 
Force Reserve Command sends approximately 6,000 Airmen and their family 
members to these incredible events. We have a process in place to 
capture the impact these events have on the participants, and the 
feedback has been overwhelmingly positive. By taking care of Airmen, we 
honor their dedication and service to this Nation. Unfortunately, 
manpower alone can only take us so far. Our Airmen can be the highest 
quality and the most committed, but if they don't have the resources to 
accomplish the mission, our Nation will still be at risk.
                             modernization
    We understand that we have to prepare now to meet future threats. 
Just as Secretary James stated in her testimony, ``our aircraft 
inventory is the oldest it's ever been and our adversaries are closing 
the technology gaps on us quickly, so we simply must modernize.'' Our 
Nation cannot wait until a crisis occurs to modernize our aircraft. As 
a force, we must anticipate future mission capabilities and 
requirements. At the same time, we cannot lose sight of the health of 
our current fleet. Much like the active component, we are focused on 
readiness and modernization despite current funding challenges. The 
committee is probably aware of the average age of the Air Force fleet. 
The Air Force Reserve's oldest KC-135 entered the fleet in 1958, 
meaning she is almost 60 years old. Modernization has to be a priority 
if we want our Air Force to remain combat ready. Proactive funding of 
modernization projects, even in this fiscally constrained environment, 
must be one of our top priorities until we can afford to replace aging 
systems. With some of the oldest airframes in the inventory, 
modernization and recapitalization are essential to ensure the Air 
Force Reserve remains viable and relevant in the future.
    As we look at opportunities to build our future force, we are also 
looking to new weapon systems like the F-35 and KC-46. In October 2015, 
the first operational F-35s were delivered to Hill AFB, Utah. This 
historic milestone solidified a great total force partnership between 
the active component 388th Fighter Wing and the Reserve 419th Fighter 
Wing, which have shared a long history of teamwork. The concurrent bed 
down of new systems among components must continue for us to remain 
viable total force partners. The Air Force Reserve is also moving 
forward with plans to stand up two operational KC-46 squadrons at 
McConnell AFB, Kansas. We provide the foundation for training in many 
of our current platforms, and we will remain an invaluable partner in 
these new weapon systems. Possessing both civilian and military 
competencies, our members bring unique perspectives that are extremely 
valuable as new weapon systems such as the KC-46 Pegasus evolve.
    Our current modernization efforts revolve around upgrading legacy 
systems to enhance situational awareness and improve combat 
effectiveness. For example, we are upgrading our F16 fleet with 
precision engagement enhancements such as advanced targeting pods and 
upgraded anti-jam global positioning system (GPS) and datalink. We are 
updating the radar warning receivers and radio frequency jammers to 
increase our capabilities against the current integrated air defense 
systems. Finally, we are increasing our C-130 capability by upgrading 
them with enhanced secure line of sight and beyond line of sight data 
links. These upgrades ensure we maintain our combat capability and 
interoperability with the active component.
                         military construction
    Without military construction funding, our ability to modernize and 
support new mission sets is greatly limited. The Air Force Reserve 
maximizes cost-effectiveness by sharing facilities and infrastructure 
with the active component rather than exclusively operating our own 
facilities. We leverage existing infrastructure at more than 58 active 
component bases, while only operating nine Reserve host installations. 
These shared facilities, such as aircraft hangars and maintenance 
shops, include more than 17.1 million square feet of facilities. 
However, this does not mean there are not requirements for military 
construction funding, particularly when we bring on new programs. This 
year three of our top six priorities will help support the KC-46 bed 
down.
    Currently, the Air Force Reserve has identified a $1.2 billion 
military construction backlog to address recapitalization, 
modernization and consolidation opportunities throughout the command. 
Due to limited military construction funding across the Future Years 
Defense Program (FYDP), we use Operations and Maintenance funding for 
Facilities, Sustainment, Restoration and Modernization (FSRM) work to 
accommodate mission changes, increase building efficiencies and ensure 
facilities meet mission requirements. Our goal is to make every dollar 
count, and we will continue to use our Facilities Operational 
Capabilities and Utilization Survey program to determine the best use 
of military construction and FSRM funding. For fiscal year 2017, we 
have requested $189 million for the following military construction 
projects:
  --KC-46A Construct Two-Bay Corrosion Hangar
  --KC-46A Add/Alter Aerospace Ground Equipment and Fuselage Training 
        Facility
  --KC-46A Add/Alter Squadron Operations Facility
  --C-17 Construct Two-Bay Corrosion Hangar
  --C-17 Add/Alter Fuel Hydrant System
  --C-17 Construct/Overlay Taxiway and Apron
    These projects ensure the Air Force Reserve will meet the 
requirements for maintaining and operating new weapons systems at our 
existing bases. Every dollar saved from smarter MILCON execution can be 
applied to modernizing our fleet or recruiting and retaining our 
Airmen.
                               conclusion
    The Air Force Reserve provides critical daily operational 
capability, strategic depth and surge capacity for our Nation, but we 
cannot do this without Congressional support. In order to remain an 
integrated, flexible and combat-ready force, we must continue to 
recruit and retain the right men and women. Our modernization efforts 
and recapitalization requirements are also a top priority to ensure we 
remain ready to meet the demands of combatant commanders across the 
globe. Finally, we must have the military construction funding 
necessary to maintain our existing infrastructure and build the new 
facilities required for growth mission areas.
    The Air Force Reserve is a proud member of our three-component Air 
Force team. Our strength lies in our ability to operate seamlessly with 
the active component, while still providing a flexible and affordable 
solution. The Air Force's day-to-day mission would not get done without 
Air Force Reserve people and systems. For this reason, I thank you for 
the support you have provided during my tenure as the Chief of the Air 
Force Reserve and ask you for your continued support of our Citizen 
Airmen.

    Senator Cochran. Thank you, General Jackson. I appreciate 
your leadership.
    We now call on the Commander of the Marine Forces Reserve, 
Lieutenant General Rex C. McMillian.
STATEMENT OF LIEUTENANT GENERAL REX C. McMILLIAN, 
            COMMANDER, MARINE FORCES RESERVE
    General McMillian. Chairman Cochran and distinguished 
members of the committee, thank you for the opportunity to 
appear today. It is an honor to be seated with my fellow 
Reserve component service chiefs to speak about your Marine 
Corps Reserves.
    With me today are my senior enlisted advisers, Force 
Sergeant Major Anthony Spadaro and Force Command Master Chief 
Christopher Coates.
    I have been at the helm for 6 months in New Orleans, and I 
am pleased to inform you that your Marine Corps Reserve is in 
great shape. The leadership, morale, and personnel health of 
the force is at unprecedented levels. It is the best I've seen 
in my 26 years in the Reserves.
    I am continually impressed by the professionalism, 
competence, dedication, and motivation of our Reserve marines. 
Like their Active Duty brothers and sisters, they serve 
selflessly to protect our great Nation while at the same time 
balancing their civilian careers and their families. I truly 
believe that the strength of the Marine Forces Reserve is the 
talent, skill, and discipline of our individual marines and 
sailors.
    It is motivating that the most common question that I 
received from your Reserve marines is, when do I get to deploy? 
They maintain the same mindset as the Active component Marine 
Corps. We are ready to fight tonight and rapidly respond to any 
mission.
    My primary focus remains on being combat ready and having 
Reserve marines and units capable of shooting, moving, and 
communicating throughout the battlefield. Reserve marines are 
integrated with the Active component as part of the Total 
Force.
    Marine Forces Reserve is manned, trained, and equipped to 
support combatant commanders' operational requirements across 
the full range of military operations. Critical to this mission 
is our ability to maintain parity and equipment with the Active 
component.
    NGREA has proven to be a valuable tool with this 
requirement. Leveraging the full intent of NGREA would further 
facilitate the Marine Corps Reserve's ability to modernize 
legacy equipment and transition to new systems to meet current 
and future threats.
    We owe it to our Nation's most precious assets, the young 
men and women in uniform today, to send them into combat with 
modern equipment instead of legacy equipment. Legacy equipment 
slows our pace of operations and increases risk to our marines.
    The future operating environment will stretch the 
deployment capacity of the U.S. military and demand a flexible 
force in readiness with global response. In light of this, my 
greatest challenge, what keeps me up at night, is the question 
that I ask myself: Have I done everything possible to ensure 
your Reserve marines are ready to fight tonight?
    We must also keep faith with our marines and their families 
by investing in our home station readiness, modernization, 
infrastructure sustainment, and quality-of-life programs.
    Budget uncertainties impose challenges to maintaining 
readiness across the Reserve component. I cannot talk about 
home station readiness without taking a moment to remember our 
marines and sailors that were attacked at the Reserve center in 
Chattanooga, Tennessee. I want to assure you that your marines 
at our drill sites are vigilant, trained, and prepared to face 
and engage any future threat.
    Senators, I would be remiss by not mentioning today the 
upcoming centennial celebration of your Marine Corps Reserve. 
August 29 of this year marks our 100th anniversary. We look 
forward to highlighting our extraordinary Reserve marines and 
their contributions while at the same time thanking their 
families and employers and supporters.
    In conclusion today, I cannot thank the committee enough 
for your continued support of our marines and sailors, their 
families, and their employers. Your diligent efforts have 
directly contributed to our ready Marine Corps Reserve. I look 
forward to your questions. Thank you.
    [The statement follows:]
       Prepared Statement of Lieutenant General Rex C. McMillian
                              introduction
    The Marine Corps is the Nation's crisis response, expeditionary 
force in readiness whose global presence provides the Nation a vast 
range of strategic, operational and tactical options to protect the 
Nation's interests. For approximately 6 percent of the defense budget, 
the Marine Corps provides an affordable, capable and responsive 
insurance policy for the United States of America. The Marine Corps' 
commitment to the American people is as strong today as ever in its 240 
year history. That commitment is backed by a cadre of Active and 
Reserve Component Marines and Sailors exceptionally experienced in 
taking the fight directly to the enemy. Our strength is the talent, 
skill and discipline of our Marines and Sailors. Our Marines have been 
doing what they have done best since 1775: standing shoulder-to-
shoulder to fight and win our Nation's battles. We don't differentiate 
in our expectations for Marines; whether Reserve or Active Component--
all Marines are disciplined, focused, and lethal. Our Marines and 
Sailors share an expeditionary mindset that shapes Marine Corps 
culture, ethos, and thinking. We are a Total Force and, as such, the 
Marine Corps Reserve continues to be integrated in all areas of the 
Marine Corps. We have been fully engaged across the globe over the past 
15 years of combat operations, serving as the essential shock absorber 
and force enabler for our Active Component. Organized like a 
traditional Marine Air-Ground Task Force, Marine Reservists from each 
of our major subordinate commands--4th Marine Division, 4th Marine 
Aircraft Wing, 4th Marine Logistics Group, and Force Headquarters 
Group--have made a tremendous impact across the full range of military 
operations in support of every geographic combatant commander's 
operational and theater security cooperation requirements, as well as 
Service commitments.
    I am deeply impressed by the professionalism, competence, and 
dedication of our Reserve Marines. Like their active component brothers 
and sisters, they serve selflessly to protect our great Nation. I am 
inspired by the way they balance family responsibilities, school, and 
careers--while simultaneously keeping faith with the Marine Corps. They 
do so with humility, without fanfare, and with a sense of pride and 
dedication that is consistent with the great sacrifices of Marines from 
every generation.
    Reserve Component units remain highly interoperable with their 
Active Component Counterparts. Active and Reserve Component Forces are 
manned, trained and equipped to the same standards, thereby 
facilitating the seamless employment of Reserve Component Forces to 
meet Combatant Commander requirements. Accordingly, your Marine Corps 
Reserve provides a professional, ready, responsive, and relevant Force 
enabling service level, joint and multilateral operations. We are, and 
will remain, a key component in the Marine Corps' role as the Nation's 
crisis response, expeditionary force in readiness.
A Total Force
    Over the past year, the Marine Corps Reserve supported each 
Combatant Commander by providing forces focused on regional security 
cooperation, crisis response, and crisis prevention activities, as well 
as support to combat operations. Marine Forces Reserve has maintained a 
robust operational tempo while providing critical capabilities 
essential in maintaining lasting national security at the strategic 
level. Global deployments, along with participation in Service-level, 
Joint and Multilateral exercises, develop the desired depth of 
experience of the reserve force, ensuring the Marine Corps Reserve is 
relevant and ready to meet the Combatant Commanders' need for highly 
trained, experienced and motivated general-purpose forces. The 
performance of our Reserve Forces in recent total force operations 
demonstrates this fact.
    In 2015, more than 771 Reserve Marines mobilized supporting 
operational requirements in five of the six geographic combatant 
commands. Likewise, nearly 4,500 Reservists participated in 41 
exercises supporting requirements in 29 countries across the globe. In 
2016, Marine Forces Reserve will continue to support to the combatant 
commanders by mobilizing an additional 575 Reservists and providing 
5,200 Marines for a multitude of theater-specific exercises and 
security cooperation events. These operations and exercises greatly 
increase Reserve Component's interoperability with the Active 
Component, Joint Forces and our allies.
    Though the Marine Corps Reserve's opportunity for large-scale 
mobilizations has decreased in recent years, the demand for the Marine 
Corps' unique capabilities has increased, from Marine Expeditionary 
Units to Special Purpose Marine Air-Ground Task Forces. Marine Forces 
Reserve continues to serve as the shock absorber to lessen the strain 
of these high demand capabilities on the total force. While our Nation 
emerges from years of major combat operations, the Marine Corps Reserve 
is not returning to a peacetime posture. We will mobilize and deploy a 
task-organized Special Purpose Marine Air Ground Task Force to U.S. 
Southern Command to support the theater security cooperation objectives 
in that area of operations. Marine Forces Reserve continues to provide 
daily support to the geographic combatant commanders, in roles that 
include multi-lateral exercises such as African Lion in Morocco, Ulchi 
Freedom Guardian in South Korea, Trade Winds in the Caribbean and Maple 
Flag in Canada. I anticipate Marine Forces Reserve will continue to 
deploy and integrate with the Active Component, to meet the Combatant 
Commander high-priority requirements through voluntary and involuntary 
mobilization authorities.
    In addition to participating in operational requirements across the 
globe, Marine Forces Reserve continues to support the Total Force by 
dutifully executing the sensitive and crucial mission of providing 
casualty assistance to the families of our fallen Marines. By virtue of 
our geographic dispersion, Inspector--Instructor and Reserve Site 
Support Staffs are well-positioned to accomplish the vast majority of 
Marine Corps casualty assistance calls and are trained to provide 
compassionate and thorough assistance to the families. Indeed, the 
majority of Marine Corps casualty notifications and follow-on 
assistance calls to the next of kin conducted are made by our Marines. 
During calendar year 2015, our Inspector--Instructor and Reserve Site 
Support staffs performed 63 percent of the total casualty calls 
performed by the Marine Corps. There is no duty to our families that we 
treat with more importance. This is proven by the professionalism of 
our Casualty Assistance Calls Officers (CACOs) and the compassionate 
assistance they provide well beyond the initial notification. We ensure 
that our CACOs are well trained, equipped, and supported by all levels 
of command through the combination of in-class and online training. 
Once assigned, the CACO is the family's central point of contact and 
serves as a representative or liaison to the funeral home, government 
agencies, or any other agency that may become involved. They assist 
family members with planning the return and the final rest of their 
Marine as well as assist with ensuring the required documents are filed 
in order to receive the proper benefits. In many cases, our CACOs 
provide a long-lasting bridge between the Marine Corps and the family 
while providing support during the grieving process.
    Additionally, Marine Forces Reserve units and personnel provide 
significant support for military funeral honors for our veterans. The 
Inspector--Instructor and Reserve Site Support staffs, with 
augmentation from their Reserve Marines, performed 91 percent of all 
funeral honors rendered by the Marine Corps during calendar year 2015. 
As with casualty assistance, we place enormous emphasis on providing 
timely, compassionate, and professionally executed military funeral 
honors.
    Finally, Marine Forces Reserve serves as the link between the 
Marine Corps and local communities. We present the face of the Marine 
Corps to the American public across the Nation. With Reserve units 
located across the country, Marine Forces Reserve is uniquely 
positioned to interact with the public and communicate the Marine Corps 
story to our fellow citizens--most of whom have little or no contact 
with the Marine Corps. Last year, for example, Marine Forces Reserve 
personnel and units conducted over 500 local and regional community 
relations events across the country.
Predictability
    Operationally-focused, the Marine Corps Reserve Marines remain an 
integral part of the Total Force Marine Corps, whether they are 
conducting combat operations, serving within a Special Purpose Marine 
Air-Ground Task Force, or assigned as advisors with security 
cooperation teams in support of steady state requirements. We remain 
manned, trained, and equipped to seamlessly integrate with and support 
the Active Component.
    However, we recognize the potential effect that the constrained 
fiscal environment may have on our operational readiness, especially as 
we consider how to maintain the operational experience of the Reserve 
Force. By employing a Force Generation Model that rotates Marine 
Reserve units through a 5-year Training and Readiness Plan we ensure 
units and personnel are ready to meet any challenge. At any given time, 
the Training and Readiness Plan enables the Reserves to provide combat 
ready units and detachments in the form of two infantry battalions, an 
artillery battalion, a combat logistics battalion, multiple aviation 
capabilities, as well as an assortment of other forces. This results in 
more than 3,000 Marines and Sailors trained and ready to augment and 
reinforce Active Component forces whether in support of a contingency 
response or as part of a pre-planned, budgeted, theater security 
cooperation mission.
    Our Training and Readiness Plan also provides a level of 
predictability for Force planners as well as our Reserve Marines while 
maintaining the ``train as we fight'' philosophy. The Plan provides our 
Reservists, their families, and their employers the ability to plan for 
upcoming duty requirements 5 years or beyond. This empowers service 
members to achieve the critical balance between family, civilian 
career, and service to our Nation while enabling employers to plan for 
and manage the temporary loss of valued employees.
    The key element in the Training and Readiness Plan is the 
integration of Reserve units, detachments, and individuals into 
Service, Joint and Multilateral level exercises, building increasing 
interoperability over the 5-year plan's cycle. The units are assessed 
in a culminating Integrated Training Exercise during the fourth year of 
the training cycle to certify their readiness for employment during the 
fifth year.
    The Training and Readiness Plan assures seamless integration with 
the Active Component in training exercises conducted in the United 
States and overseas. Additionally, it continues to facilitate the 
Marine Corps Total Force approach which has been successful throughout 
combat operations.
Personnel
    Marines, Sailors and civilians are the foundation of all that we 
do. The resources we dedicate to sustaining and developing this 
foundation directly contributes to the success of our institution. Our 
ability to recruit and retain high quality men and women is linked to 
our ability to meet the Marine Corps' force-in-readiness requirements. 
Marine Forces Reserve is committed to recruiting and retaining the 
highest quality people who meet prescribed mental and physical 
standards, and are ready in mind, body and spirit to execute their 
duties in the defense of our Nation.
    The vast majority of the Marine Corps Selected Reserve's authorized 
end strength of 38,900 fall under Marine Forces Reserve. The Selected 
Reserve is composed of Marines in four categories: Marines in Selected 
Marine Corps Reserve Units, Active Reserve, Individual Mobilization 
Augmentees, and service members in initial training. By fiscal year 
2017, the Selected Reserve authorized end strength will decrease to 
38,500 Marines. This force reduction is occurring without any loss of 
reserve capabilities through the voluntary release of Marines that no 
longer meet the military occupational specialty (MOS) requirement for 
their unit due to the force structure changes implemented in 2012 and 
2013. Each of these Marines is also being offered an opportunity to 
retrain to a new MOS available at their current location.
    In addition to Selected Reserve Marines, Marine Forces Reserve 
administers approximately 70,000 Marines who serve in the Individual 
Ready Reserve, which is projected to continue to increase due to the 
Active Component end strength draw down. Marine Forces Reserve 
continues to monitor the mobilization viability of these Marines who 
have fulfilled their active service commitment, and have returned to 
civilian life. The mobilization potential of the Individual Ready 
Reserve (IRR) is monitored through the use of muster events, which are 
conducted at multiple locations across the country. The muster event is 
the Marine Corps' opportunity to physically inspect these Marines to 
ensure they meet the requirements for mobilization. These events also 
provide Marines the opportunity to address administrative issues, 
complete mental health and post-deployment screening, review Reserve 
obligations and opportunities, meet with military-friendly employers 
and prior service recruiters, and reconnect with fellow Marines. During 
fiscal year 2015, Marine Forces Reserve held 27 Muster events with 
7,937 Individual Ready Reserve Marines in attendance.
    As the Marine Corps continues to draw down Active Component end 
strength, the option of continued service in the Reserve Component has 
become increasingly appealing to young Marines leaving active duty. 
Marines approaching the end of their current contracts, whether Active 
or Reserve Component, receive counseling on the tangible and intangible 
benefits of remaining associated with the Selected Reserve. We educate 
each transitioning Active Component Marine on opportunities for 
continued service in the Marine Corps Reserve through the Marine Corps' 
transition assistance and educational outreach programs.
    Marine Forces Reserve enjoys high retention rates and affiliation 
demand enhanced through incentive programs such as--retraining, 
inactive duty travel reimbursement, and bonus payments. These programs 
are crucial to ensure we are able to meet our authorized end strength 
while also retaining our most talented Marines. Over the past 2 years, 
your support for these critical programs have helped to bolster our 
overall personnel end-strength to 99 percent of the total requirement 
with a grade and MOS match rate of 84 percent. The unprecedented 
retention rates over the last 2 years not only are reflective of the 
health of the Force, but directly contribute to its operational 
readiness. While we fully expect to meet our Selected Marine Corps 
Reserve retention and recruiting goals again this fiscal year, 
continued use of incentive programs are critical to optimally align our 
inventory against our requirements, maintain individual and unit-level 
readiness, address significant shortfalls in staff non-commissioned 
officer leadership, maximize Marine deployability, and fully rebuild 
readiness from previous force structure changes. Your continued support 
for bonuses and other initiatives that promote service to this great 
Nation will ensure our ability to recruit and retain the very best 
service members.
Equipment
    Marine Forces Reserve is manned, trained, and equipped to maintain 
operational parity with the Active Component. While complete 
compatibility is difficult to achieve due to total force priorities, 
equipment compatibility between the Active Component and Reserve 
Component is closer today than it has ever been--due largely to 
sustaining requirements over 15 years of continuous operational 
deployments. This level of compatibility with the Active Component 
comes at an increase in equipment maintenance cost due to the 
introduction of non-standard equipment, the fielding of new systems, 
and the overall increase in equipment scale and complexity.
    Marine Forces Reserve equipment readiness levels are healthy and 
capable of supporting all home station training requirements and our 
current operational deployments. Our efforts currently focus on Global 
Combat Support System-Marine Corps post cutover actions, training our 
supply personnel and maintainers on the new system, adjusting equipment 
inventories to the recently approved Training Allowances, and 
maintaining our equipment in a fully operational status. Continued 
Congressional support in fully funding our Operations and Maintenance, 
Marine Corps Reserve maintenance budget request is paramount for our 
continued success.
    The top procurement priority of Marine Forces Reserve is the KC-
130J Super Hercules. The Active Component has fully fielded the KC-
130J; however, the remaining 23 Reserve Component aircraft are not 
expected to be fully fielded until 2027 at the current rate. This 
extended timeline forces the Reserve Component to simultaneously 
operate KC-130J and legacy KC-130T aircraft for a prolonged period of 
time. The two aircraft models have vastly different logistic, 
maintenance and aircrew requirements, demanding double the investment 
of resources by Reserve squadrons.
    Our second highest procurement priority is the RQ-21A Blackjack 
Small Tactical Unmanned Aircraft System. The RQ-21A will provide the 
Marine Expeditionary Force and subordinate commands (divisions and 
regiments) a dedicated intelligence, surveillance, and reconnaissance 
system capable of delivering intelligence products directly to the 
tactical commander in real time. This program is still in low-rate 
initial production--the Active Component began initial procurement in 
fiscal year 2014, and the Reserve Component is scheduled to receive the 
first RQ-21As in fiscal year 2021 and keep Marine Forces Reserve at 
parity with the Active Component.
Training
    During June 2016, Marine Forces Reserve will conduct its fourth 
Service-level Integrated Training Exercise, which is a two Battalion 
assessed live-fire and maneuver exercise, featuring reserve component 
forces comprising the Marine Air-Ground Task Force elements (i.e., 
command, ground, air, and logistics). The unique nature of this 
exercise ensures maximum training benefits for the ground, aviation, 
and logistics combat elements under the command of a regimental 
headquarters. The Integrated Training Exercise is an indispensable 
component of our Training and Readiness Plan and serves as an annual 
capstone exercise, which is the principal mechanism for examining our 
training and readiness levels, as well as assessing our operational 
capabilities. Conducted aboard Marine Corps Air-Ground Combat Center, 
Twenty-nine Palms, California; the Integrated Training Exercise is a 
Marine Air-Ground Task Force deployment vice a compilation of numerous 
annual training events. Units participate based on future activation 
potential in accordance to the Marine Forces Reserve fiscal years 2016-
2020 Training and Readiness Plan. The Integrated Training Exercise 
provides all Marine Air-Ground Task Force elements an opportunity to 
undergo a Service-Level assessment of core competencies that are 
essential to Expeditionary Forward-Deployed Operations. Additionally, 
individuals serving on the regimental command element staff receive 
training that ensures the ability to augment a Marine Air-Ground Task 
Force and/or a Joint staff. In summary, the Integrated Training 
Exercise improves combat readiness, efficiency in Total Force 
integration, and enables more rapid activation response times at the 
battalion and squadron level.
    At our Reserve Training Centers, we continue to maximize training 
efficiencies by utilizing simulators wherever possible to preserve 
fiscal and materiel resources. The Reserve Component Indoor Simulated 
Marksmanship Trainers (ISMTs) and other simulation systems safeguard 
consistent capabilities across the Total Force by ensuring Reserve 
Marines are trained to the same tasks, conditions, and standards as the 
Active Component. The ISMTs particularly benefit remote site locations 
that are distant from Department of Defense training ranges by 
preserving valuable training time during drill weekends.
    With our Marines deploying around the globe, we also access and 
leverage a variety of other sources for language and cultural training, 
such as the Marine Corps' Center for Advanced Operational Culture and 
Language, the Defense Language Institute, and Regional Language 
Centers. These enhanced language and culture learning opportunities 
strengthens core competencies and posture Marine Forces Reserve as a 
ready and responsive force.
Facilities
    Marine Forces Reserve occupies facilities in 47 States, the 
District of Columbia, and the Commonwealth of Puerto Rico. These 
facilities include 26-owned and 134-tenant Reserve Training Centers, 
three family housing sites, three Bachelor Enlisted Quarters, and a 
General Officer's Quarters in New Orleans, Louisiana. Although some 
Reserve Training Centers are located on major Department of Defense 
bases and National Guard readiness centers, most of our centers are 
located within civilian communities. Therefore, the condition and 
appearance of our facilities influences the American people's 
perception of the Marine Corps throughout the Nation.
    The largest part of the facilities' budget sustains the existing 
physical plant, focusing on infrastructure maintenance that enables 
Marine Forces Reserve to meet Service and combatant command operational 
requirements. Costs of maintaining the physical plant steadily 
increases based on the age of the buildings. We have improved the 
overall readiness and physical security of our inventory and corrected 
some chronic facility condition deficiencies through Facilities 
Sustainment, Restoration, and Modernization (FSRM) funding, 
particularly with a focused and successful effort to improve security 
by standardizing gates and electronic access systems for all Marine 
Forces Reserve owned sites. Engineering assessments at all our Marine 
Forces Reserve sites are currently underway to identify all anti-
terrorism and force protection vulnerabilities for FSRM project 
appropriation.
    The Marine Corps' Military Construction, Naval Reserve (MCNR) 
program focuses on new footprint and recapitalization of our aging 
facilities. The construction provided by the annual authorization of 
MCNR funding has been an important factor in moving Marine Forces 
Reserve forward in its facilities support mission. The combined effects 
from our targeted consolidation, FSRM and MCNR programs have steadily 
reduced the number of inadequate or substandard Reserve Training 
Centers. Continued annual funding for our facilities program will 
enable Marine Forces Reserve to improve the physical infrastructure 
that supports, protects, and reinforces mission readiness of our units. 
Additionally, Marine Forces Reserve continues targeting opportunities 
to place training facilities within existing Department of Defense 
compounds. For example, in 2015 an aging and exposed Memphis Tennessee 
site was replaced with a new on-site facility at Naval Support Activity 
Mid-South (Millington, Tennessee).
    In an attempt to lessen some of the burden on the energy budget, 
and in accordance with national mandates, Marine Forces Reserve 
completed energy assessments at our owned sites and continues to 
implement the recommendations from those assessments as funds are 
available. Priority is given to sites that are the biggest energy users 
nationally and those projects which offer the best return on 
investment. Environmental stewardship continues to be a major success 
in ensuring Marine Forces Reserve sites and units continue to comply 
with national, State, and local laws.
Health Services and Behavioral Health
    Our focus on Marines, Sailors, and their families remains our 
highest priority. Therefore, we are keenly attentive to maintaining 
their health and total fitness. During dwell, our health services 
priority is to attain and maintain the Department of Defense goal of 75 
percent fully medically ready. In fiscal year 2015, Marine Forces 
Reserve individual medical and dental readiness Department of Defense 
rates were 70 percent and 89 percent respectively. We aggressively work 
towards improving medical readiness through effective utilization of 
Medical Readiness Reporting System capabilities. This enables accurate 
monitoring and identification of unit-level actions necessary to attain 
readiness goals. The opening of a Navy Satellite branch clinic at 
Marine Corps Support Facility, New Orleans is an example of the 
commitment to improve individual medical/dental readiness. Other 
supporting efforts focus on advocating for funds and tailoring support 
for various Reserve Medical/Dental Health Readiness Programs. This 
includes utilizing a combination of programs, such as; our Reserve 
Health Readiness Program contract services, Post-Deployment Health 
Reassessment, Reserve TRICARE Medical/Dental Programs, and the 
Psychological Health Outreach Program, to significantly aid in 
sustaining our total readiness. Additionally, our Health Services 
personnel participate in Force Readiness Assistance & Assessment 
Program unit inspections. These inspections provide oversight for the 
current health status of the Force at unit levels and provide an 
ability to monitor compliance requirements, policy adherence, and 
meeting unit goal initiatives.
    The Reserve Health Readiness Program (RHRP) is the cornerstone for 
individual medical and dental readiness. Marine Forces Reserve has 
benefited from increases in overall readiness as a result of this 
program. This program funds contracted medical and dental specialists 
to provide services to units that do not have direct medical or dental 
support personnel assigned and are not supported by a military 
treatment facility. During fiscal year 2015, the RHRP performed 23,594 
Periodic Health Assessments, 2,400 Mental Health Assessments, 1,506 
immunizations, 7,205 laboratory services, 43,785 audio services, and 
42,992 Dental Procedures. TRICARE also offers, for voluntary purchase, 
TRICARE Reserve Select for medical coverage and TRICARE Dental Program 
to our Reserve Marines, Sailors, and their families.
    In addition to RHRP, the Marine Corps' robust behavioral health 
program addresses issues ranging from substance abuse prevention, 
suicide prevention, operational stress management, domestic violence, 
and child abuse prevention. These programs work in conjunction with 
Navy Medicine programs to address behavioral health issues.
    With regard to specific fitness efforts, Marine Forces Reserve 
continues to conduct Operational Stress Control and Readiness training 
at all levels. This training is designed to be provided during pre-
deployment training to service members of units that are deploying for 
more than 90 days as well as all commands in garrison. The purpose of 
this training is to provide the requisite knowledge, skills, and tools 
to assist commanders in preventing, identifying, and managing combat 
and operational stress concerns as early as possible.
    Navy Bureau of Medicine continues to support behavioral health 
through various independent contracted programs, such as the Post-
Deployment Health Reassessment/Mental Health Assessments and the 
Psychological Health Outreach Program. The Post-Deployment Health 
Reassessment places an emphasis on identifying mental health concerns 
that may have emerged since returning from deployment. The 
Psychological Health Outreach Program addresses post-deployment 
behavioral health concerns and crisis-related interventions through 
social worker contractors. These social workers provide an array of 
referral services in the community to include follow-up with service 
members. These programs have proven effective in the overall management 
of identifying Marines and Sailors in need of behavioral health 
assistance and have provided an avenue to those service members who 
seek behavioral health assistance.
    Signs of operational and combat stress can manifest long after a 
service member returns home from deployment. Delayed onset of symptoms 
presents particular challenges to Reservists who can be isolated from 
vital medical care and the daily support network inherent in Marine 
Reserve units. Encouraging Marines to acknowledge and vocalize mental 
health issues is a ubiquitous challenge facing our commanders. We 
address the stigma associated with mental healthcare through key 
programs such as the Yellow Ribbon Reintegration Program. Further, we 
market all our behavioral health initiatives and programs through our 
Marine Forces Reserve portal website and during key Marine Corps forums 
throughout the year. Your continued support of these programs is 
greatly appreciated.
    Suicide prevention continues to remain a priority effort for Marine 
Forces Reserve and we will continue to leverage all of the resources 
needed to address this heartbreaking issue. Marine Forces Reserve 
focuses its suicide prevention efforts on five initiatives: In-theater 
Assessments, Post Deployment Health Assessments, Psychological Health 
Outreach Program, Care Management Teams, and Unit Marine Awareness and 
Prevention Integration Training. The In-theater Assessment targets 
Reservists exhibiting or struggling with clinically significant issues, 
and ensures evaluation by competent medical authorities for post-
deployment treatment with follow-up decisions made prior to the return 
home. The Post Deployment Health Reassessment seeks to identify issues 
that emerge once Reservists have come home from deployment. Identified 
issues are immediately evaluated and referred for treatment by the 
clinician interviewer, to include referral recommendations based on 
available local resources, such as the VA or private mental health 
providers. The Psychological Health Outreach Program is an essential 
program for treatment referral and follow-up to ensure our service 
members are receiving the appropriate behavioral health services. 
Through the Care Management Teams, the VA assigns a primary care 
manager who is responsible for referral and follow-up to any Reservist 
who has a healthcare issue.
    Any Reservist and their family can access Marine Corps 
installations' behavioral health programs through Marine Corps 
Community Services programming while they are on any type of active-
duty orders. When not on active-duty orders, Military OneSource 
provides counseling, resources, and support to Reserve service members 
and their families anywhere in the world. The Marine Corps' DSTRESS 
Line provides phone, chat and Skype support 24 hours a day, 7 days a 
week, 365 days a year and is also available to all Reserve Marines, 
Sailors, and family members regardless of their activation status.
Sexual Assault Prevention & Response
    Eliminating sexual assault throughout Marine Forces Reserve remains 
a top priority. Efforts toward this goal have gained increasing 
momentum with a full-time civilian staff of six. Each Major Subordinate 
Command (MSC) within Marine Forces Reserve has a Sexual Assault 
Response Coordinator (SARC) who manages that Commanding General's 
Sexual Assault Prevention and Response (SAPR) Program from the 
headquarters office. Together with the Civilian Victim Advocate and the 
Force level Sexual Assault Response Coordinator, Marine Forces Reserve 
continues to increase victim services, improve victim response 
capabilities, and emphasize prevention.
    In addition to managing the Sexual Assault Prevention and Response 
Program at all Marine Forces Reserve sites throughout the United 
States, the SARCs train more than one hundred new Uniformed Victim 
Advocates (UVA) each year and provide continuous support to more than 
300 Marines and Sailors serving in the collateral duty billet as a UVA 
at any given time. Once trained by the SARCs and credentialed through 
the DOD Sexual Assault Advocate Certification Program, the UVAs are 
appointed by their commanders to be Advocates at their respective 
Reserve Training Centers. They are then charged with responding to 
those service members or adult dependents that make a report of sexual 
assault regardless of their activation status. With the support of 
their SARC, the UVAs assess for safety issues, offer ongoing supportive 
services, and maintain a data base of resources for victims of sexual 
assault who may not reside on or near an Installation. The SARCs 
coordinate with leadership to ensure that every Marine Forces Reserve 
site is covered and services are available no matter their location. 
The SARCs and UVAs collaborate with providers local to the sites in 
order to create a network of support and response capabilities for the 
Reserve component across the country.
    Our prevention strategy is holistic and has therefore coordinated 
with other programs that can support the prevention effort such as the 
Equal Opportunity Program, Family Readiness, and Behavioral Health. 
Marine Forces Reserve also emphasizes setting the example of discipline 
and respect from all levels of command by encouraging a positive 
command climate within each unit. I, along with the four commanding 
generals of our major subordinate commands, actively engage with our 
Marines and Sailors as we travel to the Reserve sites to learn what we 
as leaders may do to further support a positive environment that is 
free from attitudes and behaviors that are incompatible with our core 
values. Preventative education also continues to play a role as all 
non-commissioned officers receive ``Take a Stand'' bystander 
intervention training and all junior Marines participate in the ``Step 
Up'' bystander intervention training each year. All of our Marines 
participate in the Pure Praxis Bystander Intervention Training.
    Marine Forces Reserve is committed to the fight against sexual 
assault while continuing to provide supportive services and advocacy to 
those who need it.
Quality of Life
    Whether we are taking care of our Marines in the desert or families 
back home, quality of life support programs are designed to help all 
Marines and their families. Because Marines and their families make 
great sacrifices in service to our country, they deserve the very best 
support. Our Marines and families are dispersed throughout America, 
away from the traditional support systems of our bases and stations. 
Therefore, we expend great effort to ensure awareness of the numerous 
support programs adapted for their benefit. Family Readiness Officers 
are a critical component to ensuring young Marines and their families 
receive the help needed to ensure they can continue to serve this great 
Nation.
    This year we have worked as the advocate for the Reservist to 
ensure they are included in tri-service-level discussions with DOD and 
the VA to ensure service treatment records reach VA with a clear of 
chain custody. Because every Marine leaving active duty with a 
remaining military service obligation transitions to the IRR, and every 
Marine mobilized over 30 days must have his or her medical history 
documented, Marine Forces Reserve has a large stake in ensuring this 
process is sound and that follow-up medical care is assured.
    Following approximately 8 years of program expansion to achieve 
wartime footing, Marine and Family Readiness Programs are being 
adjusted to meet current and future needs to operating forces, Marines 
including Reservists, and their families. The Marine Corps is assessing 
all Marine and Family programs to ensure that they are stabilized, 
focused on core requirements, and providing support in critical areas 
such as deployment. Our result is a ready and resilient Force, well 
equipped to achieve success.
    Our Marine Corps Family Team Building (MCFTB) programs provide 
relevant and standardized training to unit commanders, Family Readiness 
Command Teams, Marines and their families; thereby reinforcing the 
pillars of resiliency, sustaining a constant state of personal and 
family readiness, and ultimately enhancing unit mission readiness. 
MCFTB training events are delivered in person and through interactive 
webinars at Marine Corps units across the United States.
    A key component to our quality of life and resiliency is the 
religious ministry support provided by the 190 Chaplains and Religious 
Program Specialists serving in our ranks; 107 of them in commissioned 
Reserve units, while 83 support the active component. Of those, 29 are 
mobilized in support of Combatant Commander's across the globe. This 
support includes provision of divine services across the spectrum of 
faith communities, critical advisement on spiritual and ethical matters 
at every level of the chain of command and pastoral care to all in a 
safe, confidential environment. One signature program is the Chaplain 
Religious Enrichment Development Operations (CREDO) Program. MFR CREDO 
provides two transformational programs: the Marriage Enrichment Retreat 
(MER) and the Personal Resiliency Retreat (PRR). CREDO contributes to a 
ready and resilient Force by equipping Marines, Sailors, and their 
families with practical relationship and communication tools that 
strengthen marriages and individual resilience on the home front and 
during deployments. The PRR curriculum also helps Marines and Sailors 
set personal goals, make good decisions, deal with stress, and live 
lives with greater purpose and satisfaction. Learning to live with 
purpose helps guard against a loss of hope and counteracts suicidal and 
other destructive behaviors. In fiscal year 2015, 10 Marriage 
Enrichment retreats were conducted with 232 participants. Two Personal 
Resiliency Retreats were conducted with 20 participants. In fiscal year 
2016, 14 Marriage Enrichment Retreats and 4 Personal Resiliency 
Retreats are projected to be offered.
    The Marine Corps Personal and Professional Development programs 
continue to provide educational information to service members and 
their families. Reservists take advantage of our partnership with 
tutor.com, which offers access for our Marines, Sailors, and their 
families to 24/7 no-cost, live online tutoring services for K-12 
students, Reserve component college students, and adult learners 
through the Office of the Secretary of Defense (OSD) Yellow Ribbon 
Program. Additionally, the Marine Corps' partnership with the OSD-
supported Peterson's Online Academic Skills Course helps Marines build 
math and verbal skills to excel on the job, pass an exam, advance in a 
career, or continue education. This program assesses the current level 
of reading comprehension, vocabulary, and math skills and teaches the 
concepts and skills needed to increase proficiency in each of these 
academic areas. This course is accessed through the Military One Source 
or Navy Knowledge Online and provided at no charge for service members 
and their families.
    Our Semper Fit program remains fully engaged in partnering with our 
bases and stations to provide quality, results-based education and 
conditioning protocols for our Marines and Sailors. The High Intensity 
Tactical Training (HITT) program includes hands-on strength and 
conditioning courses, online physical fitness tools, mobile 
applications for service members to access anywhere at any time, 
recorded webinars, as well as instruction on injury prevention, 
nutrition, and weight management. Our Marines' and Sailors' quality of 
life is also increased through various stress management and esprit de 
corps activities, such as unit outings and participation in competitive 
events. These programs are key to unit cohesion, camaraderie, and 
motivation.
    The Yellow Ribbon Reintegration Program (YRRP) has been 
incorporated into the Marine Corps Unit, Personal, and Family Readiness 
Program at every command level with civilian and Active Duty Deputy 
Family Readiness Officers (FRO). Since its inception in 2010, the YRRP 
has held more than 660 training events for more than 35,000 Marines, 
Sailors, and family members. The responsibility of executing Yellow 
Ribbon--in accordance with the legislation and Marine Forces Reserve 
policy, resides with the individual unit commander. This ensures 
commanders remain engaged with the challenges and issues facing their 
Marines, Sailors, and families, and is in line with Force Preservation 
efforts.
    The Yellow Ribbon Reintegration Program is enduring. Marine Forces 
Reserve continues to explore, with our Marine Corps Family Team 
Building staff, innovative methods for program delivery that will be 
sustainable in any fiscal or deployment climate. This includes 
developing webinars, mail-outs, personal deployment briefs designed to 
meet the individual needs of the service member and family, and working 
with the Family Readiness Officers to leverage local resources at no 
cost to the government.
    We continue to be supportive of Military OneSource, which provides 
our Marines, Sailors, and their families with an around-the-clock 
information and referral service via toll-free telephone and Internet 
access for counseling and on subjects such as parenting, child care, 
education, finances, legal issues, deployment, crisis support, and 
relocation.
    Our Marines, Sailors, and their families, who sacrifice so much for 
our Nation's defense, should not be asked to sacrifice quality of life. 
We will continue to be a faithful advocate for these programs and 
services and to evolve and adapt to the changing needs and environments 
in order to ensure that quality support programs and services are 
provided to our Marines, Sailors and their families. The combined 
effect of these programs is critical to the readiness and retention of 
our Marines, Sailors, and their families, and your continued support of 
these programs is greatly appreciated.
Supporting our Wounded, Ill, or Injured Marines and their Families
    Marine Forces Reserve's commitment to our wounded Marines, Sailors, 
and their families is unwavering. Through the Wounded Warrior Regiment 
(WWR), the Marine Corps ensures one standard of care for all wounded, 
ill, or injured (WII) service members, whether they are active or 
reserve. Marines Forces Reserve requested and received in 2013 a 
liaison in who coordinates with WWR to provide subject matter expertise 
and facilitate support for the unique challenges faced by Marine 
Reservists and their families.
    WWR staff includes the Reserve Medical Entitlements Determinations 
Section, which specifically maintains oversight of all cases of 
reservists who require medical care for service incurred and duty 
limiting medical conditions. Reservists facing complex care and 
recovery needs have access to WWR's network of 44 Recovery Care 
Coordinators (RCCs) who provide one-on-one transition support and 
resource identification for WII reservists and families often living 
away from military installations. WWR also has medical advocates at the 
regimental staff who are available to assist reservists in need of 
medical care coordination and advocacy.
    Marine Forces Reserve is intimately involved in the support 
provided to wounded, ill, and injured Marines through the mobilization 
of Reserve Marines who serve as District Injured Support Coordinators 
(DISCs), Section Leaders and recovery care support staff. The 
geographically dispersed DISCs focus primarily on reaching out to the 
reserve and veteran WII population to ensure the Marine Corps' 
commitment to keep faith is upheld.
    While the current operations are resulting in fewer combat 
casualties, Marines afflicted with non-combat injuries and illnesses 
will likely remain a concern. In addition, instances of post-traumatic 
stress and traumatic brain injury continue to arise due to delayed 
onset as well as the tendency by Marines to postpone seeking help. 
Regardless of the global security environment, recovery care support 
must be enduring. Marine Forces Reserve will not forget the sacrifices 
our Marines and Sailors have made for this great Nation; and we will 
continue to work with WWR to establish resources and programs that 
address the unique and ongoing needs of our reserve population.
                               conclusion
    The Marine Corps is our Nation's crisis response force and will 
continue to be most ready when our Nation is least ready. As part of 
the Marine Corps Total Force, Marine Forces Reserve must remain manned, 
trained, and equipped to provide forces to the Active Component to 
respond across the operational spectrum--from disaster relief, to 
Embassy evacuation, to full-scale combat operations. We live in a world 
challenged by competition for natural resources, violent extremism, 
natural disasters, social unrest, cyber-attacks, regional conflict, and 
the proliferation of advanced weaponry and weapons of mass destruction. 
The future operating environment will continue to be characterized by 
challenges that will stretch the employment capacity of the U.S. 
military and demand a force-in-readiness with global response 
capabilities. With your continued unwavering support, Marine Forces 
Reserve will remain that crucial shock absorber to the Active 
Component. Semper Fidelis!

    Senator Cochran. Thank you very much, General. We 
appreciate your leadership.
    We are now going to recognize Senators in the order in 
which they have attended the hearing. The first is the 
distinguished Senator from Montana, Mr. Tester.
    Senator Tester. Thank you, Mr. Chairman.
    I want to thank all of you for your leadership and your 
service to the country. I very much appreciate it. This is an 
all-star cast we have in front of the subcommittee today, so 
thank you all.

               CONVERT MILITARY TECHNICIANS INTO TITLE 5

    I am going to start with you, General Grass. In terms of 
last year's NDAA (National Defense Authorization Act) provision 
to convert a number of military technicians into Title 5, I 
know that your job is simply to follow the law. And there have 
been concerns raised by a number of TAGs (The Adjutant General) 
and Governors about the provision's potential impact on their 
work force, and it obviously is an issue on many of our radar 
screens.
    So, General Grass, in your perspective, is there a way to 
implement this provision in a manner that would not undermine 
the local chain of command and a State's ability to respond to 
local emergencies?
    General Grass. Senator, as you know, this has been a very 
difficult issue with the Governors and the Adjutants General. 
We have been working very closely with Congress based on the 
NDAA 2016 language. What we really need is some more time to do 
the analysis.
    What we don't want to put at risk is the readiness or the 
benefits and entitlements to our people. We want to make sure 
that is taking care of.
    The Technician Act was enacted in 1968, so anything that 
has been around that long in the transition to operational 
force, it would be a great opportunity to relook at right now. 
But we just need more time to do the analysis and work with the 
States on the impacts.
    Senator Tester. I would just ask that if there are things 
that we need to do to make the readiness and flexibility, to 
maintain that, don't be afraid to ask.
    General Grass. Senator, one thing that has come out in the 
NDAA as we work with the committees, we found that the command 
and control, the ability to manage that force both for the 
Federal mission but also for the State mission, has been one of 
the issues we are trying to work through that might require 
some changes there.

                     C-130H AVIONICS MODERNIZATION

    Senator Tester. Okay.
    General Neal, we are on track to implement increment one of 
the required C-130H avionics to meet the FAA's 2020 deadline. 
We are on track to do that, correct?
    General Neal. That is correct, Senator. The deadline is 
January 20. We will make it by 2 or 3 months.
    Senator Tester. Good. Assuming that the funds you requested 
in this budget for the C-130H updates are appropriated, you 
feel confident that you will have the resources to meet that 
deadline?
    General Neal. I do, Senator.
    Senator Tester. Good. Do you know when the queue of the 
aircraft to receive these upgrades will be finalized, and if it 
will be shared?
    General Neal. We are pretty close. We probably have about a 
90 percent queue for amp one, the one you're talking about 
right now. The entire mod is only a 7-month mod. So for all 
practical purposes, it is a simultaneous mod, so the queue 
doesn't really matter.
    What we are working around is, for example, in Montana, we 
are working around aircraft that go into heavy maintenance 
right before or right after. So that is kind of a limiting 
factor on this one.
    So the schedule is pretty easy. It is not really 
controversial, but we will have that in the next 2 weeks, I 
would imagine. We will share with the Adjutants General.
    Senator Tester. Okay, good.
    If you fail to meet the 2020 deadline, God forbid, but if 
you fail to meet it, do you have a fallback plan?
    General Neal. Well, we plan not to fail, Senator, of 
course. But we do. There are workarounds. It usually involves 
more coordination with both the air traffic control here in the 
States and Europe. It usually involves different altitudes, 
lower altitudes or greater length of routes, all of which is an 
extra fuel cost. But we do have workarounds, and we are working 
with Air Force on those, sir.

                           SUICIDE PREVENTION

    Senator Tester. Okay, thank you.
    In Montana, and I believe across the country, we have 
witnessed a tragic increase in the suicide rate among guardsmen 
and reservists that have never been deployed. As each of you 
know, far too often it is a result of folks living far, far 
from military installations and not having access to the same 
kind of services of care that those folks who are deployed 
have.
    Guard units in States like Montana have done a great job 
trying to deal with this issue, but they are obviously 
operating with limited resources. Those of you that want to 
respond to this, can.
    What are your services doing to ensure that nondeployed 
guardsmen and reservists have access to the mental healthcare 
and services that they need?
    General Talley. Sir, I will get to bat first.
    Senator Tester. General.
    General Talley. So in the Army Reserve, probably our 
greatest success in getting after suicide prevention and a 
number of other challenges is what we call Fort Family. Fort 
Family has been a wonderful success.
    So Fort Family is a 24/7 hotline, if you will, staffed by 
trained, certified specialists in dealing with people who are 
suicidal in a variety of challenges, and they are not in the 
chain of command. And that is based out of our headquarters at 
Fort Bragg, North Carolina.
    We have a whole variety of different ways that we are 
getting after suicide prevention, but I will just say that Fort 
Family has been very, very successful, because somebody can 
call it, regardless of what time of day it is. They often don't 
want to talk to the chain of command, because their perception 
is they are seen as weak, they are not a real soldier because 
they are suffering from these thoughts and these issues.
    But they will call Fort Family. We have story after story 
after story of successful interventions, courtesy of Fort 
Family, sir.
    Senator Tester. Good.
    Senator Cochran. The time of the Senator has expired.
    Senator Tester. I'm not talking. They are, Mr. Chairman.
    [Laughter.]
    Senator Tester. Thank you, Mr. Chairman.
    Senator Cochran. Thank you.
    We will now recognize the distinguished Senator from 
Missouri, Senator Blunt.
    Senator Blunt. Thank you, Chairman. I am very interested in 
that issue as well. We might even get back to Senator Tester's 
question here, depending on how quickly we can go.

                                 CYBER

    First of all, I want to ask General Grass and General 
Jackson about cyber.
    General Jackson, you brought that up.
    Let's start, General Grass, with you, though.
    I have been particularly interested in what seems to me the 
additional skills we bring to the table with people who are 
working in their regular job in some kind of cyber activity, 
and then they bring that to the cyber Guard unit with them. As 
a member of the Intel Committee as well, I know this is a 
constant daily fight for lots of people.
    How are we finding that symbiosis of guardsmen and 
reservists who are working outside in the private sector in the 
cyber field, who are then also part of an Active cyber unit 
that can be utilized as needed? General Grass.
    General Grass. Senator Blunt, it is exactly what Secretary 
Ash Carter has been looking at. In fact, he just recently 
visited one of our Air Guard units out in Washington State. The 
cyber squadron there, the 252nd, showed him the capability they 
bring both from their civilian skills and their military 
skills.
    In December, we rolled out 11 more Air and Army Guard units 
with the Adjutants General that we are stationing. Once those 
are stationed, and it goes out to about 2019, we will be at a 
point then when we will have 30 Air and Army Guard capable 
cyber units in the National Guard in at least 30 States. 
Actually, it's going to be a little bit more than that.
    On the Army Guard side, and General Kadavy can talk more to 
this, but we've already put in up to 10 temporary positions to 
kind of seed the population out there, to see where we can 
attract the men and women from academia, from business, who 
have cyber skills and bring them on board now, because we know 
the requirement is going to grow.
    Senator Blunt. General Jackson, and then we will go to 
General Kadavy.
    General Jackson. Senator, thanks for the question. Just to 
pile on, we have seen that exact synergy that you are talking 
about.
    The Air Force Reserve has currently 13 cyber organizations, 
and we are going to put about four more in place where the Air 
Force and where the Nation needs us, including supporting cyber 
mission teams. We have been extremely successful in recruiting 
to those new organizations. We are well above 80 percent.
    But we have to put them in the right locations. That is a 
part of our modeling and simulation where we look at where we 
can put cyber units to actually be successful.
    In addition, as I mentioned earlier, we have that approval 
from our leadership to bring in cyber professionals with 3 
years' time and constructive credit, so that they don't have to 
take those first 3 years and build into an airmen who can do 
that type of mission.
    Senator Blunt. All right. General Kadavy.

                      CYBER NETWORK DEFENSE TEAMS

    General Kadavy. Senator, thanks for the question. We are 
working pretty hard. We have a strategy, we believe, to ensure 
cyber capacity and capability in each one of the 54 States, 
territories and District of Columbia.
    It starts with the Cyber Network Defense teams, which were 
truly the seed corn we put out a few years ago. Each and every 
State has one of those teams.
    We have rolled out in December the remaining cyber 
protection teams. They are the 10 teams that are currently in 
the force structure or will come in the structure between 
fiscal year 2017 and 2019. But we will start to stand them up 
this year.
    And then finally, we are working some concept plans with 
Army Cyber and with the department to expand our footprint into 
the future.
    Senator Blunt. And do you envision them relieving the full-
time force when they are doing their monthly time or their 2 
weeks of time? How do you see them coming in and out of the 
system, General Kadavy?

                          CYBER MISSION FORCE

    General Kadavy. When they are doing their drills and annual 
training, their training, they are refreshing their 
certifications. Then when needed, they can be mobilized in 
support or enhance current Active component teams and missions. 
As then we get them fully operational, then we can also provide 
in that capacity IDT (inactive-duty training) and AT where it 
fits additional capacity in the current environment with Active 
component teams.
    Senator Blunt. I have half a minute left. Anyone else want 
to comment on this question? I am not sure I have time to start 
another question yet.
    General Neal. Senator, I can answer really quick. 
Washington State, just as General Grass said, we are doing 
that. We are doing it with the NSA professionals, who are also 
guardsmen at Fort Meade.
    What we are doing is we have picked up two full-time 
missions for the Air Force and we just alternate through a 
couple units to do that, so we are doing exactly what you 
suggested.
    Senator Blunt. And recruiting, General Jackson, is going in 
this area, it is enhancing your recruiting capacity?
    General Jackson. Yes, sir. We are recruiting extremely well 
in this mission area in the locations we put them in.
    Senator Blunt. Thank you.
    Thank you, Mr. Chairman.
    Senator Cochran. Thank you.
    We now recognize the distinguished Senator from New Mexico, 
Mr. Udall.

                  NATIONAL GUARD COUNTER DRUG PROGRAM

    Senator Udall. Thank you, Chairman Cochran.
    Thank you to all of you for your service. This is a very 
impressive group of men and women serving our country.
    The National Guard is a great asset that fills many roles 
in our Nation's security, from overseas deployment to emergency 
response.
    Coming from a border State, we are also very familiar with 
the work the National Guard does to help Border Patrol keep our 
borders secure.
    The Bootheel region in New Mexico borders Mexico on two 
sides. And for many years, we have heard serious concerns about 
drug trafficking moving through this remote, rugged territory.
    The Border Patrol officers tell me they actually need more 
horses to patrol it. The National Guard's assets and expertise 
can be force multipliers to help the Border Patrol cover more 
territory.
    My staff recently attended a recent community meeting there 
in the Bootheel with many New Mexico residents in attendance, 
and we have also heard from the New Mexico National Guard.
    So I have a couple questions to follow up on this situation 
in the Bootheel, General Grass. First, the National Guard 
counterdrug program helps bring invaluable capabilities to the 
Border Patrol by operating forward-looking infrared cameras, 
providing nighttime air support, and operating some of the 
Border Patrol's multiple surveillance systems.
    Last year, the National Guard deployed five teams to 
support the Border Patrol's mission in New Mexico, and I want 
to thank you very much for that support.
    However, I am concerned that the National Guard's support 
for the Border Patrol has not been sufficiently funded going 
forward. We have heard that the number of National Guard teams 
in New Mexico could be cut in half and the Guard's four 
helicopters that it uses for Border Patrol operations are 
limited to about 6 months of flight time a year.
    Will you work with us to ensure that we do not see a drop 
off in Guard support for New Mexico border security over the 
coming year, specifically its support for aviation units in 
critical remote areas as vast as the Southwest border?
    General Grass. Senator Udall, yes, I will work with you.
    The issue that we are dealing with on counterdrug is the 
episodic funding. Each year, Congress helps us. Of course, it 
falls under issues inside the Department of Defense, a lower 
level of funding that other priorities take over.
    We are sitting at about $212 million for the full program 
this year. It is the most we've had in many years. But if we 
continue on the path we are on right now, we will come back in 
the President's budget right now at about $87 million, which 
would be about half of the requirement.
    We have submitted a finance requirement there. Again, it is 
competing against very high priorities within the Department of 
Defense that deal with readiness and other issues, so we do 
need help in that area.
    We understand that about $220 million a year fully funds 
not just the counterdrug programs in every State but also it 
funds our five school houses and we are expanding the use of 
those school houses right now with both State and local as well 
as Federal agencies.

                COUNTER DRUG TREAT-BASED RESOURCE MODEL

    Senator Udall. Thank you. I would like to focus 
specifically on how Guard funding works now, General Grass. My 
understanding is that the National Guard Bureau provides 
funding to all States and four territories to defeat drug 
trafficking through a threat-based resource model. We have 
heard that the Guard antidrug funding could be better allocated 
to stop drug trafficking at the border. And the southern border 
is, certainly, the major drug trafficking route.
    In the 2015 National Defense Authorization Act, there was a 
GAO (Government Accountability Office) report related to this 
topic, which came out in October.
    Do you believe that the Guard's current counterdrug funding 
effectively allocates resources to the areas of greatest 
concern, such as the Southwest border and other ports of entry 
where illicit drug trafficking is widespread? And are there any 
changes in the work following up on the GAO report?

                       COUNTER DRUG COORDINATION

    General Grass. Senator, I have a team made up of Adjutants 
General and our counterdrug coordination staff. They developed 
that threat model that actually figures out how we are going to 
distribute that money.
    I think it is always good to relook at that periodically. 
We have seen a change over the years in some of the issues we 
are dealing with now with heroin, as well as issues of 
prescription drugs. So we need to look at that model, work with 
both DA, others, the threat integration committee, which I 
serve on, working with ONDCP (Office of National Drug Control 
Policy) from the White House, and try to see if the model is 
still correct.
    Again, bringing the Adjutants General into that discussion 
through our General Officer Steering Committee is very helpful 
to see what issues they are dealing with, because they are the 
closest tie to the local problems.
    Senator Udall. General Grass, thank you very much. We would 
like you to consider basing future the V-22s in New Mexico, 
where they can do the kind of work we just talked about.
    Thank you, Mr. Chairman.
    Senator Cochran. Thank you, Senator.
    Senator.
    Senator Blunt. Mr. Chairman, thank you. If I have the time, 
I have a couple other questions.

                                  A-10

    General Jackson, I want to talk a little bit about the A-
10. Of course, the 442nd Fighter Wing is based at Whiteman in 
Missouri. I got to spend a little time with them in early 
September when they were in Estonia as part of that forward 
positioning there to show our NATO (North Atlantic Treaty 
Organization) allies on the eastern edge of NATO where we are.
    Also, I don't think I've ever talked to anybody who has had 
on-the-ground support from the A-10 who doesn't think that is 
the plane they want up there when they need ground support. It 
looks like the A-10 in one form or another now could be around 
until about 2022.
    Could you describe what is the current divestment plan, if 
that is the right term to use, for the A-10 and the replacement 
plan for that plane?
    General Jackson. Senator, thank you for the question. If I 
could to reach back to your previous cyber question very 
briefly, because we had run out of time?
    The hiring for the cyber forces that we put in place has 
been very good for traditional reservists in the places we put 
them. We could use assistance from the committee on the 
technician part, the full-time support side, our military 
techs, because what is happening right now is Office of 
Personnel Management on the civilian side is now allowing us to 
grade them at the same level as their civilian counterparts. So 
we will bring in information and hopefully statutory changes to 
that for you.
    As to the A-10, sir, we appreciate your support for the 
442nd. Colonel Borgen and his team are outstanding out there at 
Whiteman Air Force Base, Missouri. As you said, they have had 
numerous extremely successful deployments.
    My understanding for the program of record is that as 
currently presented in 2017 is a divesture plan that starts in 
fiscal year 2018 and goes to 2022. However, I understand there 
are still conversations going on where exactly that will be 
occurring, conversations we have had with your office once 
again to go ahead and reassure you that Whiteman is a critical 
part of our fighter force structure within the Air Force 
Reserve and no matter whether we put an F-16 unit back in 
there, or we go ahead and put a future fighter in there, they 
will be part of the equation.

                           APACHE HELICOPTERS

    Senator Blunt. One other question on the decision that was 
made last year to take the Apache helicopters out of the Guard 
and place them only in the Active units, that, among other 
things, certainly factored into the national commission on the 
future of the Army.
    I'm wondering, General Grass and probably General Kadavy as 
well, how do we see that discussion going in terms of whether 
the Guard is a fully functioning, integral part of the force or 
some other more strategic determination made for the Guard? Any 
comments you might have on what the commission had to say, or 
the impact of that decision on the Apache how helicopters would 
have had or is having?

               COMMISSION RECOMMENDATIONS REVIEW PROCESS

    General Grass. Senator Blunt, right now, Tim and I both, 
General Kadavy and I both, as well as General Talley, as well 
as an Adjutant General, are serving on a senior-level decision-
making body that makes recommendations up to the Secretary of 
the Army, along with General Milley leading that charge.
    This is one of the recommendations to reconsider that the 
ARI proposal. We are right in the middle right now of the 
analysis. So it would be premature to say anything at this 
point, because the Secretary hasn't had an opportunity to make 
a decision.
    We do know that across Army aviation, and that is Active, 
Guard and Reserve, there are some bills that we can't cover 
right now. But I do feel very comfortable that the committee 
that is leading this charge is made up of Active, Guard and 
Reserve, and our voices are being heard strongly.
    Tim.
    General Kadavy. Senator, I would just add, we are working 
very closely with the Army, particularly as it is related to 
the recommendation to course of action three, the Apache 
battalions. It is one of the recommendation that comes with a 
heavy price tag. So if it was to be implemented, we are doing 
that staff work to figure out exactly how we would be able to 
afford it in the future.

                     RETAINING APACHES IN THE GUARD

    Senator Blunt. The heavy price tag would be if we continue 
to have the Apaches as part of the Guard or if we don't?
    General Kadavy. Yes, sir, that is part of the overall----
    Senator Blunt. Which would be what? The continuation of 
that?
    General Kadavy. The continuation of course of action three, 
which would retain four Apache battalions with the Army 
National Guard.
    Senator Blunt. Some discussion that may be up there was an 
Apache Guard unit that would be smaller than the normal number 
of helicopters. Does that create concerns?
    General Kadavy. Sir, the actual unit would be the same 
size, Senator. What would be different would be the actual 
number of aircraft on the tarmac. We would have 18 rather than 
24, and that is as it is recommended within the commission.
    If a unit would deploy, they would deploy the 24. They 
would be a fully manned and equipped Apache battalion. That is 
part of the assessment analysis that is ongoing, Senator.
    Senator Blunt. Okay.
    Thank you, Chairman.
    General Talley. Sir, for the Army Reserve, we have two 
Apache battalions that are being swapped out for SOP 
battalions. One has already done the transfer. The other is in 
the process.
    From our perspective, we actually increase our capability. 
We get more aircraft. We get more pilots. We have more lift to 
provide at home and abroad. So it has been no issue.
    Senator Blunt. Thank you, General Talley. Very helpful.
    Senator Cochran. The Senator from Alaska.

                    RURAL NATIONAL GUARD ENGAGEMENT

    Senator Murkowski. Thank you, Mr. Chairman.
    Ladies and gentlemen, welcome.
    I would like to direct this comment to you, General Grass, 
and this relates to rural National Guard engagement.
    We all know the high numbers of American Indians, Alaska 
Natives that serve in our military and are very proud of that. 
In rural Alaska, we have seen the Alaska Territorial Guard and 
the Alaska National Guard that have historically been the 
routes that so many other Alaska Natives have taken. But we've 
seen these numbers drop dramatically over the years.
    This is a concern, not only because it changes the 
demographic of the Guard in the State, but also because these 
guardsmen would leave and go back to the villages and be those 
leaders within the villages. When you have many villages that 
don't really have much of a law enforcement presence, it has 
really helped to supplement that.
    One of the reasons that we are seeing the rural Guard 
enrollment decline is because of the high cost of flying from 
the Alaska Native village to a rural hub where the readiness 
facility sits. The Alaska National Guard has suggested that we 
legislate that the National Guard Bureau be authorized to 
reimburse guardsmen for Air travel from communities that are 
not connected by road to get to the readiness facility.
    Do you think this makes any sense?
    General Grass. Senator, I have visited with many of those, 
especially what used to be the Alaska Scouts. They are great, 
great warriors.
    I think you have a unique situation that that probably 
would be very helpful. It definitely would encourage recruiting 
and retention among those people that have a long way to go. 
There are other parts of the country I think with all the 
Reserve components that we would see the same issue. Of course, 
it boils down to affordability of a program like that.
    Senator Murkowski. It's something that we are looking at 
and, again, trying to figure out if there is a way that we can 
make this work.
    Another concern are personal background issues. For 
example, drug use may preclude individuals who have 
rehabilitated from joining the Guard. When you think about the 
National Guard, you have historically been this champion of 
second chances in Alaska. We are very proud of the National 
Guard Youth Challenge program. We think it is phenomenal.

                   NATIONAL GUARD ENTRANCE STANDARDS

    Are the National Guard entrance standards so high as to 
exclude a significant population that may deserve that second 
chance? And is this something that we should consider reviewing 
or giving consideration for?
    General Grass. Senator, there is a waiver process that we 
run through the medical staff. Let me have General Kadavy talk 
about the Army side, and General Neal can talk about the Air 
standards.
    Senator Murkowski. Okay.
    General Kadavy. Senator, I spent about 4 or 5 days out in 
Alaska back in January with General Hummel. One of the 
locations we visited was Bethel and the Scout Memorial. What a 
tremendous memorial recognizing their service to our country 
since World War II, over the last 70, 80 years.
    Senator Murkowski. It is.
    General Kadavy. So we talked very, very deeply about the 
issues related to the Scouts, the waivers that they used to 
have. I believe they went away about 2000.
    So I've taken those notes back, and I've been talking with 
the Army Secretary.
    As far as entrance standards, those are the Army standards, 
but we are going to look at it and I'm working with the Army 
Secretary to see what we can do to assist Alaska with what they 
would like to do, and General Hummel.
    Senator Murkowski. Great. Greatly appreciate it.
    General Neal.
    General Neal. Senator, as you know, in Alaska, we have 
mostly flying missions, so you're now getting a C-17. We have 
your rescue C-130s and your rescue helicopters. So it is a 
pretty high bar for entrance into those fields.
    I will say that we don't want to do anything that 
disadvantages what we say we are, and that is citizen airmen, 
getting them on board. So we definitely want to look at this, 
but because we are under the Air Force umbrella, we do have 
some high standards I think we have to be very careful of.
    But we do want to capture all the talent that is in Alaska 
for our forces there, ma'am.
    Senator Murkowski. I appreciate those responses, because 
what that tells me is that there is clear consideration to some 
of these issues.

                            SCOUT BATTALION

    Last question in this area then, and I know probably all of 
you have had conversations with our Adjutant General, who is 
very interested in standing up the Scout Battalion modeled 
somewhat after the Territorial Guard, somewhat after the 
Canadian Rangers, but it would be outside of the authorized 
Alaska National Guard Force structure. She would like Federal 
support for this effort.
    I don't know, maybe it fits into the bucket of defense 
civil military programs like Youth Challenge and STARBASE. But 
I'm wondering if you have had those conversations with our 
Adjutant General, whether you think it is something that we 
could work with, and whether or not there is a way that we can 
provide for a path forward for this.
    I will throw that out to any of the three of you.
    General Kadavy. Senator, we talked about that over the many 
days I spent out in Alaska. We went through that. We are 
looking at a number of concepts and options. We would be more 
than happy to come and brief you on those.
    We are not there yet, but I think there is some way we can 
assist, maybe not in a whole battalion but with some additional 
overstrength or capacity in order to reach out to those 
communities in Western Alaska.
    Senator Murkowski. Good. Well, I appreciate that. I will 
just conclude by noting that when the President came to Alaska 
in late August, early September, and sat down with a group of 
Native leaders, one of the more interesting questions to him 
was whether or not we could do more to kind of rebuild the 
Guard out in rural Alaska. Again, not only from a security 
perspective, but really from a leadership perspective out in 
our villages. So know that we stand committed to working with 
you on these issues.
    Thank you, Mr. Chairman.
    Senator Cochran. Thank you, Senator.
    The distinguished Senator from Hawaii, Mr. Schatz.

                       STATE PARTNERSHIP PROGRAM

    Senator Schatz: Thank you, Mr. Chairman.
    General Kadavy and General Neal, I want to ask about the 
State Partnership Program (SPP). I recognize that there are 
competing interests for where we conduct these engagements and 
with our attention in Europe and ERI, there is a desire to do 
more through the State Partnership Program to build partner 
capacity and reassure our allies.
    But I want to make sure that we don't lose sight of the 
progress that we are making with the State Partnership Program 
in the Pacific.
    It is not just a defense priority. It is not just a 
question of resources. I do believe this is probably the least 
expensive way for us to extend ourselves in the Asia-Pacific 
region.
    I will also tell you that our guards-men and -women love 
it. They feel very strongly about it. They build strong 
relationships that are highly leveraged over a long period of 
time.
    It seems to me that you need more budget certainty in order 
to do the planning necessary not just to maintain current 
levels, but you have a problem of balancing the Asia-Pacific 
rebalance and ERI. So I would like you to talk about that.
    But I would also like you to talk about the need for long-
term certainty in terms of being able to plan and budget for 
the partnership program. So I will start with General Neal and 
then go to General Kadavy.
    General Neal. Senator, great question. The SPP, of course, 
we love it, too. I will make sure I don't speak for General 
Grass, because he really owns it, but I believe that your 
partners are Philippines and Indonesia for Hawaii.
    The problems we have with SPP is that it is pay-as-you-go. 
So the combatant commanders love it. Pretty much everybody 
loves it, but it is a pay-as-you-go. So the more money, the 
more we can do things.
    But outside the SPP program for the Air Guard, we do a lot 
of our annual training with our partner countries. That is an 
added benefit kind of under the SPP umbrella. So we do a lot 
more than the SPP, if you just look at what funding allows.
    So your great airmen in Hawaii are doing a lot of things. 
But you also do other things when you fly with them. Your civil 
engineers train with them, your medical people.
    So we agree with everything you say, but really the answer 
is funding. So the more funding, the more we will do.
    Senator Schatz. Thank you.
    General Kadavy. Senator, I view SPP as a very important 
program, not just to the Army National Guard and National 
Guard, but to the Army and the Department of Defense.
    It is an enabler of training. It helps us develop a depth 
of leadership, because these engagements with coalition 
partners, allied nations in some cases, and others just 
friends, a tremendous opportunity for our leaders to engage, 
and it helps us develop some leadership depth.
    It is also a leverage into theater security cooperation. 
Sometimes it is a first step. I have seen firsthand in Africa, 
for instance, where the State Partnership Program and 
leadership of the Adjutant General made a difference in an 
exercise in a southern accord.
    We take it very seriously. We take Pacific pathways. We 
would like to be more involved. That is a funding issue.
    But we are using some of our ODT (overseas deployment 
training) dollars this year to get part of the way in the 
Pacific. We are a little bit late.
    We are using one of the battalions out of Iowa that went to 
the Joint Readiness Training Center, one of the two CTC (Combat 
Training Centers) rotations that Congress funded for us. They 
are going to Alaska where they will be part of Arctic Anvil in 
working with the 4th Brigade 25th.
    We are a little late to get further in the Pacific, but 
those are the types of things we like to do.
    I think my last comment is just, as the State Partnership 
Program has grown, the growth has impact as you try to spread 
some of the peanut butter, per se, over all of the countries 
that we now deal with. It is a great program.
    Senator Schatz. General Grass.
    General Grass. Senator, thank you.
    This program has been incredible for 23 years now. The 
Pacific is definitely a prime place to grow programs. I met 
with Admiral Harris in January. We sat down in his office, his 
headquarters. We are actually in the process of looking for a 
new partner, for a new country, that he is adding, which we 
have advertised to the Adjutant General. There's probably 
another one, not too far behind that.
    Worldwide, we will probably roll out maybe three more in 
2016. The issue that we are dealing with right now is there is 
overhead cost, and we are trying to quantify that overhead cost 
in a growth environment.
    This committee helped us last year, with an additional $7 
million that really, really was very much needed at the time to 
keep sustaining our 76 programs. If we look to the future, 
there is about a $7 million to $10 million shortfall right now, 
because Defense is putting this against priorities. We talk 
about readiness. It is competing against some very tough 
priorities.
    Everyone within Defense that I have met, really, they say 
great things about this. There's not a week that goes by I'm 
not in email contact or phone call with a combatant command 
over the program.
    So we have to look and give those numbers a plus-up for the 
future, if we are going to sustain all of them and keep them 
going.
    Senator Schatz. I absolutely agree. I would just finish 
with this final thought. That is real money. But in the scope 
of things, it is small money to build goodwill in the Asia-
Pacific region. Thank you.
    Senator Cochran. The distinguished Senator from Montana, 
Mr. Daines, is recognized.
    Senator Daines. Thank you, Mr. Chairman.
    I want to thank all of you for coming here today to testify 
on the National Guard and Reserve budget request.
    The National Guard and Reserve force has played a 
significant role in the war on terror over the past decade, and 
will continue to play that significant role as our Nation faces 
increasing threats abroad.
    In my home State of Montana and throughout the United 
States, these vital members of our military are also key 
members of our communities. I'm very proud of them, and I am 
thankful for what you do and what they do to serve our country.

                 MODULAR AIRBORNE FIREFIGHTING SYSTEMS

    I want to pivot over and chat a bit about modular airborne 
firefighting Systems, or MAFFS. It is used throughout the 
country to allow the National Guard C-130 aircraft to provide 
incredible fire suppression capabilities. Unfortunately, we do 
not have MAFFS in Montana. But we do have C-130s that can be 
fitted with MAFFS, and we do have a lot of forest fires, in 
fact, the third most forest fires of States are represented in 
this room.
    It is my understanding that MAFFS are located in North 
Carolina, which previously flew all the way to Montana to 
provide support, and they are now available to be transferred.
    So my question, General Neal, do you agree that it might 
make sense to station the MAFFS in States that are most 
utilized, like Montana?
    General Neal. Senator, interestingly enough, I was a North 
Carolina guardsman. I flew MAFFS out of North Carolina to 
Montana.
    I will tell you it does make sense to have the MAFFS units 
based in the western part of the country. To that end, as I 
think you alluded to, the North Carolina Air National Guard is 
converting C-17s and giving up their MAFFS mission in the C-
130.
    So we are working with the Forest Service to identify what 
capabilities, what metrics they want to use to base a new unit. 
We will look at all that. One of them is, I would say, 
geographic location, so Montana is definitely one as far as 
geographic location to fires, definitely in the top three. And 
they are doing a great job with conversion to C-130.
    Senator Daines. I guess I would ask to get your commitment 
to work with me after this hearing to working on getting those 
MAFFS to Montana. I am glad we are in the top three. Would like 
to get them up to number one, here.
    General Neal. Can I take that for the record?
    [Laughter.]
    [The information follows:]

    The ANG worked with the US Forest Service to identify the MAFFS 
replacement unit. All ANG C-130 units were considered for this mission 
with respect to proximity to historically high fire frequency regions 
and aircrew experience in the C-130. As the parent service, the Air 
Force has established minimum qualifications for MAFFS aircrew and the 
ANG applied those standards to help determine the most appropriate unit 
to be assigned the MAFFS mission.
    On April 6, 2016, the MAFFS replacement unit was identified as the 
152 AW, Reno, NV.

    Senator Daines. All right, thank you.

                             TRIBAL HEALTH

    I want to chat a bit about tribal health. Montana is home 
to 12 federally recognized Indian tribes, seven Indian 
reservations and the State recognized Little Shell Tribe. 
Unfortunately, one of the challenges that tribal members face, 
given their rural location, is access to timely and quality 
healthcare.

                     INNOVATIVE READINESS TRAINING

    I want to thank the U.S. Army Reserve for helping to fill 
the gap in the past through innovative readiness training and 
for upholding the United States Trust responsibility to Indian 
tribes by providing health care while honoring the government-
to-government relationship.
    Exercises like Walking Shield, which brought in 22 Army 
Reserve medical professionals to the Fort Belknap tribe in 
Montana last year, allows the community to give valuable 
medical assistance, and gives our servicemembers real-world 
training.
    General Talley, what other roles can the Army Reserve play 
in providing support to our tribes?
    General Talley. Senator, thank you for the question.
    As you alluded to, our 7243 Medical Support Unit, which is 
actually out of Vegas, went to Montana to provide medical 
support while they were doing Title 10 training to our Native 
Americans.
    We do these sort of missions every year around the world, 
actually, whether it is Medical Reserve with the Navy. I think 
southeastern Missouri, we have medical teams down there, 
providing medical support to some of the disadvantaged 
populations.
    So for us, we see this as just a good way of training our 
soldiers and allowing them to help communities, specifically 
some of our disadvantaged communities like our Native 
Americans.
    Because most of your Army Reserve are technical enablers, 
most of the doctors and nurses are actually not in the Army, 
they are in the Army Reserve. The majority of the medical 
capability is in the Army Reserve.
    So we love doing those types of missions, and we are always 
looking for opportunities, because those are great training 
missions. They improve our technical and tactical capability. 
They also, to be frank, are motivating to retain and attract 
soldiers.
    So anything else we can do in Montana, we are happy to do 
it.
    Senator Daines. Anytime you get out of Vegas up to Montana 
can be motivating. I can see that. The flyfishing is better up 
there.
    General Talley. I used to be on the board in Montana before 
I came back in office at one of your universities, so I love 
Montana.
    But we have about 1,000 folks in Montana and about 22 units 
and 14 facilities, but I promise, sir, I will take a look at 
it.
    Senator Daines. I guess the question, the Army Reserve, do 
you have the funding this year that you need to continue to 
support exercises?
    General Talley. I'm sure it's like everyone up here. We 
don't have any new money but what we look is we look at where 
we get the biggest return on investment for, in this case, the 
citizen soldier. So if I have a medical unit, an engineering 
unit, a logistics unit, not all of those enablers can get to a 
CTC rotation just because CTCs, whether it is the NTC or the 
JRTC, they can't handle that capacity of enablers.
    So we often find that these sorts of support missions 
really are the best ways for our soldiers to train and practice 
their craft while helping others. So I have sufficient funding 
to continue to support that, sir.
    Senator Daines. All right. Thank you.
    Senator Cochran. Senator Moran.
    Senator Moran. Mr. Chairman, thank you very much.
    Generals, thank you very much for being here.
    To Lieutenant General Jackson and General Grass, General 
Talley and Vice Admiral Braun--in my hometown of Hays, it is 
``Brown'' even though it is ``Braun''--thank you for your 
service to our country. Best wishes in the next phase of your 
lives. We are very, very grateful for your service.
    From the perspective of sitting where I am sitting today 
and seeing you all and the individuals behind you, it gives me 
great comfort to know the leadership that our military, 
particularly in our Guard and Reserve, provide to our Nation 
and provide in my home State of Kansas and States across the 
Nation as the need arises.
    So thank you all for your service. Best wishes as 
retirement is approaching.

                          TROOP LEVEL STRENGTH

    Let me talk a little bit with about troop strength. I have 
introduced, and Senator Blunt has joined me, in a bill that we 
have labeled POSTURE. It is to stop the reduction in troop 
strength, and it affects the Active military but it is also 
important to the Guard and Reserve and, in fact, would maintain 
the troop level strength that we have had, 350,000 soldiers in 
the Army National Guard, 205,000 soldiers in the Army Reserve, 
and 38,900 Marines in the Marine Corps Reserve.
    I assume that you would tell me, but I would like you to 
tell me, that that is important to you. I had this conversation 
with General Milley when he was in front of this subcommittee. 
He is, as you know, focused so much on troop readiness and made 
clear to me and to the committee the importance of having troop 
strength so that there is sufficient ability to train and have 
those needed who are serving elsewhere as our country demands 
that. It is dependent upon having sufficient size of a military 
force.
    General Grass, I know you have worked closely with General 
Milley. I would welcome your thoughts about the importance of 
troop strength and suggestions that wouldn't returning the Army 
National Guard end strength to 350,000 support the readiness 
that you all find necessary?
    General Grass. Senator Moran, thank you.
    First, let me just say that our cooperation with the Total 
Army analysis right now that is going on is incredible, no 
doubt. I am totally in sync with Acting Secretary Murphy, as 
well as General Milley on the 980,000--and Tim can talk more 
about it--but the 980,000 number for the Army total Active, 
Guard, and Reserve is a minimally acceptable risk.
    The numbers you talk about, sir, we would go back in the 
Army Guard about 15,000, we would grow. That is about a $600 
million a year bill to be able to pay that fully burdened cost.
    So, yes, we agree that if we can bring the strength of the 
Army National Guard back to 350,000, and we could have the 
money to support it, then that would be a great option today, 
especially looking at threats around the world and the use of 
the Guard both overseas as well as at home.
    Senator Moran. General, that previous troop strength, there 
wasn't any excess capacity. It wasn't that, by design, we need 
less members of our Guard or Reserve. It was strictly a budget 
decision, I assume, and there is adequate need for that to be 
maintained. True?
    General Grass. Yes, Senator.

                       CYBER MISSION CAPABILITIES

    Senator Moran. General Grass, you and I have had a number 
of conversations, and I am pleased you and the Air National 
Guard have recognized the importance of increasing our cyber 
mission capabilities. You have been particularly cognizant of 
what is happening in Kansas.
    As you know, the 177th at McConnell specializes in red 
teaming. They are the only NSA certified cyber red team in the 
Air National Guard.
    The issue that I find now to be a challenge is training. 
There is a sufficient number of people who want to fill those 
slots, but an insufficient number of people who are training 
those individuals to do so.
    For example, one of the new cyber squadrons at McConnell 
has 42 vacancies. I don't think this is because we can't find 
the individuals who want to fill those 42 vacancies. It is 
because we only have three of those folks who are in a position 
to receive the training necessary this fiscal year. Your 
thoughts?
    General Grass. Senator, it is definitely something we, 
along with the Army and Air Force, are looking at. We are 
trying to accelerate as much as we can the standup of all of 
our units. We are looking at 30 States with cyber capability by 
2019.
    There are three levels of training that a cyber warrior 
goes through. It starts with their skill set. Whether it is 
Army or Air, they get their basic skills. Then they get their 
certifications to work in cyber range. Then the last one is 
their joint training that they receive. There is a backlog in 
training.
    We are looking at that. We are trying to figure out what we 
can do from the National Guard perspective to help the Army and 
Air Force. I know that both General Neal and General Kadavy 
have been heavily involved with their services on trying to 
figure out where we can help.
    Senator Moran. It maybe McConnell that you can provide the 
resources necessary to help train others.
    My time has expired.
    Let me just thank Lieutenant General Jackson for your 
commitment to the 931st. We have had conversations, and as a 
result of your efforts, but what really is taking place in 
Wichita, the designation has increased from a group to a wing. 
And I wanted to thank you for your involvement in that process.
    General Jackson. Thank you, Senator. I hope you can make it 
to the standup, which is going to occur the last part of April. 
You are invited there.
    Senator Moran. Thank you for the invitation, and I accept.
    General Jackson. Thank you, sir.
    Senator Moran. Thank you, Mr. Chairman.
    Senator Cochran. Thank you, Senator.

                815TH JENNIES AT KEESLER AIR FORCE BASE

    General Jackson, let me ask you a follow-up on an issue 
that we have discussed earlier. It is in regard to the manning 
of the 815th Jennies at Keesler Air Force Base in Biloxi, 
Mississippi. There have been some questions raised about 
whether this unit has been given adequate power to perform its 
missions.
    Last year, you testified that you would work with the 
Committee to ensure that the 815th have adequate manpower. I 
want you to let us know if you can update the current 
situation, your plan and timeline to reinstate the manpower and 
support required to bring the 815th Airlift Squadron to a more 
appropriate level.
    General Jackson. Senator, thank you for the question. I 
will be glad to give you an update on the Flying Jennies, the 
815th out of Keesler.
    We are very proud of that squadron. In addition to, 
obviously, the 53rd Weather Reconnaissance Squadron in 
Mississippi.
    As we discussed briefly last year, we have put in place the 
unit manning documents from this year forward, between 2016, 
2017, 2018, with the final positions in place in 2019. So the 
next 3 years, we have all the manpower required to fully 
operate and be successful with that squadron re-standup down in 
your State.
    We currently are hiring members to go ahead and fill those 
requirements. We are about 140 folks short on the full-time 
side right now, but we are bringing Reserve appropriation days 
and dollars to go ahead and put part-timers in full-time 
service to make sure we get everyone up to speed.
    I would say that I'm very proud of the fact we have hired 
our first Active Duty squadron commander down at Keesler as 
part of the 815th reactivation. So thank you for your support 
on that, sir.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Cochran. Thank you for your leadership.
    And let me thank all the members of the panel for their 
participation today at this hearing. We appreciate the 
assistance very much.
    There may be additional questions or statements submitted 
by Senators, which we may forward on to you for appropriate 
responses.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
             Questions Submitted to General Frank J. Grass
               Question Submitted by Senator Thad Cochran
                   national guard counterdrug program
    Question. As you are aware, there are five counterdrug training 
centers throughout the nation whose mission is to train State and local 
law enforcement officers to detect and interdict drugs coming across 
our borders and flowing across State lines. Last year, this Committee 
supported these schools with an appropriation of $20 million, but in 
this year's budget $5 million is requested for the training centers. Do 
you believe the counterdrug training centers could benefit from and 
utilize additional funds, if provided, in fiscal year 2017? Would you 
support this action? How could these centers help us address the opioid 
situation we currently face?
    Answer. Our partners in law enforcement and community based 
organizations continually request training provided by the five 
Counterdrug Training Centers (TCs). In order to meet the needs of our 
supported agencies the TCs would need no less than $20 million for 
Fiscal year 2017. The TCs would certainly benefit from the added 
support and would be able to significantly increase access to the 
critical training, our law enforcement partners request, increasing 
their skill sets, and increasing officer and public safety.
    I fully support any increase in funding directed toward the 
Counterdrug program and TCs. They provide unique skills and resources 
to the counterdrug arena not normally available to many of our law 
enforcement partners. With additional funding the TCs would increase 
the frequency that they provide curriculum to build LEA capacity to 
deter, interdict, and identify the criminal organizations supplying 
illicit narcotics. Through virtue of increased interactions we will 
expand the geographic influence of our training efforts across our 
State and national borders and maintain the relationships among 
agencies that make intelligence-based operations possible over the long 
term.
    Federal and regional agencies (DEA and the DA offices) have reached 
out to the TCs to host heroin summits because of the established 
relationships and information sharing mechanisms that the TCs support. 
Several courses the TCs offer address opioid issues with traditional 
curriculum, and other courses have been updated to support current 
opioid abuse issues affecting Federal, State and Local LEAs. The 
manifestation of all drugs in our communities are indicators of product 
placement through supply and demand brokered by transnational criminal 
organizations and their illicit supply networks. Degrading the ability 
of these networks to distribute illicit products will not only reduce 
today's opioid threat, but future illicit products designed to exploit 
the millions of Americans susceptible to addiction. The TCs stand ready 
to continue to support our counterdrug partners and delivering no cost 
effective law enforcement training to meet the needs of our Nation and 
counter the illicit drug threat we face today.
                                 ______
                                 
             Question Submitted by Senator Patrick J. Leahy
                planning for complex domestic operations
    Question. The Congress added the Chief of the National Guard Bureau 
as a statutory member of the Joint Chiefs of Staff because we believed 
the President needed your best military advice, and because we believe 
your dual-mission gives the Chiefs a much needed additional perspective 
on resourcing and training based on the use of the Guard for disaster 
response. What is the status of assembling the so-called ``all 
hazards'' support plans that the Bureau was tasked with assembling? Why 
does the Department need to understand the requirements the governors 
have associated with executing their non-Federalized plans or these all 
hazards support plans?
    Answer. The National Guard Bureau has complied with the 20 July 
2012 Secretary of Defense memorandum, and has assisted the States and 
territories in standardizing their Hazard Response Plans using DOD 
Joint Publication 5-0, Joint Operational Planning. NGB ensured State 
response plans contain all four levels of integration (intrastate, 
interstate, Federal (non-DOD), or Federal (DOD)), and are exercised at 
four levels. This was accomplished in fiscal year 2015 and the process 
continues to mature as the integrated planning concept is refined. 
Through the integrated planning process, NGB informs DOD and other 
Federal and Non-Federal partners across the response and recovery 
enterprise of the capabilities and capacity of the Non-Federalized 
National Guard. NGB planning efforts are integrated at both the Non-
Federal and Federal levels to articulate shortfalls and gaps in 
National Guard capabilities, avoid duplicity, enhance shared 
situational awareness across the DOD response enterprise, and enable 
unity of effort.
                                 ______
                                 
              Questions Submitted by Senator Brian Schatz
    Question. General Grass, the 169th Air Defense Squadron in Hawaii 
supports a crucial air defense mission. The squadron is on watch 24/7, 
monitoring for potential threats. And as you know, it is not often the 
liveliest job. But it is an important one.In Hawaii, though, the 169th 
relies on dual-status technicians to fill full-time operations 
positions. It is not like this anywhere else in the Army or Air Guard. 
Other squadrons fill those positions with AGRs [Active Guard Reserve], 
which is a much better fit for this 24/7 mission.Our dual-status 
technicians are compensated under the GS pay scale with starting pay 
for recruits at GS-5--less than half of the starting pay-compared to an 
AGR Staff Sergeant in other air defense squadrons.As a result, the 
169th has experienced manpower shortages and anticipates further losses 
that will result in risks to readiness, risks that are unacceptable in 
this post-9/11 era.We need to fill these units the same way others do 
across the country.
    Given the importance of this mission, shouldn't the Hawaii National 
Guard be authorized to fill those operations positions with AGR 
personnel, just as other States do?
    Answer. The Air National Guard acknowledges the challenges 
associated with the current manpower construct and has concluded that 
AGR positions are more appropriate for this mission set. Therefore, the 
Air National Guard staff is actively pursuing programmatic actions that 
will provide an opportunity to convert technicians and their associated 
military positions to AGR positions over the next few years.
                   national guard counterdrug program
    Question. Can you commit to me that you will look into and get back 
to me with a plan for converting those dual-status technicians into 
AGRs?
    Answer. The Air National Guard staff is actively pursuing 
programmatic actions that will provide an opportunity to convert 
technicians and their associated military positions to AGR positions 
over the next few years. Any programmatic action will be contained in 
the President's Budget.
                                 ______
                                 
             Question Submitted to Major General Brian Neal
               Question Submitted by Senator Brian Schatz
    Question. General Neal, I was disappointed in the Air Guard's 
decision not to base a Cyber Protection Team or ISR Squadron in Hawaii 
when it announced its decisions last fall. The Air Guard recently cut 
several combat communications units--the 201st Combat Communications 
Group and 293rd Combat Communications Squadron--and so we have 
Guardsmen with the skills to meet the manpower requirements for those 
units.Given PACOM's dependence on Hawaii's critical infrastructure, the 
cyber and intelligence missions in the State, and the specific threats 
we face from near-peer competitors, we need this capability in the 
Pacific.I strongly believe when the Air Force stands up more of these 
squadrons in the future, the Air Guard should consider the Hawaii Air 
National Guard as one of its top choices.
    Do I have your assurances that the Air Guard will work with us to 
base a Cyber Protection Team in Hawaii when the Air Force decides to 
standup additional squadrons?
    Answer. Although we have recently identified the remaining ANG 
units needed to fulfill AFSPC's current requirement, we also 
acknowledge the increasing importance of Cyber and Cyber ISR in the 
ANG. As additional requirements materialize, we will continue to work 
with all stakeholders to determine the best possible basing location 
for this mission set. Hawaii will certainly be considered in ANG's 
analysis as AFSPC's cyber requirements are known.
                                 ______
                                 
      Questions Submitted to Lieutenant General Timothy J. Kadavy
               Question Submitted by Senator Thad Cochran
                deactivation of national guard brigades
    Question. Over the past few years, there has been discussion about 
the total acceptable number of Active and Guard Brigade Combat Teams. 
For example, it has been suggested by the Army that under 
sequestration, the 155th Armored Brigade Combat Team of the Mississippi 
Army National Guard--which ranks as one of the most capable and 
technologically modernized brigades within the National Guard--might be 
divested. Given the numerous crises occurring throughout the world, 
would you recommend the 155th Armored Brigade Combat Team or any other 
Brigade Combat Team be divested? How important is it that you have 
budget certainty that the 155th will be there for you?
    Answer. The 155th Armored Brigade Combat Team (ABCT) was identified 
as a potential candidate to be rendered inactive during fiscal year 
2018 in the event of Sequestration under the 2011 Budget Control Act. 
The 2015 Bipartisan Budget Act provided the funding for the Army to 
remain at its current authorized strength of 980,000; with an Army 
National Guard at 335,000 by fiscal year 2017. In the event of full 
Sequestration, the Army National Guard would need to revisit divesting 
force structure in order to achieve a 315,000 personnel end strength 
requirements by fiscal year 2019.
    The ARNG concurs with the National Commission of the Future of the 
Army's assertion that ``an Army of 980,000 is the minimally sufficient 
force to meet current and anticipated missions with an acceptable level 
of national risk'' (NCFA, 2016, p2). Brigade Combat Teams are a 
critical structure required for the defense of the nation and any loss 
of Brigade Combat Team capacity in the Army National Guard would prove 
costly in terms of time and resources to regenerate.
                                 ______
                                 
             Question Submitted by Senator Patrick J. Leahy
                    full-time support and readiness
    Question. Vermont's 86th Infantry Brigade Combat Team just 
completed an ``on year'' which was the culmination of years of 
preparation, including a major investment when they attended a Combat 
Training Center. We understand how important the full time support from 
men and women in the Guard whose job it is to help the rest of the 
brigade achieve the level of readiness needed to serve the Nation. Can 
you explain the relationship between full time support and readiness, 
and how they help a unit like the 86th be there for the Nation? What is 
the impact of proposed reductions in full time support as we have seen 
over the last few years?
    Answer. Full-Time Support (FTS) is a strong determinant of 
readiness. An initial study from the Institute for Defense Analysis 
demonstrates a positive and statistically significant relationship 
between National Guard FTS and Soldier's personal readiness. FTS 
personnel, in an Infantry Brigade Combat Team (IBCT) like the 86th, are 
the people who organize, administer, instruct, recruit, train, and 
maintain supplies and equipment within the unit. Without FTS, the 86th 
IBCT would not be able to execute operational missions and readiness 
preparations, such as Combat Training Center rotations.
    Department of Defense policy requires the Reserve Components (RC) 
to maintain a cadre of FTS personnel in order to accomplish readiness 
goals. FTS personnel have a cumulative impact in generating RC 
readiness. The foundational readiness that FTS personnel provide, as 
described above, is required in order to enable participation in 
collective training events that generate unit readiness, and eventually 
participate in operations. Risk is taken in foundational readiness 
since States and Territories receive approximately 67 percent of their 
required FTS. Shortfalls in FTS erode a unit's ability to achieve unit 
readiness in a timely manner. This means further reductions in FTS 
personnel could result in units taking longer to respond to domestic or 
contingency operations. It is important to keep in mind that FTS 
delivers Army programs to Reserve Component Soldiers.
                                 ______
                                 
              Questions Submitted by Senator Brian Schatz
    Question. We have seen some bright spots when it comes to forming 
multicomponent units that draw on the strengths of the National Guard 
and Reserve. However, the National Commission on the Future of the Army 
found that there are still ``gaps and seams.'' So we have some work to 
do to create one Army. One area where Congress can play a more active 
role is helping make sure there is no daylight between the Active Duty, 
Guard, and Reserve when it comes to pay, benefits, and veteran status. 
Today, if a Guardsmen or Reservist is involuntarily mobilized to 
support steady State operations, they don't get the same benefits that 
those supporting contingency operations do, including education 
benefits, reduced age for retirement, and civilian differential pay. 
This seems contrary to our Total Force philosophy.
    In your view, do discrepancies in pay and benefits for Guard and 
Reserve personnel impede our progress to create one Army?
    Answer. Army National Guard Soldiers do receive different levels of 
pay and benefits depending on duty status. The Soldier and the 
Soldier's family may see the impacts when the Soldier transitions from 
one duty status to another. We would like to address the impact to 
Soldiers and their Families.
    Traditional National Guard Soldiers often train for short periods 
in status for Active Duty for Training (including annual training) and 
Inactive Duty Training (traditional drill weekend). These statuses do 
not come with identical benefits, but they do provide fair compensation 
for the demands this service places on Soldiers and their families.
    One area where there is a valid concern is when we involuntarily 
mobilize Soldiers for steady State operations under Title 10 U.S. Code 
12304b. Under this authority, Soldiers do not receive the same benefits 
they would under mobilization for contingency operations. To a Guard 
family, the authority for involuntary mobilization is irrelevant. They 
understandably question the differences in compensation and benefits in 
this case.
    Question. Do you agree with the need to mirror pay and benefits, as 
close as possible, for all of service members, regardless of component?
    Answer. Army National Guard Soldiers do receive different levels of 
pay and benefits depending on duty status. The Soldier and the 
Soldier's family may see the impacts when the Soldier transitions from 
one duty status to another.
    There are multiple authorities under which a National Guard Soldier 
may serve, such as Active-Guard Reserve, Active Duty for Training 
(including annual training), and Inactive Duty Training (traditional 
drill weekend). These different types of statuses do not come with 
identical benefits, as they place different levels of demand upon the 
Soldiers and their families, and require Soldiers to spend varying 
amounts of time away from their loved ones. In my view, the 
compensation for these duty statuses is equitable.
    One area which does warrant review is when we involuntarily 
mobilize Soldiers for steady State operations under Title 10 U.S. Code 
12304b. Under this authority, Soldiers do not currently receive the 
same benefits they would under mobilization authorities for contingency 
operations. To a Guard family, the authority for involuntary 
mobilization is irrelevant. They just want to receive fair and 
equitable compensation when they are asked to make sacrifices in 
support of our Nation's defense.
                                 ______
                                 
      Questions Submitted to Lieutenant General Jeffrey W. Talley
              Questions Submitted by Senator Brian Schatz
    Question. We have seen some bright spots when it comes to forming 
multicomponent units that draw on the strengths of the National Guard 
and Reserve. However, the National Commission on the Future of the Army 
found that there are still ``gaps and seams.'' So we have some work to 
do to create one Army. One area where Congress can play a more active 
role is helping make sure there is no daylight between the Active Duty, 
Guard, and Reserve when it comes to pay, benefits, and veteran status. 
Today, if a Guardsmen or Reservist is involuntarily mobilized to 
support steady State operations, they don't get the same benefits that 
those supporting contingency operations do, including education 
benefits, reduced age for retirement, and civilian differential pay. 
This seems contrary to our Total Force philosophy.
    In your view, do discrepancies in pay and benefits for Guard and 
Reserve personnel impede our progress to create one Army?
    Answer. The Army Reserve recognizes that unique differences exist 
between some pay and benefit packages across the Total Army to support 
the recruiting and retention needs of each component. However, while in 
a mobilized status, the Army Reserve supports equal pay and benefits 
regardless of membership within the Regular Army or a Reserve 
Component. A review of current education and retirement benefit 
packages may be beneficial to ensure that the Army's recruiting and 
retention objectives are achieved in support of an All-Volunteer Force.
    Question. Do you agree with the need to mirror pay and benefits, as 
close as possible, for all of service members, regardless of component?
    Answer. No, I do not agree that there is a need to mirror pay and 
benefits regardless of component unless in a mobilized status. We 
recognize that dissimilar pay and benefit packages are designed to 
address the unique recruiting and retention objectives for each 
component. The Army Reserve supports a review of pay parity for some 
technical career fields (see example below).
    Example. Army Reserve Aviators and Non Rated Crew Members (NCM) 
receive significantly less incentive pay than their Regular Army 
counterparts, even though credentialing and readiness requirements are 
similar across all three components. Army Reserve Aviators and NCMs 
receive 1/30th of the monthly Air Crew Incentive Pay per drill period 
or active duty day that is used to incentivize Soldiers who fly 
aircraft in the Army. Army Reserve Aviators and Aircrew members must 
fly Additional Flight Training Periods in addition to battle assembly 
to meet mandated flight requirements. This requires our Aviation 
Citizen Soldiers to take additional time off from their civilian 
employment to schedule flight periods during the week. The Army Reserve 
supports a review of pay parity for this technical field to achieve 
recruiting and retention requirements within the Aviation branch.
                                 ______
                                 
           Questions Submitted to Vice admiral Robin R. Braun
              Questions Submitted by Senator Brian Schatz
    Question. I am particularly concerned at the readiness of the 
Navy's Fleet Logistics Support Squadron FIVE ONE at Kaneohe Bay. It is 
the only logistics unit in the Pacific that provides medium lift 
capability for rapid response operations. And yet the squadron relies 
on two C-20Gs that are well beyond their service lives of 20,000 flight 
hours. These aircraft are at about 23,000 flight hours each now. And as 
the Navy continues to extend the life of these aircraft, they become 
increasingly costly and require more frequent and lengthy inductions 
into the depot. And I worry we are potentially putting our aircrew at 
risk. Also, I understand that the Navy placed C-40s and F/A-18s on the 
CNO's unfunded priority list.
    How close are we to having to ground these aircraft and lose this 
lift capability in the Pacific?
    Answer. Averaging 24 years old, Navy's cargo-variant C-20Gs at 
Kaneohe Bay are beyond their original designed service life, both in 
hours and cycles on the airframe. Nevertheless, continued operation of 
the C-20Gs is required to meet fleet logistics requirements until they 
are recapitalized with two C-40A aircraft. In the meantime, the Navy 
does not sacrifice safety in their operation. Rather, Navy works 
closely with Gulfstream to ensure safety and readiness are optimized. 
But considering the age of these specific aircraft this does result in 
greater maintenance requirements and reduced operational availability.
    Question. Which would you prioritize: the procurement of C-40A 
aircraft or recapitalization of the Reserve Strike Fighter Fleet?
    Answer. Navy Fleet Essential Aircraft fill a critical mission 
requirement that is not sourced by the Active Component. The C-40A 
provides medium-lift short-notice air logistics in support of Fleet 
requirements. In line with our rebalance to the Pacific, I believe we 
must meet the C-40A inventory requirement and recapitalize VR-51's C-
20G aircraft as soon as possible. Further, due to the inability to 
utilize NGREA Funds for Navy Reserve aircraft recapitalization and the 
Navy's understandable focus on the procurement of weapon systems, two 
C-40A are the #1 Navy Reserve equipping priority.
    On the other hand, the Navy Reserve's strike fighter force is 
facing the same inventory management challenges as the rest of the 
Department of the Navy. While we'd like to recapitalize the Navy 
Reserve strike fighter squadrons with new aircraft, the fact remains 
that the strike fighter inventory management challenge is a department-
wide concern and leadership has enacted a multifaceted recovery 
strategy. The Navy Reserve supports the department's plan, and 
anticipates the Reserve Component will experience improved aircraft 
availability and timely transitions to newer platforms according to the 
Strike Fighter Inventory Management strategy. We continue to monitor 
progress and expect that the readiness of our strike fighter squadrons 
will improve commensurate with the entire force.
                                 ______
                                 
         Question Submitted to Lieutenant General James Jackson
             Question Submitted by Senator Richard J. Leahy
                            integrated wings
    Question. When Secretary James testified last month she identified 
the establishment of an integrated wing, or i-wing, featuring airmen 
from multiple components as the next major accomplishment in achieving 
the goal of a Total Force, as recommended by the Air Force Commission 
and the Air Force's own internal reform effort. Since the first i-wing 
will be in the Air Force Reserve, can you explain what you are doing to 
make sure this pilot is successful? What is going to be the biggest 
challenge to overcome?
    Answer. Planning for an Integrated Wing (I-Wing) Pilot Program has 
been underway since 2014. Since the four phase implementation plan was 
approved in October 2015, Air Staff personnel have been diligently 
working to establish a successful I-Wing concept and pilot program. We 
chose the 916th Air Refueling Wing at Seymour Johnson AFB, South 
Carolina, specifically because it is a well-established, effective 
Active Association able to be adapted to an I-Wing construct. To ensure 
success, a cross-component working group was established in January 
2016. This group consists of participants from all appropriate areas of 
expertise from the Active Component, Air Force Reserve, and Air 
National Guard. The working group quickly developed courses of action 
and received Chief of Staff approval on a series of milestones and 
objectives to ensure the I-Wing Pilot Program achieves initial 
operational capability (IOC) on October 1, 2016 and full operational 
capability (FOC) on July 1, 2017. The working group continuously 
monitors these milestones and utilizes regular updates to Air Staff, 
major command, and component leaders to address concerns and issues 
that develop throughout the process. Active Component and Air Force 
Reserve senior leaders are working closely to select the best Total 
Force commanders and senior enlisted personnel available to lead the 
wing through a successful pilot program and beyond. Finally, specific 
subjective and objective measures of merit are being developed by a 
cross-component team that will facilitate assessment of the successes 
realized by the pilot program in order to inform future integration 
initiatives.
    There have been and will continue to be many challenges to 
establishing the pilot program. Currently, the most significant 
challenge appears to be the implementation of a Dual Hat Command 
construct. Dual Hat Command is critical to ensuring adherence to the 
first Foundational Guiding Principle on Integration. This principle 
requires each component (Active and Reserve) to maintain administrative 
control of their forces to ensure compliance with existing statutory 
obligations that guarantee readiness accountability and effective force 
management. While challenges exist, Regular and Reserve leaders assure 
me that all parties involved in the development of the Pilot Program 
will receive the necessary resources to help achieve success.

                          SUBCOMMITTEE RECESS

    Senator Cochran. The Defense Committee will reconvene on 
Wednesday, April 6, at 10:30 a.m. to receive testimony from the 
Director of National Intelligence and Under Secretary of 
Defense for Intelligence.
    Until then, this subcommittee stands in recess.
    [Whereupon, at 11:49 a.m., Wednesday, March 16, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]
</pre></body></html>
